<html>
<title> - ELECTRIC GRID SECURITY</title>
<body><pre>[Senate Hearing 112-529]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 112-529

                         ELECTRIC GRID SECURITY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   TO

EXAMINE THE STATUS OF ACTION TAKEN TO ENSURE THAT THE ELECTRIC GRID IS 
                      PROTECTED FROM CYBER ATTACKS

                               __________

                             JULY 17, 2012






<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>










                       Printed for the use of the
               Committee on Energy and Natural Resources

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
75-809 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


















               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           MIKE LEE, Utah
BERNARD SANDERS, Vermont             RAND PAUL, Kentucky
DEBBIE STABENOW, Michigan            DANIEL COATS, Indiana
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
JEANNE SHAHEEN, New Hampshire        JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                DEAN HELLER, Nevada
JOE MANCHIN, III, West Virginia      BOB CORKER, Tennessee
CHRISTOPHER A. COONS, Delaware

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel












                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Cauley, Gerry, President and Chief Executive Officer, North 
  American Electric Reliability Corporation......................    25
McClelland, Joseph, Director, Office of Electric Reliability, 
  Federal Energy Regulatory Commission...........................     4
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     2
Snitchler, Todd A., Chairman, Public Utilities Commission of Ohio    32
Wilshusen, Gregory C., Director, Information Security Issues, 
  Government Accountability Office...............................    11

                                APPENDIX

Responses to additional questions................................    57

 
                         ELECTRIC GRID SECURITY

                              ----------                              


                         TUESDAY, JULY 17, 2012

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Jeff Bingaman, 
chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. OK. Why don't we go ahead and get started?
    I am advised that Senator Murkowski is on her way, but 
urged us to proceed. This morning's hearing is to examine the 
status of actions taken by the Federal Energy Regulatory 
Commission or FERC, and the North American Electric Reliability 
Corporation or NERC, and the States to protect the electric 
grid from computer attacks on their facilities and control 
systems.
    I don't think we need to talk much about the serious nature 
of this issue. Last week, we experienced a week-long outage in 
much of this region. It was a weather-related outage, but it 
demonstrates how important reliable service on the electric 
grid is.
    We read every day of newly discovered attacks or threats on 
computer systems in this country and around the world. 
According to the Director of National Intelligence, there's 
been a dramatic increase in the frequency of malicious cyber 
activity, targeting U.S. computers and networks, including a 
more than tripling of the volume of malicious software, since 
2009. So, the threat is real, and it is serious.
    In 2005, we gave FERC the authority to name an entity to 
develop and enforce standards to protect the reliability of the 
grid. I believe that there are two things that we can say about 
the system that has emerged since then.
    First, the current reliability system does have a mandatory 
character, so the electric grid is the only critical 
infrastructure in this country that has some form of an 
enforceable standard for cybersecurity.
    Second, the current reliability system that has emerged is 
cumbersome and overly complicated. This may be adequate to deal 
with reliability concerns like, standards for trimming trees so 
that they do not fall on transmission lines, but when it comes 
to cyber attacks, I am concerned that the current system is not 
adequate.
    The process to develop standards started in earnest in 2006 
when NERC filed a series of reliability standards with NERC; a 
number of them related to cybersecurity and FERC found them 
wanting. In a series of filings since then, NERC has corrected 
some of the shortcomings that the FERC highlighted.
    As recently as April, version 4 of the cyber standards was 
approved, with the provision that NERC address the remaining 
inadequacies by the end of the first quarter of next year. That 
means that we are here today in this committee, 7 years after 
we passed the law, and we are still waiting for this process to 
produce the full set of adequately protective standards that we 
need. That cumbersome process has to address a threat, whose 
nature is rapidly changing. The standards that are in place may 
not be flexible enough to deal with emerging threats, and we 
still do not have an effective system in place to require 
action in the face of an imminent cyber attack.
    NERC has developed a system of alerts to help the industry 
with newly discovered threats. I will have some questions about 
that system, how that system is working in practice.
    The concerns that have prompted this hearing are ones that 
have resulted in bipartisan cybersecurity legislation that we 
have reported from this committee, both this Congress and in 
the last Congress. In 2010, Senator Murkowski and I agreed on 
an expedited approach to cybersecurity standards that was 
centered at FERC and that passed the committee unanimously. 
That bill was hotlined for passage in the Senate at the end of 
the last Congress. It ran into holes from two of our colleagues 
and, perhaps, more.
    Last year, Senator Murkowski and I reworked the proposal 
into one that featured a greater role for NERC, but allowed 
FERC to set effective deadlines for action and also gave the 
Secretary of Energy emergency cybersecurity authority. Once 
again, that bill passed this committee unanimously.
    I don't believe that the cyber threat facing the electric 
grid has gotten any less serious since last year, when we acted 
on a bipartisan basis to pass our legislation out of the 
committee.
    In the testimony for today's hearing, there are suggestions 
that there are additional cyber issues that also need focused 
attention, particularly with respect to the implementation of 
smart grid technologies. We need to address these 
vulnerabilities that are clearly before us. The bill that 
passed this committee unanimously would be an excellent place 
to start. It did a good job of balancing the need to avail 
ourselves of the expertise in industry on these issues, with 
the need to act expeditiously. Nothing since then has changed 
the need for clear authority to deal with immediate emergencies 
and longer-term vulnerabilities.
    As we all agreed last year, processes that take years to 
bear fruit, may be sufficient for less urgent reliability 
issues, but not for the challenges we face in cybersecurity. 
So, I look forward to hearing from the witnesses.
    Let me defer to Senator Murkowski for any opening 
statements she would like to make.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. Welcome, to all 
the witnesses this morning. I appreciate the hearing today.
    Of course, the purpose of this morning's hearing is to take 
another--and, perhaps, a closer--look at the ongoing efforts to 
protect our Nation's grid from cyber attacks. I do think it is 
important that we recognize the tremendous amount of work that 
has already gone into safeguarding the grid's reliability.
    Back in 2005, Congress directed FERC to select an electric 
reliability organization, now known as the NERC, and tasked it 
with establishing and enforcing mandatory reliability 
standards, including cyber standards.
    I think it has been a difficult, time-consuming process, 
but I would like to commend NERC for the professional and 
balanced way that it has consistently met its responsibilities.
    There is no question, Mr. Chairman, as you point out, that 
cybersecurity is an absolutely critical issue. It should be 
addressed by this Congress. I am certain that every member of 
this body is concerned that our Nation may be vulnerable to 
cyber attacks that could have severe economic and security 
ramifications.
    We see stories about this just about every day, on 
individuals, on companies, on the Government--these cyber 
incursions. It is time for us to take steps to protect 
ourselves from a very real and emerging threat.
    Last year, as you point out, Mr. Chairman, the Energy 
Committee did report out a sector-specific cybersecurity bill. 
This action was taken in response to the majority leader's 
directive to the various committees with cyber jurisdiction to 
produce their own bills. At which point, they would all be 
stitched together into a single piece of cybersecurity 
legislation.
    I think, Mr. Chairman, that the Energy Committee was the 
only committee to have actually done just exactly that. But 
since that time, now over a year ago, circumstances have 
evolved. I think there is near agreement that we need a 
comprehensive approach to the cybersecurity problem. Some would 
have us believe that only the Department of Homeland Security 
and a host of new Federal regulations will protect us from 
persistent cyber threats.
    But I don't think that heavy-handed static requirements 
from yet another Federal regulator will address the very real 
threat that we face. I think, instead, that we need a much more 
nimble approach to deal with cyber-related threats that are 
constantly growing and always changing.
    I have joined with a number of other Ranking Member 
colleagues to introduce, what we're calling, the Secure IT Act. 
This is S. 3342. I think it's a pragmatic approach to this 
issue. We focus on 4 areas that, I believe, we can draw 
bipartisan support for. That is within the area of information 
sharing. We have got FISMA reform, criminal penalties, 
additional research.
    But what the Secure IT Act does not do, I think, is equally 
important. It does not add new layers of bureaucracy and 
regulation that will serve little purpose and achieve meager 
results. I think it is a pretty straightforward approach to 
cybersecurity that can go a long ways in addressing our 
problem.
    Mr. Chairman, I thank you for convening this hearing. I 
look forward to hearing what the witnesses have to say on the 
actions that have been taken to date, as well as the ongoing 
efforts to secure the grid at both the transmission and the 
distribution level.
    The Chairman. Thank you very much. I would just point out 
that the Majority Leader has advised, I think, everyone who's--
listens to his statements that he hopes we can move to 
cybersecurity legislation on the Senate floor between now and 
the time we adjourn in August, and so, I think this hearing is 
particularly timely for that reason.
    Let me introduce our 4 witnesses.
    First is, Mr. Joseph McClelland, Director of the Office of 
Electric Reliability at the Federal Energy Regulatory 
Commission.
    Next is, Mr. Gregory C. Wilshusen, who is the Director of 
Information and Technology, with the Government Accountability 
Office.
    Third is, Mr. Gerry Cauley, who is President and Chief 
Executive Officer with the North American Electric Reliability 
Corporation, NERC. Thank you very much for being here.
    Mr. Todd Snitchler, who is the Chairman of the Public 
Utility Commission of Ohio. Thank you very much for being here.
    Mr. McClelland, why don't you start. If each of you could 
take 5 or 6 minutes and give us the main things you think we 
need to understand about the issue. We will then have some 
questions.

 STATEMENT OF JOSEPH MCCLELLAND, DIRECTOR, OFFICE OF ELECTRIC 
       RELIABILITY, FEDERAL ENERGY REGULATORY COMMISSION

    Mr. McClelland. Thank you, Mr. Chairman.
    Mr. Chairman, Ranking Member, and members of the committee, 
thank you for the privilege to appear before you today to 
discuss the security of the electric grid. My name is Joe 
McClelland, and I am the Director of the Office of Electric 
Reliability at the Federal Energy Regulatory Commission.
    I am here today as a Commission staff witness and my 
remarks do not necessarily represent the views of the Chairman 
or any individual commissioner.
    The Commission is committed to protecting the reliability 
of the Nation's bulk power system. Nevertheless, limitations in 
Federal authority do not fully protect the grid against 
physical and cyber threats. My testimony summarizes the 
Commission's oversight of the reliability of the electric grid 
under section 215 of the Federal Power Act, and the 
Commission's implementation of that authority, with respect to 
cyber-related reliability issues, primarily through Order 706
    In the Energy Policy Act of 2005, Congress entrusted the 
Commission with a major new responsibility, to oversee 
mandatory enforceable reliability and cybersecurity standards 
for the Nation's bulk power system. This authority is in new 
section 215 of the Federal Power Act.
    Under the new authority, FERC cannot author or modify 
reliability standards, but must select an Electric Reliability 
Organization, or ERO, to perform this task. The ERO develops 
and proposes reliability standards or modifications for the 
Commission's review, which it can then either approve or 
remand.
    If the Commission approves the proposed reliability 
standard, it applies to the users, owners, and operators of a 
bulk power system and becomes mandatory in the United States. 
If the Commission remands a proposed standard, it is sent back 
to the ERO for further consideration.
    The Commission selected the North American Electric 
Reliability Corporation, or NERC, as the ERO. It is important 
to note that FERC's jurisdiction and reliability authority is 
limited to the ``bulk power system,'' as defined in the FPA, 
which excludes Alaska and Hawaii distribution systems, and can 
exclude transmission facilities in certain large cities, such 
as New York.
    In addition to the reliability authority, FERC is also 
charged with oversight of the cybersecurity of the bulk power 
system. As is the case with non-security issues, FERC's 
authority under 215 of our cybersecurity is exercised through 
the reliability standards developed by the ERO and approved by 
FERC. Pursuant to this duty, FERC approved 8 cybersecurity 
standards known as the Critical Infrastructure Protection 
standards, or CIP standards, proposed by NERC, while 
concurrently directing modifications to them in January 2008.
    Three sets of modifications, responding to the Commission's 
directives, have been received from the ERO, and the last was 
approved earlier this year.
    Although the CIP standards are approved, full compliance 
with these revised standards will not be mandatory until 2014. 
More importantly, in approving the latest revision of the CIP 
standards, the Commission recognized that they are an interim 
step and raised its concern that the newly revised standards do 
not provide enough protection to satisfy the Commission's 
January 2008 Order. Thus, the Commission established a deadline 
for the end of the first quarter of 2013, for NERC to file 
standards in compliance with the outstanding directives in that 
Order.
    Physical attacks against the power grid can cause equal or 
great destruction than cyber attacks. One example of a physical 
threat is an electromagnetic pulse, or EMP, event.
    In 2001, Congress established a commission to assess the 
threat from EMP. In 2004 and, again, in 2008, the Commission 
issued its reports. Among the findings in the reports were that 
a single EMP attack could seriously degrade or shut down a 
large part of the electric power grid. Depending upon the 
attack, significant parts of the electric infrastructure could 
be, ``Out of service for periods measured in months to a year 
or more.''
    In addition to man-made attacks, EMP events are also 
naturally generated, caused by solar flares and storms, 
disrupting the Earth's magnetic field. Such events can be 
powerful and can also cause significant and prolonged 
disruptions to the power grid.
    The standards development system utilized under FPA 215 
develops mandatory reliability standards, using an open and 
inclusive process, based on consensus. Although it can be an 
effective mechanism with dealing with the routine requirements 
of the power grid, it is inadequate when addressing threats to 
the power grid that endanger national security.
    Despite its active role in approving reliability standards, 
FERC's current legal authority is insufficient to assure 
direct, timely, and mandatory action to protect the grid, 
particularly where certain information should not be publicly 
disclosed.
    Any new legislation should address several key concerns. 
First, legislation should allow the Federal Government to take 
action before a cyber or physical national security incident 
has occurred.
    Second, any legislation should ensure appropriate 
confidentiality of the sensitive information submitted, 
developed, or issued under this authority.
    Third, if additional reliability authority is limited to 
the bulk power system, as that term is currently defined in the 
FPA, it would not authorize Federal action to mitigate cyber or 
other national security threats to reliability that involve 
certain critical facilities in major population areas.
    Finally, it is important that entities be able to recover 
costs that they incur to mitigate vulnerabilities and threats.
    Thank you for your attention today. I am available to 
address any questions that you may have.
    [The prepared statement of Mr. McClelland follows:]

 Prepared Statement of Joseph McClelland, Director, Office of Electric 
           Reliability, Federal Energy Regulatory Commission
    Mr. Chairman, Ranking Member and Members of the Committee:
    Thank you for this opportunity to appear before you to discuss the 
security of the electric grid. My name is Joseph McClelland. I am the 
Director of the Office of Electric Reliability (OER) of the Federal 
Energy Regulatory Commission (FERC or Commission). The Commission's 
role with respect to reliability is to help protect and improve the 
reliability of the Nation's bulk power system through effective 
regulatory oversight as established in the Energy Policy Act of 2005. I 
am here today as a Commission staff witness and my remarks do not 
necessarily represent the views of the Commission or any individual 
Commissioner.
    The Commission is committed to protecting the reliability of the 
nation's bulk electric system; nevertheless, the Commission's current 
authority is not adequate to address cyber or other national security 
threats to the reliability of our transmission and power system. These 
types of threats pose an increasing risk to our Nation's electric grid, 
which undergirds our government and economy and helps ensure the health 
and welfare of our citizens.
    I will describe how limitations in Federal authority do not fully 
protect the grid against physical and cyber threats. My testimony also 
summarizes the Commission's oversight of the reliability of the 
electric grid under section 215 of the Federal Power Act (FPA) and the 
Commission's implementation of that authority with respect to cyber 
related reliability issues primarily through Order No. 706.
                               background
    In the Energy Policy Act of 2005 (EPAct 2005), Congress entrusted 
the Commission with a major new responsibility to oversee mandatory, 
enforceable reliability standards for the Nation's bulk power system 
(excluding Alaska and Hawaii). This authority is in section 215 of the 
Federal Power Act. Section 215 requires the Commission to select an 
Electric Reliability Organization (ERO) that is responsible for 
proposing, for Commission review and approval, reliability standards or 
modifications to existing reliability standards to help protect and 
improve the reliability of the Nation's bulk power system. The 
Commission has certified the North American Electric Reliability 
Corporation (NERC) as the ERO. The reliability standards apply to the 
users, owners and operators of the bulk power system and become 
mandatory in the United States only after Commission approval. The ERO 
also is authorized to impose, after notice and opportunity for a 
hearing, penalties for violations of the reliability standards, subject 
to Commission review and approval. The ERO may delegate certain 
responsibilities to ``Regional Entities,'' subject to Commission 
approval.
    The Commission may approve proposed reliability standards or 
modifications to previously approved standards if it finds them ``just, 
reasonable, not unduly discriminatory or preferential, and in the 
public interest.'' The Commission itself does not have authority to 
modify proposed standards. Rather, if the Commission disapproves a 
proposed standard or modification, section 215 requires the Commission 
to remand it to the ERO for further consideration. The Commission, upon 
its own motion or upon complaint, may direct the ERO to submit a 
proposed standard or modification on a specific matter but it does not 
have the authority to modify or author a standard and must depend upon 
the ERO to do so.
Limitations of Section 215 and the Term ``Bulk Power System''
    Currently, the Commission's jurisdiction and reliability authority 
is limited to the ``bulk power system,'' as defined in the FPA, and 
therefore excludes Alaska and Hawaii, including any federal 
installations located therein. The current interpretation of ``bulk 
power system'' also excludes some transmission and all local 
distribution facilities, including virtually all of the grid facilities 
in certain large cities such as New York, thus precluding Commission 
action to mitigate cyber or other national security threats to 
reliability that involve such facilities and major population areas. 
The Commission directed NERC to revise its interpretation of the bulk 
power system to eliminate inconsistencies across regions, eliminate the 
ambiguity created by the current discretion in NERC's definition of 
bulk electric system, provide a backstop review to ensure that any 
variations do not compromise reliability, and ensure that facilities 
that could significantly affect reliability are subject to mandatory 
rules. NERC has recently filed a revised definition of the term bulk 
power system, and the Commission has solicited comments on its proposal 
to accept NERC's revised definition. However, it is important to note 
that section 215 of the FPA excludes local distribution facilities from 
the Commission's reliability jurisdiction, so any revised bulk electric 
system definition developed by NERC will still not apply to local 
distribution facilities.
Critical Infrastructure Protection Reliability Standards
    An important part of the Commission's current responsibility to 
oversee the development of reliability standards for the bulk power 
system involves cyber related reliability issues. In August 2006, NERC 
submitted eight proposed cyber standards, known as the Critical 
Infrastructure Protection (CIP) standards, to the Commission for 
approval under section 215. Critical infrastructure, as defined by NERC 
for purposes of the CIP standards, includes facilities, systems, and 
equipment which, if destroyed, degraded, or otherwise rendered 
unavailable, would affect the reliability or operability of the ``Bulk 
Electric System.'' Under NERC's implementation plan for the CIP 
standards, full compliance became mandatory on July 1, 2010.
    On January 18, 2008, the Commission issued Order No. 706, the Final 
Rule approving the CIP reliability standards while concurrently 
directing NERC to develop significant modifications addressing specific 
concerns. The Commission set a deadline of July 1, 2009 for NERC to 
resolve certain issues in the CIP reliability standards, including 
deletion of the ``reasonable business judgment'' and ``acceptance of 
risk'' language in each of the standards. NERC concluded that this 
deadline would create a very compressed schedule for its stakeholder 
process. Therefore, it divided all of the changes directed by the 
Commission into phases, based on their complexity. NERC opted to 
resolve the simplest changes in the first phase, while putting off more 
complex changes for later versions.
    NERC filed the first phase of the modifications to the CIP 
Reliability Standards (Version 2) on May 22, 2009. In this phase, NERC 
removed from the standards the terms ``reasonable business judgment'' 
and ``acceptance of risk,'' added a requirement for a ``single senior 
manager'' responsible for CIP compliance, and made certain other 
administrative and clarifying changes. In a September 30, 2009 order, 
the Commission approved the Version 2 CIP standards and directed NERC 
to develop additional modifications to certain of them. Pursuant to the 
Commission's September 30, 2009 order, NERC submitted Version 3 of the 
CIP standards which revised Version 2 as directed. The Version 3 CIP 
standards became effective on October 1, 2010. This first phase of the 
modifications directed by the Commission in Order No. 706, which 
encompassed both Version 2 and Version 3, did not modify the critical 
asset identification process, a central concern in Order No. 706.
    On February 10, 2011, NERC initiated the second phase of the Order 
No. 706 directed modification, filing a petition seeking approval of 
Version 4 of the CIP standards. Version 4 includes new proposed 
criteria to identify ``critical assets'' for purposes of the CIP 
reliability standards. On April 19, 2012, the Commission issued Order 
No. 761, approving the Version 4 CIP standards, which introduced 
``bright line'' criteria for the identification of Critical Assets. The 
version 4 CIP standards do not go into effect until April 1, 2014. The 
currently effective CIP reliability standards allow utilities 
significant discretion to determine which of their facilities are 
``critical assets and the associated critical cyber assets,'' and 
therefore are subject to the requirements of the standards. It is 
important to note that although ``critical assets'' are used to 
identify subsequent ``critical cyber assets,'' only the subset of 
``critical cyber assets''--which are self-determined by the affected 
entities--are subject to the CIP standards. As the Commission stated in 
Order No. 706, the identification of critical assets is the cornerstone 
of the CIP standards. If that identification is not done well, the CIP 
standards will be ineffective at maintaining the reliability of the 
bulk power system.
    In the order approving NERC's Version 4 standards, the Commission 
recognized that Version 4 is an interim step and stated its concern 
that Version 4 does not provide enough protection to satisfy Order No. 
706. Thus, the Commission established a deadline of end of first 
quarter of 2013 for NERC to file standards in compliance with the 
outstanding directives in Order No. 706.
    The remaining CIP standards revisions to respond to the 
Commission's directives issued in Order No. 706 are still under 
development by NERC. It is important to note that the majority of the 
Order No. 706 directed modifications to the CIP standards have yet to 
be addressed by NERC. Until they are addressed, there are significant 
gaps in protection.
                            the nerc process
    As an initial matter, it is important to recognize how mandatory 
reliability standards are established. Under section 215, reliability 
standards must be developed by the ERO through an open, inclusive, and 
public process. The Commission can direct NERC to develop a reliability 
standard to address a particular reliability matter. However, the NERC 
process typically requires years to develop standards for the 
Commission's review. In fact, the CIP standards approved by the 
Commission in January 2008 took approximately three years to develop.
    NERC's procedures for developing standards allow extensive 
opportunity for stakeholder comment, are open, and are generally based 
on the procedures of the American National Standards Institute. The 
NERC process is intended to develop consensus on both the need for, and 
the substance of, the proposed standard. Although inclusive, the 
process is relatively slow, open and unpredictable in its 
responsiveness to the Commission's directives. This process requires 
public disclosure regarding the reason for the proposed standard, the 
manner in which the standard will address the issues, and any 
subsequent comments and resulting modifications in the standards as the 
affected stakeholders review the material and provide comments. NERC-
approved standards are then submitted to the Commission for its review.
    The procedures used by NERC are appropriate for developing and 
approving routine reliability standards. The process allows extensive 
opportunities for industry and public comment. The public nature of the 
reliability standards development process can be a strength of the 
process. However, it can be an impediment when measures or actions need 
to be taken to address threats to national security quickly, 
effectively and in a manner that protects against the disclosure of 
security-sensitive information. The current procedures used under 
section 215 for the development and approval of reliability standards 
do not provide an effective and timely means of addressing urgent cyber 
or other national security risks to the bulk power system, particularly 
in emergency situations. Certain circumstances, such as those involving 
national security, may require immediate action, while the reliability 
standard procedures take too long to implement efficient and timely 
corrective steps. On September 3, 2010, FERC approved a new reliability 
standards process manual filed by NERC. While this manual includes a 
process for developing a standard related to a confidential issue, the 
new process is untested and it is unclear how the process would be 
implemented.
    FERC rules governing review and establishment of reliability 
standards allow the agency to direct the ERO to develop and propose 
reliability standards under an expedited schedule. For example, FERC 
could order the ERO to submit a reliability standard to address a 
reliability vulnerability within 60 days. Also, NERC's rules of 
procedure include a provision for approval of ``urgent action'' 
standards that can be completed within 60 days and which may be further 
expedited by a written finding by the NERC board of trustees that an 
extraordinary and immediate threat exists to bulk power system 
reliability or national security. However, it is not clear NERC could 
meet this schedule in practice. Moreover, faced with a national 
security threat to reliability, there may be a need to act decisively 
in hours or days, rather than weeks, months or years. That would not be 
feasible even under the urgent action process. In the meantime, the 
bulk power system would be left vulnerable to a known national security 
threat. Moreover, existing procedures, including the urgent action 
procedure, could widely publicize both the vulnerability and the 
proposed solutions, thus increasing the risk of hostile actions before 
the appropriate solutions are implemented.
    In addition, a reliability standard submitted to the Commission by 
NERC may not be sufficient to address the identified vulnerability or 
threat. Since FERC may not directly modify a proposed reliability 
standard under section 215 and must either approve or remand it, FERC 
would have the choice of approving an inadequate standard and directing 
changes, which reinitiates a process that can take years, or rejecting 
the standard altogether. Under either approach, the bulk power system 
would remain vulnerable for a prolonged period.
    This concern was highlighted in the Department of Energy Inspector 
General's January 2011 audit report on FERC's ``Monitoring of Power 
Grid Cyber Security.'' The audit report identified concerns regarding 
the adequacy of the CIP standards and the implementation and schedule 
for the CIP standards, and concluded that these problems exist, in 
part, because the Commission's authority to ensure adequate reliability 
of the bulk electric system is limited. This report emphasizes the need 
for additional authority to ensure adequate cyber security over the 
bulk electric system.
    Finally, the open and inclusive process required for standards 
development is not consistent with the need to protect security-
sensitive information. For instance, a formal request for a new 
standard would normally detail the need for the standard as well as the 
proposed mitigation to address the issue, and the NERC-approved version 
of the standard would be filed with the Commission for review. This 
public information could help potential adversaries in planning 
attacks.
           physical security and other threats to reliability
    The existing reliability standards do not extend to physical 
threats to the grid, but physical threats can cause equal or greater 
destruction than cyber attacks and the Federal government should have 
no less ability to act to protect against such potential damage. One 
example of a physical threat is an electromagnetic pulse (EMP) event. 
EMP events can be generated from either naturally occurring or man-made 
causes. In the case of the former, solar magnetic disturbances 
periodically disrupt the earth's magnetic field which in turn, can 
generate large induced ground currents. This effect, also termed the 
``E3'' component of an EMP, can simultaneously damage or destroy bulk 
power system transformers over a large geographic area. Regarding man-
made events, EMP can also be generated by weapons. Equipment and plans 
are readily available that have the capability to generate high-energy 
bursts, termed ``E1'', that can damage or destroy electronics such as 
those found in control and communication systems on the power grid. 
These devices can be portable and effective, facilitating simultaneous 
coordinated attacks, and can be reused, allowing use against multiple 
targets. The most comprehensive man-made EMP threat is from a high-
altitude nuclear explosion. It would affect an area defined by the 
``line-of-sight'' from the point of detonation. The higher the 
detonation the larger the area affected, and the more powerful the 
explosion the stronger the EMP emitted. The first component of the 
resulting pulse E1 occurs within a fraction of a second and can destroy 
control and communication electronics. The second component is termed 
``E2'' and is similar to lightning, which is well-known and mitigated 
by industry. Toward the end of an EMP event, a third element, E3, 
occurs. This causes the same effect as solar magnetic disturbances. It 
can damage or destroy power transformers connected to long transmission 
lines. It is important to note that effective mitigation against solar 
magnetic disturbances and non-nuclear EMP weaponry provides effective 
mitigation against a high-altitude nuclear explosion.
    In 2001, Congress established a commission to assess the threat 
from EMP, with particular attention to be paid to the nature and 
magnitude of high-altitude EMP threats to the United States; 
vulnerabilities of U.S. military and civilian infrastructure to such 
attack; capabilities to recover from an attack; and the feasibility and 
cost of protecting military and civilian infrastructure, including 
energy infrastructure. In 2004, the EMP commission issued a report 
describing the nature of EMP attacks, vulnerabilities to EMP attacks, 
and strategies to respond to an attack.\1\ A second report was produced 
in 2008 that further investigated vulnerabilities of the Nation's 
infrastructure to EMP.\2\ Both electrical equipment and control systems 
can be damaged by EMP.
---------------------------------------------------------------------------
    \1\ Graham, Dr. William R. et al., Report of the Commission to 
Assess the Threat to the United States from Electromagnetic Pulse (EMP) 
Attack (2004).
    \2\ Dr. John S. Foster, Jr. et al., Report of the Commission to 
Assess the Threat to the United States from Electromagnetic Pulse (EMP) 
Attack (2008).
---------------------------------------------------------------------------
    An EMP may also be a naturally-occurring event caused by solar 
flares and storms disrupting the Earth's magnetic field. In 1859, a 
major solar storm occurred, causing auroral displays and significant 
shifts of the Earth's magnetic fields. As a result, telegraphs were 
rendered useless and several telegraph stations burned down. The 
impacts of that storm were muted because semiconductor technology did 
not exist at the time. Were the storm to happen today, according to an 
article in Scientific American, it could ``severely damage satellites, 
disable radio communications, and cause continent-wide electrical 
black-outs that would require weeks or longer to recover from.''\3\ 
Although storms of this magnitude occur rarely, storms and flares of 
lesser intensity occur more frequently. Storms of about half the 
intensity of the 1859 storm occur every 50 years or so according to the 
authors of the Scientific American article, and the last such storm 
occurred in November 1960, leading to world-wide geomagnetic 
disturbances and radio outages. The power grid is particularly 
vulnerable to solar storms, as transformers are electrically grounded 
to the Earth and susceptible to damage from geomagnetically induced 
currents. The damage or destruction of numerous transformers across the 
country would result in reduced grid functionality and even prolonged 
power outages.
---------------------------------------------------------------------------
    \3\ Odenwald, Sten F. and Green, James L., Bracing the Satellite 
Infrastructure for a Solar Superstorm, Scientific American Magazine 
(Jul. 28, 2008).
---------------------------------------------------------------------------
    In March 2010, Oak Ridge National Laboratory (Oak Ridge) and their 
subcontractor Metatech released a study that explored the vulnerability 
of the electric grid to EMP-related events. This study was a joint 
effort contracted by FERC staff, the Department of Energy and the 
Department of Homeland Security and expanded on the information 
developed in other initiatives, including the EMP commission reports. 
The series of reports provided detailed technical background and 
outlined which sections of the power grid are most vulnerable, what 
equipment would be affected, and what damage could result. Protection 
concepts for each threat and additional methods for remediation were 
also included along with suggestions for mitigation. The results of the 
study support the general conclusion that EMP events pose substantial 
risk to equipment and operation of the Nation's power grid and under 
extreme conditions could result in major long term electrical outages. 
In fact, solar magnetic disturbances are inevitable with only the 
timing and magnitude subject to variability. The study assessed the 
1921 solar storm, which has been termed a 1-in-100 year event, and 
applied it to today's power grid. The study concluded that such a storm 
could damage or destroy up to 300 bulk power system transformers 
interrupting service to 130 million people for a period of years.
    On April 30, 2012, the Commission held a technical conference to 
discuss issues related to reliability of the bulk power system as 
affected by geomagnetic disturbances. The conference explored the risks 
and impacts from geomagnetically induced currents to transformers and 
other equipment on the bulk power system, as well as options for 
addressing or mitigating the risks and impacts. The Commission is 
considering the comments filed after that conference.
    The existing reliability standards do not address EMP 
vulnerabilities. Protecting the electric generation, transmission and 
distribution systems from severe damage due to an EMP-related event 
would involve vulnerability assessments at every level of electric 
infrastructure.
                        the need for legislation
    In my view, section 215 of the Federal Power Act provides an 
adequate statutory foundation for the ERO to develop most reliability 
standards for the bulk power system. However, the nature of a national 
security threat by entities intent on attacking the U.S. through 
vulnerabilities in its electric grid stands in stark contrast to other 
major reliability vulnerabilities that have caused regional blackouts 
and reliability failures in the past, such as vegetation management and 
protective relay maintenance practices. Widespread disruption of 
electric service can quickly undermine the U.S. government, its 
military, and the economy, as well as endanger the health and safety of 
millions of citizens. Given the national security dimension to this 
threat, there may be a need to act quickly to protect the grid, to act 
in a manner where action is mandatory rather than voluntary, and to 
protect certain information from public disclosure.
    The Commission's current legal authority is inadequate for such 
action. This is true of both cyber and physical threats to the bulk 
power system that pose national security concerns. Section 215 of the 
FPA excludes all facilities in Alaska and Hawaii and all local 
distribution facilities from the Commission's reliability jurisdiction, 
which may leave significant facilities vulnerable to the threat of a 
cyber or physical attack. In addition, although the NERC standards 
development process as envisioned in section 215 can be fine for 
routine reliability matters, it is too slow, too open and too 
unpredictable to ensure its responsiveness in the cases where national 
security is endangered. This process is inadequate when measures or 
actions need to be taken to address threats to national security 
quickly, effectively and in a manner that protects against the 
disclosure of security-sensitive information.
    These shortcomings can be solved through a comprehensive, 
government-wide approach to cyber security issues or through a sector-
specific approach. If a government-wide course is pursued, care should 
be taken to ensure that the two approaches complement each other, 
preserving FERC's ability to regulate electric reliability effectively. 
Any new legislation should address several key concerns. First, to 
prevent a significant risk of disruption to the grid, legislation 
should allow the federal government to take action before a cyber or 
physical national security incident has occurred. In particular, the 
federal government should be able to require mitigation even before or 
while NERC and its stakeholders develop a standard, when circumstances 
require urgent action. Second, any legislation should ensure 
appropriate confidentiality of sensitive information submitted, 
developed or issued under this authority. Without such confidentiality, 
the grid may be more vulnerable to attack. Third, if additional 
reliability authority is limited to the bulk power system, as that term 
is currently defined in the FPA, it would not authorize Federal action 
to mitigate cyber or other national security threats to reliability 
that involve certain critical facilities and major population areas. 
Fourth, it is important that entities be able to recover costs they 
incur to mitigate vulnerabilities and threats.
                               conclusion
    The Commission's current authority is not adequate to address cyber 
or other national security threats to the reliability of our 
transmission and power system. These types of threats pose an 
increasing risk to our Nation's electric grid, which undergirds our 
government and economy and helps ensure the health and welfare of our 
citizens. Thank you again for the opportunity to testify today. I would 
be happy to answer any questions you may have.

    The Chairman. Thank you very much.
    Mr. Wilshusen, go right ahead.

 STATEMENT OF GREGORY C. WILSHUSEN, DIRECTOR, INFORMATION AND 
          TECHNOLOGY, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Wilshusen. Mr. Chairman, Ranking Member Murkowski, 
members of the committee. Thank you for the opportunity to 
testify at today's hearing on actions to secure the electricity 
grid.
    As you know, the electric power industry, which is composed 
of electricity generation, transmission, distribution, and 
system operations, is increasingly incorporating information 
technology systems and networks into its existing 
infrastructure, as it modernizes the electricity grid.
    The use of IT can provide many benefits, such as greater 
efficiency and reliability, and lower costs to consumers. 
However, this increased reliance on computer systems and 
networks also introduces cyber-based risk to the grid if the 
systems and networks are not properly protected.
    For nearly a decade, GAO has identified the protection of 
systems supporting our Nation's critical infrastructure, which 
includes the electricity grid, as a Government-wide, high risk 
area.
    Today, I will discuss the cyber threats to the electricity 
grid and several of the actions taken and challenges remaining 
to secure the grid. But, first, if I may, Mr. Chairman, I would 
like to recognize several members of my team who were 
instrumental in developing this statement and also conducting 
the work on which it is based.
    With me today is Anjalique Lawrence, seated behind me. Back 
at the office: Mike Gilmore, Lee McCracken, David Trimble, Jon 
Ludwigson, and Paige Gilbreath, all played significant roles 
and made significant contributions.
    Mr. Chairman, the threats to systems supporting the 
electricity grid are evolving and growing. They include both 
unintentional and intentional threats, and may come in the form 
of equipment failures, as well as targeted and untargeted 
attacks from our adversaries.
    The interconnectivity between industrial control systems, 
computer networks, and the Internet can amplify the impact of 
these threats and expose the grid to known and unknown 
cybersecurity vulnerabilities, potentially affecting the 
operations of critical infrastructures, the security of 
sensitive information, and the flow of commerce. Several 
reported incidents illustrate the potentially serious impact of 
these threats.
    To address such concerns, State and Federal authorities 
play key roles in overseeing grid reliability, which involves 
the security of the grid. State regulators generally oversee 
the reliability of local distribution system; whereas, NERC has 
developed and enforced mandatory standards intended to ensure 
the reliability of the bulk power system, which includes 
certain generation facilities and the high voltage electricity 
transmission network.
    FERC has approved and, thus, made mandatory, 8 critical 
infrastructure standards developed by NERC to help ensure the 
secure electronic exchange of information and to prevent 
unauthorized physical and logical access to critical cyber 
assets.
    In addition, NIST has identified guidelines on how to 
securely implement smart grid systems and identified an initial 
set of interoperability and cybersecurity standards for the 
smart grid. However, FERC has not yet adopted these standards, 
citing a lack of consensus for them.
    GAO has previously reported on a number of key challenges 
to securing the modernized electricity grid; for example, 
aspects of current regulatory environment may complicate 
matters. Specifically, jurisdictional issues and the 
difficulties associated with responding to continually evolving 
cyber threats were a key regulatory challenge to ensuring the 
cybersecurity of the grid.
    We also reported other challenges affecting industry 
efforts to secure the smart grid. Specifically, the electricity 
industry had not consistently built security features for 
certain smart grid devices, established an effective mechanism 
for sharing cybersecurity information, and created a set of 
metrics for evaluating the effectiveness of cybersecurity 
controls.
    GAO has made several recommendations to FERC aimed at 
addressing these challenges and the Commission has agreed with 
these recommendations.
    In summary, Mr. Chairman, the evolving and growing threat 
from cyber-based attacks highlights the importance of securing 
the electricity industry's systems and networks. A successful 
attack could result in wide-spread power outages, significant 
monetary losses, and extensive property damage.
    More needs to be done to meet the challenges facing the 
industry and enhancing security. In particular, Federal 
regulators and other stakeholders will need to work closely 
together with the private sector, to address cybersecurity 
challenges, as the generation, transmission, and distribution 
of electricity come to rely more on emerging and sophisticated 
technologies.
    Mr. Chairman, Ranking Member, this completes my statement. 
I would be happy to answer any questions.
    [The prepared statement of Mr. Wilshusen follows:]

 Prepared Statement of Gregory C. Wilshusen, Director, Information and 
              Technology, Government Accountability Office
                         why gao did this study
    The electric power industry is increasingly incorporating 
information technology (IT) systems and networks into its existing 
infrastructure (e.g., electricity networks, including power lines and 
customer meters). This use of IT can provide many benefits, such as 
greater efficiency and lower costs to consumers. However, this 
increased reliance on IT systems and networks also exposes the grid to 
cybersecurity vulnerabilities, which can be exploited by attackers. 
Moreover, GAO has identified protecting systems supporting our nation's 
critical infrastructure (which includes the electricity grid) as a 
governmentwide high-risk area.
    GAO was asked to testify on the status of actions to protect the 
electricity grid from cyber attacks. Accordingly, this statement 
discusses (1) cyber threats facing cyber-reliant critical 
infrastructures, which include the electricity grid, and (2) actions 
taken and challenges remaining to secure the grid against cyber 
attacks. In preparing this statement, GAO relied on previously 
published work in this area and reviewed reports from other federal 
agencies, media reports, and other publicly available sources.
                          what gao recommends
    In a prior report, GAO has made recommendations related to 
electricity grid modernization efforts, including developing an 
approach to monitor compliance with voluntary standards. These 
recommendations have not yet been implemented.
                             what gao found
    The threats to systems supporting critical infrastructures are 
evolving and growing. In testimony, the Director of National 
Intelligence noted a dramatic increase in cyber activity targeting U.S. 
computers and systems, including a more than tripling of the volume of 
malicious software. Varying types of threats from numerous sources can 
adversely affect computers, software, networks, organizations, entire 
industries, and the Internet itself. These include both unintentional 
and intentional threats, and may come in the form of targeted or 
untargeted attacks from criminal groups, hackers, disgruntled 
employees, nations, or terrorists. The interconnectivity between 
information systems, the Internet, and other infrastructures can 
amplify the impact of these threats, potentially affecting the 
operations of critical infrastructures, the security of sensitive 
information, and the flow of commerce. Moreover, the electricity grid's 
reliance on IT systems and networks exposes it to potential and known 
cybersecurity vulnerabilities, which could be exploited by attackers. 
The potential impact of such attacks has been illustrated by a number 
of recently reported incidents and can include fraudulent activities, 
damage to electricity control systems, power outages, and failures in 
safety equipment.
    To address such concerns, multiple entities have taken steps to 
help secure the electricity grid, including the North American Electric 
Reliability Corporation, the National Institute of Standards and 
Technology (NIST), the Federal Energy Regulatory Commission, and the 
Departments of Homeland Security and Energy. These include, in 
particular, establishing mandatory and voluntary cybersecurity 
standards and guidance for use by entities in the electricity industry. 
For example, the North American Electric Reliability Corporation and 
the Federal Energy Regulatory Commission, which have responsibility for 
regulation and oversight of part of the industry, have developed and 
approved mandatory cybersecurity standards and additional guidance. In 
addition, NIST has identified cybersecurity standards that support 
smart grid interoperability and has issued a cybersecurity guideline. 
The Departments of Homeland Security and Energy have also played roles 
in disseminating guidance on security practices and providing other 
assistance.
    As GAO previously reported, there were a number of ongoing 
challenges to securing electricity systems and networks. These include:

  <bullet> A lack of a coordinated approach to monitor industry 
        compliance with voluntary standards.
  <bullet> Aspects of the current regulatory environment made it 
        difficult to ensure the cybersecurity of smart grid systems.
  <bullet> A focus by utilities on regulatory compliance instead of 
        comprehensive security.
  <bullet> A lack of security features consistently built into smart 
        grid systems.
  <bullet> The electricity industry did not have an effective mechanism 
        for sharing information on cybersecurity and other issues.
  <bullet> The electricity industry did not have metrics for evaluating 
        cybersecurity.

    Chairman Bingaman, Ranking Member Murkowski, and Members of the 
Committee:
    Thank you for the opportunity to testify at today's hearing on the 
status of actions to protect the electricity grid from cyber attacks.
    As you know, the electric power industry is increasingly 
incorporating information technology (IT) systems and networks into its 
existing infrastructure (e.g., electricity networks including power 
lines and customer meters). This use of IT can provide many benefits, 
such as greater efficiency and lower costs to consumers. Along with 
these anticipated benefits, however, cybersecurity and industry experts 
have expressed concern that, if not implemented securely, modernized 
electricity grid systems will be vulnerable to attacks that could 
result in widespread loss of electrical services essential to 
maintaining our national economy and security.
    In addition, since 2003 we have identified protecting systems 
supporting our nation's critical infrastructure (which includes the 
electricity grid) as a governmentwide high-risk area, and we continue 
to do so in the most recent update to our high-risk list.\1\
---------------------------------------------------------------------------
    \1\ GAO's biennial high-risk list identifies government programs 
that have greater vulnerability to fraud, waste, abuse, and 
mismanagement or need transformation to address economy, efficiency, or 
effectiveness challenges. We have designated federal information 
security as a governmentwide high-risk area since 1997; in 2003, we 
expanded this high-risk area to include protecting systems supporting 
our nation's critical infrastructure--referred to as cyber-critical 
infrastructure protection, or cyber CIP. See, most recently, GAO, High-
Risk Series: An Update, GAO-11-278 (Washington, D.C.: February 2011).
---------------------------------------------------------------------------
    In my testimony today, I will describe (1) cyber threats facing 
cyber-reliant critical infrastructures,\2\ which include the 
electricity grid, and (2) actions taken and challenges remaining to 
secure the grid against cyber attacks. In preparing this statement in 
July 2012, we relied on our previous work in this area, including 
studies examining efforts to secure the electricity grid and associated 
challenges and cybersecurity guidance.\3\ (Please see the related GAO 
products in appendix I.) The products upon which this statement is 
based contain detailed overviews of the scope of our reviews and the 
methodology we used. We also reviewed documents from the Federal Energy 
Regulatory Commission, the North American Electric Reliability 
Corporation, the Department of Energy, including its Office of the 
Inspector General, and the Department of Homeland Security Industrial 
Control Systems Cyber Emergency Response Team, as well as publicly 
available reports on cyber incidents. The work on which this statement 
is based was performed in accordance with generally accepted government 
auditing standards. Those standards require that we plan and perform 
audits to obtain sufficient, appropriate evidence to provide a 
reasonable basis for our findings and conclusions. We believe that the 
evidence obtained provided a reasonable basis for our findings and 
conclusions based on our audit objectives.
---------------------------------------------------------------------------
    \2\ Federal policy established 18 critical infrastructure sectors. 
These include, for example, banking and finance, communications, public 
health, and energy. The energy sector includes subsectors for oil and 
gas and for electricity.
    \3\ GAO, Critical Infrastructure Protection: Cybersecurity Guidance 
Is Available, but More Can Be Done to Promote Its Use, GAO-12-92 
(Washington, D.C.: Dec. 9, 2011), and Electricity Grid Modernization: 
Progress Being Made on Cybersecurity Guidelines, but Key Challenges 
Remain to be Addressed, GAO-11-117 (Washington, D.C.: Jan. 12, 2011).
---------------------------------------------------------------------------
                               background
    The electricity industry, as shown in figure 1, is composed of four 
distinct functions: generation, transmission, distribution, and system 
operations. Once electricity is generated--whether by burning fossil 
fuels; through nuclear fission; or by harnessing wind, solar, 
geothermal, or hydro energy--it is generally sent through high-voltage, 
high-capacity transmission lines to local electricity distributors. 
Once there, electricity is transformed into a lower voltage and sent 
through local distribution lines for consumption by industrial plants, 
businesses, and residential consumers. Because electric energy is 
generated and consumed almost instantaneously, the operation of an 
electric power system requires that a system operator constantly 
balance the generation and consumption of power.
    Utilities own and operate electricity assets, which may include 
generation plants, transmission lines, distribution lines, and 
substations--structures often seen in residential and commercial areas 
that contain technical equipment such as switches and transformers to 
ensure smooth, safe flow of current and regulate voltage. Utilities may 
be owned by investors, municipalities, and individuals (as in 
cooperative utilities). System operators--sometimes affiliated with a 
particular utility or sometimes independent and responsible for 
multiple utility areas--manage the electricity flows. These system 
operators manage and control the generation, transmission, and 
distribution of electric power using control systems--IT-and network-
based systems that monitor and control sensitive processes and physical 
functions, including opening and closing circuit breakers.\4\ As we 
have previously reported, the effective functioning of the electricity 
industry is highly dependent on these control systems.\5\ However, for 
many years, aspects of the electricity network lacked (1) adequate 
technologies--such as sensors--to allow system operators to monitor how 
much electricity was flowing on distribution lines, (2) communications 
networks to further integrate parts of the electricity grid with 
control centers, and (3) computerized control devices to automate 
system management and recovery.
---------------------------------------------------------------------------
    \4\ Circuit breakers are devices used to open or close electric 
circuits. If a transmission or distribution line is in trouble, a 
circuit breaker can disconnect it from the rest of the system.
    \5\ GAO, Critical Infrastructure Protection: Multiple Efforts to 
Secure Control Systems Are Under Way, but Challenges Remain, GAO-07-
1036 (Washington, D.C.: Sept. 10, 2007).
---------------------------------------------------------------------------
            modernization of the electricity infrastructure
    As the electricity industry has matured and technology has 
advanced, utilities have begun taking steps to update the electricity 
grid--the transmission and distribution systems--by integrating new 
technologies and additional IT systems and networks. Though utilities 
have regularly taken such steps in the past, industry and government 
stakeholders have begun to articulate a broader, more integrated vision 
for transforming the electricity grid into one that is more reliable 
and efficient; facilitates alternative forms of generation, including 
renewable energy; and gives consumers real-time information about 
fluctuating energy costs.
    This vision--the smart grid--would increase the use of IT systems 
and networks and two-way communication to automate actions that system 
operators formerly had to make manually. Electricity grid modernization 
is an ongoing process, and initiatives have commonly involved 
installing advanced metering infrastructure (smart meters) on homes and 
commercial buildings that enable two-way communication between the 
utility and customer. Other initiatives include adding ``smart'' 
components to provide the system operator with more detailed data on 
the conditions of the transmission and distribution systems and better 
tools to observe the overall condition of the grid (referred to as 
``wide-area situational awareness''). These include advanced, smart 
switches on the distribution system that communicate with each other to 
reroute electricity around a troubled line and high-resolution, time-
synchronized monitors--called phasor measurement units--on the 
transmission system.
    The use of smart grid systems may have a number of benefits, 
including improved reliability from fewer and shorter outages, downward 
pressure on electricity rates resulting from the ability to shift peak 
demand, an improved ability to shift to alternative sources of energy, 
and an improved ability to detect and respond to potential attacks on 
the grid.
                 regulation of the electricity industry
    Both the federal government and state governments have authority 
for overseeing the electricity industry. For example, the Federal 
Energy Regulatory Commission (FERC) regulates rates for wholesale 
electricity sales and transmission of electricity in interstate 
commerce. This includes approving whether to allow utilities to recover 
the costs of investments they make to the transmission system, such as 
smart grid investments. Meanwhile, local distribution and retail sales 
of electricity are generally subject to regulation by state public 
utility commissions.
    State and federal authorities also play key roles in overseeing the 
reliability of the electric grid. State regulators generally have 
authority to oversee the reliability of the local distribution system. 
The North American Electric Reliability Corporation (NERC) is the 
federally designated U.S. Electric Reliability Organization, and is 
overseen by FERC. NERC has responsibility for conducting reliability 
assessments and developing and enforcing mandatory standards to ensure 
the reliability of the bulk power system--i.e., facilities and control 
systems necessary for operating the transmission network and certain 
generation facilities needed for reliability. NERC develops reliability 
standards collaboratively through a deliberative process involving 
utilities and others in the industry, which are then sent to FERC for 
approval. These standards include critical infrastructure protection 
standards for protecting electric utility-critical and cyber-critical 
assets. FERC has responsibility for reviewing and approving the 
reliability standards or directing NERC to modify them.
    In addition, the Energy Independence and Security Act of 2007\6\ 
established federal policy to support the modernization of the 
electricity grid and required actions by a number of federal agencies, 
including the National Institute of Standards and Technology (NIST), 
FERC, and the Department of Energy. With regard to cybersecurity, the 
act required NIST and FERC to take the following actions:
---------------------------------------------------------------------------
    \6\ Pub. L. No. 110-140 (Dec. 19, 2007).

  <bullet>  NISTwas to coordinate development of a framework that 
        includes protocols and model standards for information 
        management to achieve interoperability of smart grid devices 
        and systems. As part of its efforts to accomplish this, NIST 
        planned to identify cybersecurity standards for these systems 
        and also identified the need to develop guidelines for 
        organizations such as electric companies on how to securely 
        implement smart grid systems. In January 2011,\7\ we reported 
        that NIST had identified 11 standards involving cybersecurity 
        that support smart grid interoperability and had issued a first 
        version of a cybersecurity guideline.\8\
---------------------------------------------------------------------------
    \7\ GAO-11-117.
    \8\ NIST Special Publication 1108, NIST Framework and Roadmap for 
Smart Grid Interoperability Standards, Release 1.0, January 2010 and 
NIST Interagency Report 7628, Guidelines for Smart Grid Cyber Security, 
August 2010.
---------------------------------------------------------------------------
  <bullet> FERC was to adopt standards resulting from NIST's efforts 
        that it deemed necessary to ensure smart grid functionality and 
        interoperability. However, according to FERC officials, the 
        statute did not provide specific additional authority to allow 
        FERC to require utilities or manufacturers of smart grid 
        technologies to follow these standards. As a result, any 
        standards identified and developed through the NIST-led process 
        are voluntary unless regulators use other authorities to 
        indirectly compel utilities and manufacturers to follow them.
the electricity grid is potentially vulnerable to an evolving array of 
                          cyber-based threats
    Threats to systems supporting critical infrastructure--which 
includes the electricity industry and its transmission and distribution 
systems--are evolving and growing. In February 2011, the Director of 
National Intelligence testified that, in the past year, there had been 
a dramatic increase in malicious cyber activity targeting U.S. 
computers and networks, including a more than tripling of the volume of 
malicious software since 2009.\9\ Different types of cyber threats from 
numerous sources may adversely affect computers, software, networks, 
organizations, entire industries, or the Internet. Cyber threats can be 
unintentional or intentional. Unintentional threats can be caused by 
software upgrades or maintenance procedures that inadvertently disrupt 
systems. Intentional threats include both targeted and untargeted 
attacks from a variety of sources, including criminal groups, hackers, 
disgruntled employees, foreign nations engaged in espionage and 
information warfare, and terrorists. Table 1 shows common sources of 
cyber threats.
---------------------------------------------------------------------------
    \9\ Director of National Intelligence, Statement for the Record on 
the Worldwide Threat Assessment of the U.S. Intelligence Community, 
statement before the Senate Select Committee on Intelligence (Feb. 16, 
2011).

                TABLE 1: SOURCES OF CYBERSECURITY THREATS
------------------------------------------------------------------------
              Threat source                         Description
------------------------------------------------------------------------
Bot-network operators                      Bot-net operators use a
                                            network, or bot-net, of
                                            compromised, remotely
                                            controlled systems to
                                            coordinate attacks and to
                                            distribute phishing schemes,
                                            spam, and malware attacks.
                                            The services of these
                                            networks are sometimes made
                                            available on underground
                                            markets (e.g., purchasing a
                                            denial-of-service attack or
                                            services to relay spam or
                                            phishing attacks).
------------------------------------------------------------------------
Criminal groups                            Criminal groups seek to
                                            attack systems for monetary
                                            gain. Specifically,
                                            organized criminal groups
                                            use spam, phishing, and
                                            spyware/malware to commit
                                            identity theft, online
                                            fraud, and computer
                                            extortion. International
                                            corporate spies and criminal
                                            organizations also pose a
                                            threat to the United States
                                            through their ability to
                                            conduct industrial espionage
                                            and large-scale monetary
                                            theft and to hire or develop
                                            hacker talent.
------------------------------------------------------------------------
Hackers                                    Hackers break into networks
                                            for the thrill of the
                                            challenge, bragging rights
                                            in the hacker community,
                                            revenge, stalking, monetary
                                            gain, and political
                                            activism, among other
                                            reasons. While gaining
                                            unauthorized access once
                                            required a fair amount of
                                            skill or computer knowledge,
                                            hackers can now download
                                            attack scripts and protocols
                                            from the Internet and launch
                                            them against victim sites.
                                            Thus, while attack tools
                                            have become more
                                            sophisticated, they have
                                            also become easier to use.
                                            According to the Central
                                            Intelligence Agency, the
                                            large majority of hackers do
                                            not have the requisite
                                            expertise to threaten
                                            difficult targets such as
                                            critical U.S. networks.
                                            Nevertheless, the worldwide
                                            population of hackers poses
                                            a relatively high threat of
                                            an isolated or brief
                                            disruption causing serious
                                            damage.
------------------------------------------------------------------------
Insiders                                   The disgruntled organization
                                            insider is a principal
                                            source of computer crime.
                                            Insiders may not need a
                                            great deal of knowledge
                                            about computer intrusions
                                            because their knowledge of a
                                            target system often allows
                                            them to gain unrestricted
                                            access to cause damage to
                                            the system or to steal
                                            system data. The insider
                                            threat includes contractors
                                            hired by the organization,
                                            as well as careless or
                                            poorly trained employees who
                                            may inadvertently introduce
                                            malware into systems.
------------------------------------------------------------------------
Nations                                    Nations use cyber tools as
                                            part of their information-
                                            gathering and espionage
                                            activities. In addition,
                                            several nations are
                                            aggressively working to
                                            develop information warfare
                                            doctrine, programs, and
                                            capabilities. Such
                                            capabilities enable a single
                                            entity to have a significant
                                            and serious impact by
                                            disrupting the supply,
                                            communications, and economic
                                            infrastructures that support
                                            military power--impacts that
                                            could affect the daily lives
                                            of citizens across the
                                            country. In his January 2012
                                            testimony, the Director of
                                            National Intelligence stated
                                            that, among state actors,
                                            China and Russia are of
                                            particular concern.
------------------------------------------------------------------------
Phishers                                   Individuals or small groups
                                            execute phishing schemes in
                                            an attempt to steal
                                            identities or information
                                            for monetary gain. Phishers
                                            may also use spam and
                                            spyware or malware to
                                            accomplish their objectives.
------------------------------------------------------------------------
Spammers                                   Individuals or organizations
                                            distribute unsolicited e-
                                            mail with hidden or false
                                            information in order to sell
                                            products, conduct phishing
                                            schemes, distribute spyware
                                            or malware, or attack
                                            organizations (e.g., a
                                            denial of service).
------------------------------------------------------------------------
Spyware or malware authors                 Individuals or organizations
                                            with malicious intent carry
                                            out attacks against users by
                                            producing and distributing
                                            spyware and malware. Several
                                            destructive computer viruses
                                            and worms have harmed files
                                            and hard drives, including
                                            the Melissa Macro Virus, the
                                            Explore.Zip worm, the CIH
                                            (Chernobyl) Virus, Nimda,
                                            Code Red, Slammer, and
                                            Blaster.
------------------------------------------------------------------------
Terrorists                                 Terrorists seek to destroy,
                                            incapacitate, or exploit
                                            critical infrastructures in
                                            order to threaten national
                                            security, cause mass
                                            casualties, weaken the
                                            economy, and damage public
                                            morale and confidence.
                                            Terrorists may use phishing
                                            schemes or spyware/malware
                                            in order to generate funds
                                            or gather sensitive
                                            information.
------------------------------------------------------------------------
 Source: GAO analysis based on data from the Director of National
  Intelligence, Department of Justice, Central Intelligence Agency, and
  the Software Engineering Institute's CERT Coordination Center.


    These sources of cyber threats make use of various techniques, or 
exploits that may adversely affect computers, software, a network, an 
organization's operation, an industry, or the Internet itself. Table 2 
shows common types of cyber exploits.

                    TABLE 2: TYPES OF CYBER EXPLOITS
------------------------------------------------------------------------
             Type of exploit                        Description
------------------------------------------------------------------------
Cross-site scripting                       An attack that uses third-
                                            party web resources to run
                                            script within the victim's
                                            web browser or scriptable
                                            application. This occurs
                                            when a browser visits a
                                            malicious website or clicks
                                            a malicious link. The most
                                            dangerous consequences occur
                                            when this method is used to
                                            exploit additional
                                            vulnerabilities that may
                                            permit an attacker to steal
                                            cookies (data exchanged
                                            between a web server and a
                                            browser), log key strokes,
                                            capture screen shots,
                                            discover and collect network
                                            information, and remotely
                                            access and control the
                                            victim's machine.
------------------------------------------------------------------------
Denial-of-service                          An attack that prevents or
                                            impairs the authorized use
                                            of networks, systems, or
                                            applications by exhausting
                                            resources.
------------------------------------------------------------------------
Distributed denial-of-service              A variant of the denial-of-
                                            service attack that uses
                                            numerous hosts to perform
                                            the attack.
------------------------------------------------------------------------
Logic bombs                                A piece of programming code
                                            intentionally inserted into
                                            a software system that will
                                            cause a malicious function
                                            to occur when one or more
                                            specified conditions are
                                            met.
------------------------------------------------------------------------
Phishing                                   A digital form of social
                                            engineering that uses
                                            authentic-looking, but fake,
                                            e-mails to request
                                            information from users or
                                            direct them to a fake
                                            website that requests
                                            information.
------------------------------------------------------------------------
Passive wiretapping                        The monitoring or recording
                                            of data, such as passwords
                                            transmitted in clear text,
                                            while they are being
                                            transmitted over a
                                            communications link. This is
                                            done without altering or
                                            affecting the data.
------------------------------------------------------------------------
Structured Query Language (SQL) injection  An attack that involves the
                                            alteration of a database
                                            search in a web-based
                                            application, which can be
                                            used to obtain unauthorized
                                            access to sensitive
                                            information in a database.
------------------------------------------------------------------------
Trojan horse                               A computer program that
                                            appears to have a useful
                                            function, but also has a
                                            hidden and potentially
                                            malicious function that
                                            evades security mechanisms
                                            by, for example,
                                            masquerading as a useful
                                            program that a user would
                                            likely execute.
------------------------------------------------------------------------
Virus                                      A computer program that can
                                            copy itself and infect a
                                            computer without the
                                            permission or knowledge of
                                            the user. A virus might
                                            corrupt or delete data on a
                                            computer, use e-mail
                                            programs to spread itself to
                                            other computers, or even
                                            erase everything on a hard
                                            disk. Unlike a computer
                                            worm, a virus requires human
                                            involvement (usually
                                            unwitting) to propagate.
------------------------------------------------------------------------
War driving                                The method of driving through
                                            cities and neighborhoods
                                            with a wireless-equipped
                                            computer--sometimes with a
                                            powerful antenna--searching
                                            for unsecured wireless
                                            networks.
------------------------------------------------------------------------
Worm                                       A self-replicating, self-
                                            propagating, self-contained
                                            program that uses network
                                            mechanisms to spread itself.
                                            Unlike computer viruses,
                                            worms do not require human
                                            involvement to propagate.
------------------------------------------------------------------------
Zero-day exploit                           An exploit that takes
                                            advantage of a security
                                            vulnerability previously
                                            unknown to the general
                                            public. In many cases, the
                                            exploit code is written by
                                            the same person who
                                            discovered the
                                            vulnerability. By writing an
                                            exploit for the previously
                                            unknown vulnerability, the
                                            attacker creates a potent
                                            threat since the compressed
                                            timeframe between public
                                            discoveries of both makes it
                                            difficult to defend against
------------------------------------------------------------------------
 Source: GAO analysis of data from the National Institute of Standards
  and Technology, United States Computer Emergency Readiness Team, and
  industry reports.

          electricity grid faces cybersecurity vulnerabilities
    The potential impact of these threats is amplified by the 
connectivity between information systems, the Internet, and other 
infrastructures, creating opportunities for attackers to disrupt 
critical services, including electrical power. In addition, the 
increased reliance on IT systems and networks also exposes the electric 
grid to potential and known cybersecurity vulnerabilities. These 
vulnerabilities include

  <bullet> an increased number of entry points and paths that can be 
        exploited by potential adversaries and other unauthorized 
        users;
  <bullet> the introduction of new, unknown vulnerabilities due to an 
        increased use of new system and network technologies;
  <bullet> wider access to systems and networks due to increased 
        connectivity; and
  <bullet> an increased amount of customer information being collected 
        and transmitted, providing incentives for adversaries to attack 
        these systems and potentially putting private information at 
        risk of unauthorized disclosure and use.

    In May 2008, we reported that the corporate network of the 
Tennessee Valley Authority--the nation's largest public power company, 
which generates and distributes power in an area of about 80,000 square 
miles in the southeastern United States--contained security weaknesses 
that could lead to the disruption of control systems networks and 
devices connected to that network.\10\ We made 19 recommendations to 
improve the implementation of information security program activities 
for the control systems governing the Tennessee Valley Authority's 
critical infrastructures and 73 recommendations to address specific 
weaknesses in security controls. The Tennessee Valley Authority 
concurred with the recommendations and has taken steps to implement 
them.
---------------------------------------------------------------------------
    \10\ GAO, Information Security: TVA Needs to Address Weaknesses in 
Control Systems and Networks, GAO-08-526 (Washington, D.C.: May 21, 
2008).
---------------------------------------------------------------------------
    We and others have also reported that smart grid and related 
systems have known cyber vulnerabilities. For example, cybersecurity 
experts have demonstrated that certain smart meters can be successfully 
attacked, possibly resulting in disruption to the electricity grid. In 
addition, we have reported that control systems used in industrial 
settings such as electricity generation have vulnerabilities that could 
result in serious damages and disruption if exploited.\11\ Further, in 
2007, the Department of Homeland Security, in cooperation with the 
Department of Energy, ran a test that demonstrated that a vulnerability 
commonly referred to as ``Aurora'' had the potential to allow 
unauthorized users to remotely control, misuse, and cause damage to a 
small commercial electric generator. Moreover, in 2008, the Central 
Intelligence Agency reported that malicious activities against IT 
systems and networks have caused disruption of electric power 
capabilities in multiple regions overseas, including a case that 
resulted in a multicity power outage.\12\ As government, private 
sector, and personal activities continue to move to networked 
operations, the threat will continue to grow.
---------------------------------------------------------------------------
    \11\ GAO-07-1036.
    \12\ The White House, Cyberspace Policy Review: Assuring a Trusted 
and Resilient Information and Communications Infrastructure 
(Washington, D.C.: May 29, 2009).
---------------------------------------------------------------------------
  reported incidents illustrate the potential impact of cyber threats
    Cyber incidents continue to affect the electricity industry. For 
example, the Department of Homeland Security's Industrial Control 
Systems Cyber Emergency Response Team recently noted that the number of 
reported cyber incidents affecting control systems of companies in the 
electricity sector increased from 3 in 2009 to 25 in 2011. In addition, 
we and others have reported\13\ that cyber incidents can affect the 
operations of energy facilities, as the following examples illustrate:
---------------------------------------------------------------------------
    \13\ GAO-07-1036 and GAO-12-92.

  <bullet> Smart meter attacks.--In April 2012, it was reported that 
        sometime in 2009 an electric utility asked the FBI to help it 
        investigate widespread incidents of power thefts through its 
        smart meter deployment. The report indicated that the 
        miscreants hacked into the smart meters to change the power 
        consumption recording settings using software available on the 
        Internet.
  <bullet> Phishing attacks directed at energy sector.--The Department 
        of Homeland Security's Industrial Control Systems Cyber 
        Emergency Response Team reported that, in 2011, it deployed 
        incident response teams to an electric bulk provider and an 
        electric utility that had been victims of broader phishing 
        attacks. The team found three malware samples and detected 
        evidence of a sophisticated threat actor.
  <bullet> Stuxnet.--In July 2010, a sophisticated computer attack 
        known as Stuxnet was discovered. It targeted control systems 
        used to operate industrial processes in the energy, nuclear, 
        and other critical sectors. It is designed to exploit a 
        combination of vulnerabilities to gain access to its target and 
        modify code to change the process.
  <bullet> Browns Ferry power plant.--In August 2006, two circulation 
        pumps at Unit 3 of the Browns Ferry, Alabama, nuclear power 
        plant failed, forcing the unit to be shut down manually. The 
        failure of the pumps was traced to excessive traffic on the 
        control system network, possibly caused by the failure of 
        another control system device.
  <bullet> Northeast power blackout.--In August 2003, failure of the 
        alarm processor in the control system of FirstEnergy, an Ohio-
        based electric utility, prevented control room operators from 
        having adequate situational awareness of critical operational 
        changes to the electrical grid. When several key transmission 
        lines in northern Ohio tripped due to contact with trees, they 
        initiated a cascading failure of 508 generating units at 265 
        power plants across eight states and a Canadian province.
  <bullet> Davis-Besse power plant.--The Nuclear Regulatory Commission 
        confirmed that in January 2003, the Microsoft SQL Server worm 
        known as Slammer infected a private computer network at the 
        idled Davis-Besse nuclear power plant in Oak Harbor, Ohio, 
        disabling a safety monitoring system for nearly 5 hours. In 
        addition, the plant's process computer failed, and it took 
        about 6 hours for it to become available again.
actions have been taken to secure the electricity grid, but challenges 
                                 remain
    Multiple entities have taken steps to help secure the electricity 
grid, including NERC, NIST, FERC, and the Departments of Homeland 
Security and Energy. NERC has performed several activities that are 
intended to secure the grid. It has developed eight critical 
infrastructure standards for protecting electric utility-critical and 
cyber-critical assets.
    The standards established requirements for the following key 
cybersecurity-related controls: critical cyber asset identification, 
security management controls, personnel and training, electronic 
``security perimeters,'' physical security of critical cyber assets, 
systems security management, incident reporting and response planning, 
and recovery plans for critical cyber assets. In December 2011, we 
reported that NERC's eight cyber security standards, along with 
supplementary documents, were substantially similar to NIST guidance 
applicable to federal agencies.\14\
---------------------------------------------------------------------------
    \14\ GAO-12-92.
---------------------------------------------------------------------------
    NERC also has published security guidelines for companies to 
consider for protecting electric infrastructure systems, although such 
guidelines are voluntary and typically not checked for compliance. For 
example, NERC's June 2010 Security Guideline for the Electricity 
Sector: Identifying Critical Cyber Assets is intended to assist 
entities in identifying and developing a list of critical cyber assets 
as described in the mandatory standards. NERC also has enforced 
compliance with mandatory cybersecurity standards through its 
Compliance Monitoring and Enforcement Program, subject to FERC review. 
NERC has assessed monetary penalties for violations of its cyber 
security standards.
    NIST, in implementing its responsibilities under the Energy 
Independence and Security Act of 2007 with regard to standards to 
achieve interoperability of smart grid systems, planned to identify 
cybersecurity standards for these systems. In January 2011, we 
reported\15\ that it had identified 11 standards involving 
cybersecurity that support smart grid interoperability and had issued a 
first version of a cybersecurity guideline.\16\ NIST's cybersecurity 
guidelines largely addressed key cybersecurity elements, such as 
assessment of cybersecurity risks and identification of security 
requirements (i.e., controls); however, its guidelines did not address 
an important element essential to securing smart grid systems--the risk 
of attacks using both cyber and physical means.\17\ NIST officials said 
that they intended to update the guidelines to address this and other 
missing elements they identified, but their plan and schedule for doing 
so were still in draft form. We recommended that NIST finalize its plan 
and schedule for incorporating missing elements, and NIST officials 
agreed. We are currently working with officials to determine the status 
of their efforts to address these recommendations.
---------------------------------------------------------------------------
    \15\ GAO-11-117.
    \16\ NIST Special Publication 1108, NIST Framework and Roadmap for 
Smart Grid Interoperability Standards, Release 1.0, January 2010 and 
NIST Interagency Report 7628, Guidelines for Smart Grid Cyber Security, 
August 2010.
    \17\ GAO-11-117.
---------------------------------------------------------------------------
    FERC also has taken several actions to help secure the electricity 
grid. For example, it reviewed and approved NERC's eight critical 
infrastructure protection standards in 2008. Since then, in its role of 
overseeing the development of reliability standards, the commission has 
directed NERC to make numerous changes to standards to improve 
cybersecurity protections. However, according to the FERC Chairman's 
February 2012 letter in response to our report on electricity grid 
modernization, many of the outstanding directives have not been 
incorporated into the latest versions of the standards. The Chairman 
added that the commission would continue to work with NERC to 
incorporate the directives. In addition, FERC has authorized NERC to 
enforce mandatory reliability standards for the bulk power system, 
while retaining its authority to enforce the same standards and assess 
penalties for violations. We reported in January 2011 that FERC also 
had begun reviewing initial smart grid standards identified as part of 
NIST efforts. However, in July 2011, the commission declined to adopt 
the initial smart grid standards identified as a part of the NIST 
efforts, finding that there was insufficient consensus to do so.
    The Department of Homeland Security has been designated by federal 
policy as the principal federal agency to lead, integrate, and 
coordinate the implementation of efforts to protect cyber-critical 
infrastructures and key resources. Under this role, the Department's 
National Cyber Security Division's Control Systems Security Program has 
issued recommended practices to reduce risks to industrial control 
systems within and across all critical infrastructure and key resources 
sectors, including the electricity subsector. For example, in April 
2011, the program issued the Catalog of Control Systems Security: 
Recommendations for Standards Developers, which is intended to provide 
a detailed listing of recommended controls from several standards 
related to control systems.\18\ The program also manages and operates 
the Industrial Control Systems Cyber Emergency Response Team to respond 
to and analyze control-systems-related incidents, provide onsite 
support for incident response and forensic analysis, provide 
situational awareness in the form of actionable intelligence, and share 
and coordinate vulnerability information and threat analysis through 
information products and alerts. For example, it reported providing on-
site assistance to six companies in the electricity subsector, 
including a bulk electric power provider and multiple electric 
utilities, during 2009-2011.
---------------------------------------------------------------------------
    \18\ DHS, National Cyber Security Division, Control Systems 
Security Program, Catalog of Control Systems Security: Recommendations 
for Standards Developers (April 2011).
---------------------------------------------------------------------------
    The Department of Energy is the lead federal agency which is 
responsible for coordinating critical infrastructure protection efforts 
with the public and private stakeholders in the energy sector, 
including the electricity subsector. In this regard, we have reported 
that officials from the Department's Office of Electricity Delivery and 
Energy Reliability stated that the department was involved in efforts 
to assist the electricity sector in the development, assessment, and 
sharing of cybersecurity standards.\19\ For example, the department was 
working with NIST to enable state power producers to use current 
cybersecurity guidance. In May 2012, the department released the 
Electricity Subsector Cybersecurity Risk Management Process.\20\ The 
guideline is intended to ensure that cybersecurity risks for the 
electric grid are addressed at the organization, mission or business 
process, and information system levels. We have not evaluated this 
guide.
---------------------------------------------------------------------------
    \19\ GAO-12-92.
    \20\ U.S. Department of Energy, Electricity Subsector Cybersecurity 
Risk Management Process, DOE/OE-0003 (Washington, D.C.: May 2012).
---------------------------------------------------------------------------
        challenges to securing electricity systems and networks
    In our January 2011 report, we identified a number of key 
challenges that industry and government stakeholders faced in ensuring 
the cybersecurity of the systems and networks that support our nation's 
electricity grid.\21\ These included the following:
---------------------------------------------------------------------------
    \21\ GAO-11-117.

  <bullet> There was a lack of a coordinated approach to monitor 
        whether industry follows voluntary standards.--As mentioned 
        above, under the Energy Independence and Security Act of 2007, 
        FERC is responsible for adopting cybersecurity and other 
        standards that it deems necessary to ensure smart grid 
        functionality and interoperability. However, FERC had not 
        developed an approach coordinated with other regulators to 
        monitor, at a high level, the extent to which industry will 
        follow the voluntary smart grid standards it adopts. There had 
        been initial efforts by regulators to share views, through, for 
        example, a collaborative dialogue between FERC and the National 
        Association of Regulatory Utility Commissioners, which had 
        discussed the standards-setting process in general terms. 
        Nevertheless, according to officials from FERC and the National 
        Association of Regulatory Utility Commissioners, FERC and the 
        state public utility commissions had not established a joint 
        approach for monitoring how widely voluntary smart grid 
        standards are followed in the electricity industry or developed 
        strategies for addressing any gaps. Moreover, FERC had not 
        coordinated in such a way with groups representing public power 
        or cooperative utilities, which are not routinely subject to 
        FERC's or the states' regulatory jurisdiction for rate setting. 
        We noted that without a good understanding of whether utilities 
        and manufacturers are following smart grid standards, it would 
        be difficult for FERC and other regulators to know whether a 
        voluntary approach to standards setting is effective or if 
        changes are needed.\22\
---------------------------------------------------------------------------
    \22\ In an order issued on July 19, 2011, FERC reported that it had 
found insufficient consensus to institute a rulemaking proceeding to 
adopt smart grid interoperability standards identified by NIST as ready 
for consideration by regulatory authorities. While FERC dismissed the 
rulemaking, it encouraged utilities, smart grid product manufacturers, 
regulators, and other smart grid stakeholders to actively participate 
in the NIST interoperability framework process to work on the 
development of interoperability standards and to refer to that process 
for guidance on smart grid standards. Despite this result, we believe 
our recommendations to FERC in GAO-11-117, with which FERC concurred, 
remain valid and should be acted upon as consensus is reached and 
standards adopted.
---------------------------------------------------------------------------
  <bullet> Aspects of the current regulatory environment made it 
        difficult to ensure the cybersecurity of smart grid systems.--
        In particular, jurisdictional issues and the difficulties 
        associated with responding to continually evolving cyber 
        threats were a key regulatory challenge to ensuring the 
        cybersecurity of smart grid systems as they are deployed. 
        Regarding jurisdiction, experts we spoke with expressed concern 
        that there was a lack of clarity about the division of 
        responsibility between federal and state regulators, 
        particularly regarding cybersecurity. While jurisdictional 
        responsibility has historically been determined by whether a 
        technology is located on the transmission or distribution 
        system, experts raised concerns that smart grid technology may 
        blur these lines. For example, devices such as smart meters 
        deployed on parts of the grid traditionally subject to state 
        jurisdiction could, in the aggregate, have an impact on those 
        parts of the grid that federal regulators are responsible for--
        namely the reliability of the transmission system.

    There was also concern about the ability of regulatory bodies to 
        respond to evolving cybersecurity threats. For example, one 
        expert questioned the ability of government agencies to adapt 
        to rapidly evolving threats, while another highlighted the need 
        for regulations to be capable of responding to the evolving 
        cybersecurity issues. In addition, our experts expressed 
        concern with agencies developing regulations in the future that 
        are overly specific in their requirements, such as those 
        specifying the use of a particular product or technology. 
        Consequently, unless steps are taken to mitigate these 
        challenges, regulations may not be fully effective in 
        protecting smart grid technology from cybersecurity threats.
  <bullet> Utilities were focusing on regulatory compliance instead of 
        comprehensive security.--The existing federal and state 
        regulatory environment creates a culture within the utility 
        industry of focusing on compliance with cybersecurity 
        requirements, instead of a culture focused on achieving 
        comprehensive and effective cybersecurity. Specifically, 
        experts told us that utilities focus on achieving minimum 
        regulatory requirements rather than designing a comprehensive 
        approach to system security. In addition, one expert stated 
        that security requirements are inherently incomplete, and 
        having a culture that views the security problem as being 
        solved once those requirements are met will leave an 
        organization vulnerable to cyber attack. Consequently, without 
        a comprehensive approach to security, utilities leave 
        themselves open to unnecessary risk.
  <bullet> There was a lack of security features built into smart grid 
        systems. Security features are not consistently built into 
        smart grid devices.--For example, experts told us that certain 
        currently available smart meters had not been designed with a 
        strong security architecture and lacked important security 
        features, including event logging\23\ and forensics 
        capabilities that are needed to detect and analyze attacks. In 
        addition, our experts stated that smart grid home area 
        networks--used for managing the electricity usage of appliances 
        and other devices in the home--did not have adequate security 
        built in, thus increasing their vulnerability to attack. 
        Without securely designed smart grid systems, utilities may 
        lack the capability to detect and analyze attacks, increasing 
        the risk that attacks will succeed and utilities will be unable 
        to prevent them from recurring.
---------------------------------------------------------------------------
    \23\ Event logging is a capability of an IT system to record events 
occurring within an organization's systems and networks, including 
those related to computer security.
---------------------------------------------------------------------------
  <bullet> The electricity industry did not have an effective mechanism 
        for sharing information on cybersecurity and other issues.--The 
        electricity industry lacked an effective mechanism to disclose 
        information about cybersecurity vulnerabilities, incidents, 
        threats, lessons learned, and best practices in the industry. 
        For example, our experts stated that while the electricity 
        industry has an information sharing center, it did not fully 
        address these information needs. In addition, President Obama's 
        May 2009 cyberspace policy review also identified challenges 
        related to cybersecurity information sharing within the 
        electric and other critical infrastructure sectors and issued 
        recommendations to address them.\24\ According to our experts, 
        information regarding incidents such as both unsuccessful and 
        successful attacks must be able to be shared in a safe and 
        secure way to avoid publicly revealing the reported 
        organization and penalizing entities actively engaged in 
        corrective action. Such information sharing across the industry 
        could provide important information regarding the level of 
        attempted cyber attacks and their methods, which could help 
        grid operators better defend against them. If the industry 
        pursued this end, it could draw upon the practices and 
        approaches of other industries when designing an industry-led 
        approach to cybersecurity information sharing. Without quality 
        processes for information sharing, utilities will not have the 
        information needed to adequately protect their assets against 
        attackers.
---------------------------------------------------------------------------
    \24\ The White House, Cyberspace Policy Review: Assuring a Trusted 
and Resilient Information and Communications Infrastructure 
(Washington, D.C.: May 29, 2009).
---------------------------------------------------------------------------
  <bullet> The electricity industry did not have metrics for evaluating 
        cybersecurity.--The electricity industry was also challenged by 
        a lack of cybersecurity metrics, making it difficult to measure 
        the extent to which investments in cybersecurity improve the 
        security of smart grid systems. Experts noted that while such 
        metrics\25\ are difficult to develop, they could help compare 
        the effectiveness of competing solutions and determine what mix 
        of solutions combine to make the most secure system. 
        Furthermore, our experts said that having metrics would help 
        utilities develop a business case for cybersecurity by helping 
        to show the return on a particular investment. Until such 
        metrics are developed, there is increased risk that utilities 
        will not invest in security in a cost-effective manner, or have 
        the information needed to make informed decisions on their 
        cybersecurity investments.
---------------------------------------------------------------------------
    \25\ Metrics can be used for, among other things, measuring the 
effectiveness of cybersecurity controls for detecting and blocking 
cyber attacks.

    To address these challenges, we made recommendations in our January 
2011 report. To improve coordination among regulators and help Congress 
better assess the effectiveness of the voluntary smart grid standards 
process, we recommended that the Chairman of FERC develop an approach 
to coordinate with state regulators and with groups that represent 
utilities subject to less FERC and state regulation to (1) periodically 
evaluate the extent to which utilities and manufacturers are following 
voluntary interoperability and cybersecurity standards and (2) develop 
strategies for addressing any gaps in compliance with standards that 
are identified as a result of this evaluation. We also recommended that 
FERC, working with NERC as appropriate, assess whether commission 
efforts should address any of the cybersecurity challenges identified 
in our report. FERC agreed with these recommendations.
    Although FERC agreed with these recommendations, they have not yet 
been implemented. According to the FERC Chairman, given the continuing 
evolution of standards and the lack of sufficient consensus for 
regulatory adoption, commission staff believe that coordinated 
monitoring of compliance with standards would be premature at this 
time, and that this may change as new standards are developed and 
deployed in industry. We believe that it is still important for FERC to 
improve coordination among regulators and that consensus is reached on 
standards. We will continue to monitor the status of its efforts to 
address these recommendations.
    In summary, the evolving and growing threat from cyber-based 
attacks highlights the importance of securing the electricity 
industry's systems and networks. A successful attack could result in 
widespread power outages, significant monetary costs, damage to 
property, and loss of life. The roles of NERC and FERC remain critical 
in approving and disseminating cybersecurity guidance and enforcing 
standards, as appropriate. Moreover, more needs to be done to meet 
challenges facing the industry in enhancing security, particularly as 
the generation, transmission, and distribution of electricity comes to 
rely more on emerging and sophisticated technology.
    Chairman Bingaman, Ranking Member Murkowski, and Members of the 
Committee, this concludes my statement. I would be happy to answer any 
questions you may have at this time.
                    appendix i: related gao products
    Cybersecurity: Threats Impacting the Nation. GAO-12-666T. 
Washington, D.C.: April 24, 2012.
    Cybersecurity: Challenges in Securing the Modernized Electricity 
Grid, GAO-12-507T. Washington, D.C.: February 28, 2012.
    Critical Infrastructure Protection: Cybersecurity Guidance Is 
Available, but More Can Be Done to Promote Its Use. GAO-12-92. 
Washington, D.C.: December 9, 2011.
    High-Risk Series: An Update. GAO-11-278. Washington, D.C.: February 
2011.
    Electricity Grid Modernization: Progress Being Made on 
Cybersecurity Guidelines, but Key Challenges Remain to Be Addressed. 
GAO-11-117. Washington, D.C.: January 12, 2011.
    Cybersecurity: Continued Attention Needed to Protect Our Nation's 
Critical Infrastructure. GAO-11-865T. Washington, D.C.: July 26, 2011.
    Critical Infrastructure Protection: Key Private and Public Cyber 
Expectations Need to Be Consistently Addressed. GAO-10-628. Washington, 
D.C.: July 15, 2010.
    Cyberspace: United States Faces Challenges in Addressing Global 
Cybersecurity and Governance. GAO-10-606. Washington, D.C.: July 2, 
2010.
    Cybersecurity: Continued Attention Is Needed to Protect Federal 
Information Systems from Evolving Threats. GAO-10-834T. Washington, 
D.C.: June 16, 2010.
    Critical Infrastructure Protection: Update to National 
Infrastructure Protection Plan Includes Increased Emphasis on Risk 
Management and Resilience. GAO-10-296. Washington, D.C.: March 5, 2010.
    Cybersecurity: Progress Made but Challenges Remain in Defining and 
Coordinating the Comprehensive National Initiative. GAO-10-338. 
Washington, D.C.: March 5, 2010.
    Cybersecurity: Continued Efforts Are Needed to Protect Information 
Systems from Evolving Threats. GAO-10-230T. Washington, D.C.: November 
17, 2009.
    Defense Critical Infrastructure: Actions Needed to Improve the 
Identification and Management of Electrical Power Risks and 
Vulnerabilities to DOD Critical Assets. GAO-10-147. Washington, D.C.: 
October 23, 2009.
    Critical Infrastructure Protection: Current Cyber Sector-Specific 
Planning Approach Needs Reassessment. GAO-09-969. Washington, D.C.: 
September 24, 2009.
    National Cybersecurity Strategy: Key Improvements Are Needed to 
Strengthen the Nation's Posture. GAO-09-432T. Washington, D.C.: March 
10, 2009.
    Electricity Restructuring: FERC Could Take Additional Steps to 
Analyze Regional Transmission Organizations' Benefits and Performance. 
GAO-08-987. Washington, D.C.: September 22, 2008.
    Information Security: TVA Needs to Address Weaknesses in Control 
Systems and Networks. GAO-08-526. Washington, D.C.: May 21, 2008.
    Critical Infrastructure Protection: Multiple Efforts to Secure 
Control Systems Are Under Way, but Challenges Remain. GAO-07-1036. 
Washington, D.C.: September 10, 2007.
    Cybercrime: Public and Private Entities Face Challenges in 
Addressing Cyber Threats. GAO-07-705. Washington, D.C.: June 22, 2007.
    Meeting Energy Demand in the 21st Century: Many Challenges and Key 
Questions. GAO-05-414T. Washington, D.C.: March 16, 2005.

    The Chairman. Thank you very much.
    Mr. Cauley.

   STATEMENT OF GERRY CAULEY, PRESIDENT AND CHIEF EXECUTIVE 
    OFFICER, NORTH AMERICAN ELECTRIC RELIABILITY CORPORATION

    Mr. Cauley. Thank you, and good morning, Chairman Bingaman, 
and Ranking Member Murkowski, and members of the committee, and 
fellow panelists. My name is Gerry Cauley. I am the President 
and CEO of the North American Electric Reliability Corporation.
    When we go about our business for reliability and security 
of the power grid, we think, first, of the customers and rate 
payers and citizens that we serve. When I do that, we think 
about 4 principles. First of all, focus on really big important 
reliability problems find solutions, and fix them.
    Second, we apply principles of using risk-based approaches 
to make sure that we are prioritizing effectively and that we 
are coming up with cost-effective solutions.
    Third, we focus on the learning industry. So, we are 
continually adapting and developing reliability solutions and 
learning from experience.
    Finally, we hold the industry accountable, as well as 
ourselves, to produce reliability results.
    This approach works really well in conventional risks, such 
as storm outages, equipment failures, human factors, errors, 
and those kinds of things. I think the approach also works well 
in the arena of cyber and physical security.
    One of the big differences, however, in security is we are 
often challenged by the lack of information, and this is where, 
in cyber, the partnership between industry and Government, in 
terms of information sharing, to help us understand those risks 
and be able to adapt to them, is very important.
    So, our strategy for security recognizes that a perfect 
defense against the bad guys is not achievable nor necessarily 
affordable. So what we have to do is combine defense 
strategies, such as through our standards, as well as 
resilience, and adapting and enhancing the existing resilience 
of the bulk power system.
    So, our strategy includes several activities. The first is 
in the--having a base set of standards that ensure the 
protection of the grid. We promote and are involved in active 
information sharing between industry and Government, and among 
industry, and among critical infrastructure sectors. We are 
focused on training and exercising and testing our ability to 
perform well under security challenges. We are continually 
assessing the reliability and security of the system, looking 
at emerging issues and emerging threats. We are working with 
Government agencies to develop solutions for security and also 
addressing cross-sector dependencies.
    I did previously testify in front of the committee in May 
2011, and I would just like to briefly review some of the 
changes and some of the activities that we have completed since 
that time.
    First, in the area of standards--and I appreciate the 
Chairman pointing out that the electric power industry and the 
nuclear power industries are the only two critical 
infrastructures that do have mandatory standards and 
enforceable standards that are in place and that are working.
    It was mentioned that we--the Commission just recently 
approved version 4, which includes a bright-line criteria, in 
terms of which facilities are required to be included within 
those standards. We are currently working on what I believe 
will be a plateau of security for us in version 5, where we are 
adopting NIST's risk controls into our standards, and we will 
have those completed and filed with the Commission by the end 
of the first quarter in 2013.
    In addition to the standards, we also have a very rigorous 
program on compliance. Since 2008, we have conducted over 500 
audits of individual companies, sending teams onsite, finding 
various findings and recommendations and things that need to be 
corrected. We also have the industry under a very aggressive 
program to monitor the remediation of those issues.
    A third area is in the area of information sharing and 
analysis. This is our way of addressing near-term issues and 
risks that emerge continuously. There is a parallel that--if 
you look at--Microsoft essentially publishes on the second 
Tuesday of each month for patches and vulnerabilities that have 
been identified over the previous month. That is essentially an 
approach that we need to take in terms of emerging risks and 
threats that come in that might be--need to be addressed on a 
matter of hours or days.
    We use our information sharing process, issue alerts. We 
were able to get an agreement signed with Homeland Security to 
gain us access to the National Cybersecurity and Communications 
Integration Center, the NCCIC, and we have a secure portal up 
and running that allows the sharing of information. We have got 
over 500 companies that are actively engaging, in terms of 
posting and using that information. Our alerts that we're able 
to issue go to all 1,900 companies that are affected by the 
bulk power system.
    Another area where we work actively is in the area of 
partnering with Federal partners. We have developed best 
practices guidelines, based on NIS practices with Department of 
Energy. We also worked on the White House Initiative to develop 
a risk management maturity model, and we recently issued 4 
reports on resilience, severe cyber attack, and GMD.
    So, in conclusion, I think our framework of standards, 
information sharing, and partnering with Government is the 
approach that will be most successful in cybersecurity.
    Thank you.
    [The prepared statement of Mr. Cauley follows:]

   Prepared Statement of Gerry Cauley, President and Chief Executive 
        Officer, North American Electric Reliability Corporation
                              introduction
    Good morning Chairman Bingaman, Ranking Member Murkowski, members 
of the Committee and fellow panelists. My name is Gerry Cauley and I am 
the President and CEO of the North American Electric Reliability 
Corporation (NERC). NERC was designated the Electric Reliability 
Organization (ERO) by the Federal Energy Regulatory Commission (FERC) 
in accordance with Section 215 of the Federal Power Act (FPA), enacted 
by the Energy Policy Act of 2005. NERC's reliability standards are 
mandatory and enforceable within the US for the bulk power system and 
include Critical Infrastructure Protection (CIP) Standards. To date, 
these standards (and those promulgated by the Nuclear Regulatory 
Commission) are the only mandatory cybersecurity standards in place 
across the critical infrastructures of the United States. NERC's 
mission is to ensure the reliability of the bulk power system of North 
America and promote reliability excellence with accountability for 
standards and compliance, risks to reliability and continued 
coordination and collaboration with public and private sector partners. 
I testified on this subject before this Committee in May 2011, and I 
appreciate the opportunity to update the Committee on NERC's activities 
related to cybersecurity. These activities include, but are not limited 
to:

          1. Receiving FERC approval of NERC's Critical Cyber Asset 
        Identification standards (CIP-002 version 4);
          2. Beginning work on a comprehensive revision to the 
        cybersecurity standards, leveraging lessons learned from 
        previous versions;
          3. Issuing eight additional alerts related to cybersecurity 
        concerns;
          4. Developing a risk management process guideline to help 
        utilities better understand their cybersecurity risks, assess 
        severity, and allocate resources more efficiently to manage 
        those risks;
          5. Completing the first phase of the High-Impact Low-
        Frequency Task Force reports identifying recommendations for 
        owners and operators with respect to addressing severe impact 
        resilience, cyber attacks, spare equipment, and geomagnetic 
        disruptions;
          6. Facilitating the first-ever Grid Security Exercise 
        (GridEx) for the Electricity Sub-sector in North America; and
          7. Participating in government partnership initiatives, 
        including the Department of Homeland Security's (DHS) National 
        Level Exercise series and various cybersecurity forums and 
        briefings with Canadian government agencies, as well as the 
        White House-initiated, Department of Energy (DOE)-led 
        Electricity Sub-sector Cybersecurity Risk Management Maturity 
        Model, which will support ongoing development and measurement 
        of cybersecurity capabilities within the sub-sector;
                the cybersecurity challenge for the grid
    As a result of society's growing dependence on electricity, the 
electric grid is one of the Nation's most critical infrastructures. The 
bulk power system in North America is one of the largest, most complex, 
and most robust systems ever created. As CEO of the organization 
charged with ensuring the reliability and security of the North 
American grid, I remain deeply concerned about the changing risk 
landscape from conventional risks, such as extreme weather and 
equipment failures, to new and emerging risks where we are left to 
imagine scenarios that might occur and prepare to avoid or mitigate the 
consequences. Some of those consequences could be much more severe than 
we have previously experienced. I am most concerned about coordinated 
physical and cyber attacks intended to disable elements of the power 
grid or deny electricity to specific targets, such as government or 
business centers, military installations, or other infrastructures. 
These threats differ from conventional risks in that they result from 
intentional actions by adversaries and are not simply random failures 
or acts of nature.
    To explore the impacts of this changing risk landscape from the 
view of the newer emerging risks, NERC has worked with industry and 
government to better understand cybersecurity risks and manage those 
risks. Based on all of the work NERC has been involved in to date, it 
is clear that the most effective approach against adversaries 
exploiting the newer risk landscape is through thoughtful application 
of resiliency principles. Resiliency requires proactive readiness for 
whatever may come our way and includes robustness; the ability to 
minimize consequences in real-time; the ability to restore essential 
services; and the ability to adapt and learn.
   nerc measures to address cybersecurity threats and vulnerabilities
    NERC has incorporated these resiliency elements in our strategic 
approach to ensuring reliability of the bulk power system. This 
strategic approach includes: 1) developing mandatory and enforceable 
standards; 2) ensuring compliance and audit oversight; 3) sharing and 
analyzing information and issuing Alerts from the Electricity Sector 
Information Sharing and Analysis Center (ES-ISAC); 4) engaging in 
private-public partnerships; and 5) conducting outreach, training, and 
education activities within and external to the bulk power system. Only 
through these critical infrastructure protection components can we 
achieve a balanced approach to guard against advanced persistent 
threats to grid cybersecurity and mitigate vulnerabilities.
                         reliability standards
    In 2007, FERC designated NERC the ERO in accordance with Section 
215 of the Federal Power Act, enacted by the Energy Policy Act of 2005. 
Upon FERC's approval, NERC's reliability standards became mandatory 
within the US. These mandatory reliability standards include CIP 
Standards 001 through 009, which address the security of cyber assets 
essential to the reliable operation of the electric grid. To date, 
these standards (and those promulgated by the Nuclear Regulatory 
Commission) are the only mandatory cybersecurity standards in place 
across the critical infrastructures of the US. Subject to FERC 
oversight, NERC and its Regional Entity partners enforce these 
standards, developed with substantial input from industry and approved 
by FERC, to accomplish our mission to ensure the reliability of the 
electric grid.
    NERC's nine mandatory CIP standards address the following areas:

  <bullet> Standard CIP-001: Covers Sabotage Reporting.
  <bullet> Standard CIP-002: Requires the identification and 
        documentation of the Critical Cyber Assets associated with the 
        Critical Assets that support the reliable operation of the Bulk 
        Electric System.
  <bullet> Standard CIP-003: Requires that Responsible Entities have 
        minimum security management controls in place to protect 
        Critical Cyber Assets.
  <bullet> Standard CIP-004: Requires that personnel with access having 
        authorized cyber or authorized unescorted physical access to 
        Critical Cyber Assets, including contractors and service 
        vendors, have an appropriate level of personnel risk 
        assessment, training, and security awareness.
  <bullet> Standard CIP-005: Requires the identification and protection 
        of the Electronic Security Perimeter(s) inside which all 
        Critical Cyber Assets reside, as well as all access points on 
        the perimeter.
  <bullet> Standard CIP-006: Addresses implementation of a physical 
        security program for the protection of Critical Cyber Assets.
  <bullet> Standard CIP-007: Requires Responsible Entities to define 
        methods, processes, and procedures for securing those systems 
        determined to be Critical Cyber Assets, as well as the other 
        (non-critical) Cyber Assets within the Electronic Security 
        Perimeter(s).
  <bullet> Standard CIP-008: Ensures the identification, 
        classification, response, and reporting of Cyber Security 
        Incidents related to Critical Cyber Assets.
  <bullet> Standard CIP-009: Ensures that recovery plan(s) are put in 
        place for Critical Cyber Assets and that these plans follow 
        established business continuity and disaster recovery 
        techniques and practices.

    In December 2010, NERC approved an enhancement to its Critical 
Cyber Asset Identification standard (CIP-002 version 4) that 
establishes bright-line criteria for the identification of critical 
assets. This enhanced standard was filed with the Federal Energy 
Regulatory Commission (FERC) in February 2011, and FERC approved the 
standard on April 19, 2012. The implementation of the CIP standards 
under the bright-line approach is currently underway.
    In addition, industry is currently developing a comprehensive 
revision to the cybersecurity Standards. The revision leverages 
experience with existing CIP standards to enhance the industry's 
protections against cyber threats and vulnerabilities, including 
transitioning the classification of critical assets to a ``low-medium-
high'' impact-based system. The revised CIP standards will also provide 
greater flexibility in implementing solutions to emerging cyber 
threats. The revised CIP standards have been improved to remove 
technology-specific requirements by replacing them with a risk-based 
approach to implementing appropriate and changing technologies. That 
is, rather than specifying how to implement a requirement, the revised 
requirements specify the risk-based result that must be achieved, which 
enables industry to implement new and emerging technologies to address 
the risk.
    NERC can use an emergency standards development process if 
circumstances warrant. In addition, FERC can order NERC to develop or 
modify a reliability standard to address a specific matter.\1\ Finally, 
the NERC Board of Trustees can direct NERC to develop and adopt a 
standard in response to a FERC directive and timetable if the Board 
determines that the regular standards process is not sufficiently 
responsive to the Commission.
---------------------------------------------------------------------------
    \1\ FERC can order NERC to develop a proposed reliability standard 
or a modification to a reliability standard to address a specific 
matter (such as a cyber threat or vulnerability) under FPA Section 
215(d) (5).
---------------------------------------------------------------------------
    Under the emergency standards process, FERC has authorized NERC to 
use an expedited standards development process to meet urgent 
reliability issues. These special standards can be developed on an 
expedited, confidential basis to address imminent or longer-term 
national security threats. NERC has practiced using this expedited, 
confidential process as part of GridEx.
    In addition to developing mandatory reliability standards, NERC 
supports the ERO's Regional Entities to improve the consistency of 
compliance program results, improve risk-based approaches for auditing 
and spot checking, and promote a culture of security and compliance 
through education, transparency, and incentives. Specifically, we 
conduct audit oversight of the Regional Entities' compliance audit 
teams during audits of registered entities, and maintain oversight 
throughout the entire audit process (pre-audit, on-site, and post 
audit) in accordance with the audit oversight program. During this 
process, NERC seeks to capture compliance applications, positive 
observations, lessons learned, and recommendations. NERC's audit 
oversights are designed to perform a thorough evaluation of the 
processes and criteria used by all Regional Entities in their 
determination of registered entities' compliance with the NERC 
Reliability Standards, including the CIP Standards.
    Compliance with the NERC CIP standards is an important threshold 
for properly securing the bulk electric system. However, no single 
security asset, technique, procedure, or standard--even if strictly 
followed--will protect an entity from all potential cyber threats. The 
cybersecurity threat environment is constantly changing and our 
defenses must keep pace. Security best-practices call for additional 
processes, procedures, and technologies beyond those required by the 
CIP standards.
                      the es-isac and nerc alerts
    Not all vulnerabilities can or should be addressed through a 
reliability standard. In such cases, NERC Alerts are a key element in 
critical infrastructure protection. To address cyber challenges not 
covered under the CIP Standards, NERC works through its ES-ISAC to 
inform the industry and recommend mitigation actions.
    The ES-ISAC gathers information from disparate electric industry 
participants about security-related events, disturbances, and off-
normal occurrences within the Electricity Sub-sector and shares that 
information with key governmental entities. In turn, these governmental 
entities provide the ES-ISAC with information regarding risks, threats, 
and warnings which the ES-ISAC is then responsible for disseminating 
throughout the Electricity Sub-sector. The two functions that the ES-
ISAC supports, information sharing and analytics, are vitally important 
to all other critical infrastructures and key resource sectors that 
have active ISACs. Effective collaboration and communication is 
essential to addressing infrastructure protection and resilience within 
each sector, as well as the important interdependencies that exist 
among sectors.
    NERC staff with appropriate security clearances often work with 
cleared personnel from Federal agencies to communicate unclassified 
sensitive information to the industry. As defined in NERC's Rules of 
Procedure, the ES-ISAC developed the following three levels of Alerts 
for formal notice to industry regarding security issues:

  <bullet> Industry Advisory.--Purely informational, intended to alert 
        registered entities to issues or potential problems. A response 
        to NERC is not necessary.
  <bullet> Recommendation to Industry.--Recommends specific action be 
        taken by registered entities. Requires a response from 
        recipients as defined in the Alert.
  <bullet> Essential Action.--Identifies actions deemed to be 
        ``essential'' to bulk power system reliability and requires 
        NERC Board of Trustees approval prior to issuance. Like 
        recommendations, essential actions require recipients to 
        respond as defined in the Alert.

    The risk to the bulk power system determines selection of the 
appropriate Alert notification level. Generally, NERC distributes 
Alerts broadly to users, owners, and operators of the bulk power system 
in North America utilizing its Compliance Registry. Entities registered 
with NERC are required to provide and maintain up-to-date compliance 
and cyber security contacts. NERC also distributes the Alerts beyond 
the users, owners and operators of the bulk power system, to include 
other electricity industry participants who need the information. 
Alerts may also be targeted to groups of entities based on their NERC-
registered functions (e.g., Balancing Authorities, Transmission 
Operators, Generation Owners, etc.).
    Alerts are developed with the strong partnership of Federal 
technical organizations, including DHS and DOE National Laboratories, 
and bulk power system subject matter experts, called the HYDRA team. 
NERC has issued 22 CIP-related Alerts since January 2010 (20 Industry 
Advisories and two Recommendations to Industry). Those Alerts covered 
items such as Aurora, Stuxnet, Night Dragon, and the reporting of 
suspicious activity. Responses to Alerts and mitigation efforts are 
identified and tracked, with follow-up provided to individual owners 
and operators and key stakeholders. In addition, NERC released one 
Joint Product CIP Awareness Bulletin in collaboration with DOE, DHS and 
the Federal Bureau of Investigation (FBI) titled, ``Remote Access 
Attacks: Advanced Attackers Compromise Virtual Private Networks 
(VPN).''
    The NERC Alert system is working well. It is known by industry, 
handles confidential information, and does so in an expedited manner. 
The information needed to develop the Alert is managed in a 
confidential and expedited manner and does not require a NERC balloting 
process. Information sharing through the ES-ISAC is the greatest asset 
we have to combat emerging threats to cybersecurity and help ensure the 
reliability of the bulk power system. As a result, NERC has been 
enhancing the ES-ISAC's capabilities by building out a private, secure 
portal to receive voluntary reports from industry members and working 
with various organizations (both industry and government) to obtain the 
data and mechanisms necessary to conduct these information sharing 
activities.
    Anything Congress can do to further facilitate information sharing 
between the public and private sector would add greatly to these 
efforts. Some actions may include: making more clearances available to 
industry, identifying alternative methods to communicate classified 
information to our Canadian partners, and encouraging increased 
information sharing by US Government departments and agencies with 
asset-owners.
    nerc's public-private partnerships to enhance grid cybersecurity
    As mentioned, NERC has developed several strong relationships with 
industry and government entities. As chair of the Electricity Sub-
sector Coordinating Council (ESCC), I work with industry CEOs and our 
partners within the government, including the Department of Defense, 
DOE, and DHS, to identify, discuss, and resolve critical infrastructure 
protection policy, process, and resource issues. This type of public-
private partnership is essential to effective cybersecurity protection 
by facilitating information sharing about cyber-related vulnerabilities 
and threats.
    Last year, NERC signed a Cooperative Research and Development 
Agreement with DHS that provides ES-ISAC staff with access to DHS' 
National Cybersecurity and Communications Integration Center (NCCIC). 
Access to the classified NCCIC facilitates a significantly improved bi-
directional sharing of critical infrastructure protection information 
between the US government and the Electricity Sub-sector in North 
America. NERC has also recently established a protected communications 
corridor for the ES-ISAC in part to facilitate this bi-directional 
information sharing between the DHS NCCIC and BPS entities.
    NERC also provides leadership to three significant DHS-affiliated 
public-private partnerships. These groups are:

  <bullet> Partnership for Critical Infrastructure Security, the 
        senior-most policy coordination group between public and 
        private sector organizations comprised of the chairs or co-
        chairs of all 18 critical infrastructure and key resources 
        sectors and their Government Coordinating Council counterparts;
  <bullet> Cross-Sector Cyber Security Working Group, which was 
        established to coordinate cross-sector initiatives that promote 
        public and private efforts to help ensure secure, safe, and 
        reliable critical infrastructure services; and
  <bullet> Industrial Control Systems Joint Working Group, which is a 
        cross-sector industrial control systems working group that 
        focuses on the areas of education, cross-sector strategic 
        roadmap development, and coordinated efforts to develop better 
        vendor focus on security needs for industrial control systems.

    NERC also collaborates with the Industrial Control Systems Cyber 
Emergency Response Team to share threat, vulnerability, and security 
incident information.
    As part of NERC's outreach and awareness efforts to engage industry 
and government in addressing some of the key cybersecurity challenges 
we face, NERC facilitated the first-ever Grid Security Exercise 
(GridEx) for the Electricity Sub-sector in North America. This 
distributed play exercise, which was held in November 2011, was 
designed to validate the readiness of the Electricity Sub-sector to 
respond to a cyber incident, strengthen utilities' crisis response 
functions, and provide input for internal security program 
improvements. Seventy-five industry and government organizations from 
the US and Canada participated in GridEx. BPS entities included 
generation and transmission owners, reliability coordinators, 
independent system operators, and balancing authorities. Key government 
agencies, such as DHS, FBI, and DOE, were also heavily involved. GridEx 
provided a realistic environment for organizations to assess their 
cyber response capabilities. The biennial exercise was viewed across 
industry and government as a training success in preparing the BPS for 
a disruptive security event. NERC issued a final report in March 2012, 
and is applying the GridEx recommendations to further strengthen the 
bulk power system's preparedness and response mechanisms.
    Given the heightened awareness of security in the Electricity Sub-
sector, NERC hosts an annual Grid Security Conference (GridSecCon) to 
discuss emerging threats, industry best practices, and provide cutting 
edge training to the industry. NERC will again host this conference in 
October 2012, and will bring together cyber and physical security 
thought leaders from government and industry to discuss securing 
industrial control systems, social engineering attacks, and security 
event response management, among other topics.
                               conclusion
    As outlined today, NERC has many tools available, including 
critical infrastructure protection standards and processes and the ES-
ISAC, to address imminent and non-imminent threats and vulnerabilities. 
We work with multiple government, industry, and consumer partners to 
support a coordinated comprehensive effort to address cybersecurity.
    We appreciate this opportunity to discuss NERC's activities on 
cybersecurity with the committee related to cybersecurity protection of 
the grid.

    The Chairman. Thank you very much.
    Mr. Snitchler, go right ahead.

  STATEMENT OF TODD A. SNITCHLER, CHAIRMAN, PUBLIC UTILITIES 
                       COMMISSION OF OHIO

    Mr. Snitchler. Good morning. Chairman Bingaman, Ranking 
Member Murkowski, and members of the committee, I want to thank 
you for the opportunity to appear before you today as we 
examine the status of actions taken to ensure that the electric 
grid is protected from cyber attacks. My name is Todd 
Snitchler, and I am the Chairman of the Public Utilities 
Commission of Ohio.
    Our State agency is responsible for assuring residential 
and business customers access to adequate, safe, and reliable 
utility service at fair prices, ensuring the financial 
integrity and service reliability of the Ohio utility industry 
and, among other things, promoting utility infrastructure 
investments, including investments in IT infrastructure. I am 
pleased to have the opportunity to discuss cybersecurity issues 
for the electric grid; because, often times, we take that grid 
for granted.
    Should Congress decide to pass legislation on 
cybersecurity, however, it is my view that we must distinguish 
between imminent threats, which require immediate action, and 
vulnerabilities, which can be addressed and resolved more 
deliberately. Particularly, regarding the electricity grid, 
one-size solutions for cybersecurity may not be the most 
effective means to mitigate and reduce known vulnerabilities.
    Additionally, the desired outcome from such legislation 
should be the establishment of a foundation that contemplates 4 
basic considerations. First, we need to protect diamonds like 
diamonds and apples like apples. That is, we must prioritize 
accordingly to ensure that the appropriate level of security is 
provided to all areas that require protection.
    Second, States and the owners of critical infrastructure 
that we regulate cannot protect the infrastructure to the 
maximum extent possible, unless the relevant Federal agencies 
provide the actionable information necessary to identify and 
address the threat or vulnerability. In other words, true 
information sharing between those who have the information and 
those who need the information to protect their systems.
    Third, our utilities can provide a gold-plated, or even a 
platinum-plated, system which is ultra-cyber secure. However, 
this raises the question of just how much do we want a kilowatt 
hour of electricity to cost.
    Fourth, preparedness should not focus solely on response 
capabilities, but should also ensure that resilience is built 
into the infrastructure. Our Nation's utilities--municipal-, 
cooperative-, and investor-owned--have done this country proud 
in responding to the greatest calamities and catastrophes, 
quickly, and capably restoring power after significant storms, 
earthquakes, wildfires, or even acts of terrorism.
    As a State regulator, my fellow commissioners and I, as 
well as our staff, have many responsibilities. Some items of 
significance today are resolved and become less significant 
down the road, and other items that are less significant today 
may become a issue of paramount importance in the near future, 
with a major change, for instance, in weather or technology. 
This is true for many things, including the provision of 
electricity in a safe, reliable, and economic fashion.
    Just as utilities cannot protect against all threats, 
neither can they eradicate all susceptibilities. We must 
recognize there are different parts of these systems that 
require different levels of protection. This is why we must 
ensure there is adequate protection of the grid, especially its 
most valuable parts, while we must not expend undue levels of 
resources protecting other less important parts of the system.
    Another point of consideration that must be recognized is 
that State agencies, like the PUCO, along with owners of that 
critical infrastructure, are unable to provide the full measure 
of protection necessary to help secure the critical 
infrastructure if the relevant agencies are not providing that 
actionable information to address imminent threats.
    State regulators take the reliability and security of the 
bulk power system very seriously. Through strong, Federal, 
State, public, and private partnerships, we have consistently 
maintained and improved reliability and security of the grid.
    Cybersecurity is an emerging area of risk for our utilities 
and for State commissions as well. Although, it is unique in 
some respects, this is not the first time that our State 
utility systems have faced reliability threats. Through a 
strong, public-private partnership, we have overcome past 
risks. It is my belief that this emerging of information 
systems into the electric and other utility sectors will 
improve the resilience, reliability, and efficiency.
    Cooperation and acceptance of responsibility is a must. 
With modern threats becoming apparent to us in the last several 
years, we understand that our traditional responsibility to 
ensure reliable service must include the need to ensure 
security, both physical and cyber.
    Over the past several years, State commissions have begun 
to probe the cyber preparedness of our utility companies in the 
realm of the smart grid. In concept, the smart grid has the 
potential to provide many improvements in situational 
awareness, prevention, management, and restoration. In spite of 
introducing new weaknesses, smart grid fundamentally makes the 
electric system more secure.
    In each of the areas that I have identified in my 
testimony, steps are being taken to manage the risk. The issue 
is how much money should be put into this effort when it is 
virtually impossible to stop all attacks, but vitally important 
to stop some.
    Smart grid poses an additional and particularly thorny 
policy issue, as well. Through NARUC's collaborative with FERC 
on smart grid and other activities, State commissions have 
begun to identify key areas to assure the smart grid 
investments boast the highest, most sophisticated levels of 
security. Commissions, therefore, have had to become more 
expert in our understanding of the prudent smart grid and 
cybersecurity investments.
    In Ohio, for instance, an extensive audit was recently 
performed on one of our utilities that complied with the NISTIR 
7628, and industry best practices that were to identify 
potential areas of improvement were set forth. This effort was 
massive and will become a best practices model for other 
commissions and utilities in their cybersecurity analyses and 
efforts.
    My testimony also lists a significant number of activities 
that have been undertaken by the Ohio Commission, in our effort 
to become more advanced in our understanding of cybersecurity 
issues. I also identify several other States, including, 
Pennsylvania, Texas, Missouri, and New York, who are also 
making active steps to try and increase their understanding, as 
well.
    A long-standing mission of every State public utility is to 
ensure the physical viability of the utility plan under our 
supervision. A less traditional responsibility, that of 
cybersecurity and information systems standards and 
development, is increasingly being thrust into the mix, and 
this newer responsibility clearly envelops a broader range of 
industries and specific expertise.
    I see that I'm out of time, and the rest of my comments are 
in our written testimony.
    Thank you.
    [The prepared statement of Mr. Snitchler follows:]

  Prepared Statement of Todd A. Snitchler, Chairman, Public Utilities 
                           Commission of Ohio
    Chairman Bingaman, Ranking Member Murkowski, and Members of the 
Committee, thank you for this opportunity to appear before you today as 
you examine the status of action taken to ensure that the electric grid 
is protected from cyber attacks. My name is Todd Snitchler, and I am 
the Chairman of the Public Utilities Commission of Ohio (PUCO), the 
State agency responsible for:

  <bullet> assuring residential and business consumers access to 
        adequate, safe, and reliable utility services at fair prices;
  <bullet> ensuring financial integrity and service reliability in the 
        Ohio utility industry;
  <bullet> promoting utility infrastructure investments (including 
        investments in IT infrastructure); and,
  <bullet> related items like fostering of competition, safety, and 
        even mediation responsibilities.

    I am pleased to have been given this opportunity to discuss 
cybersecurity issues for the electric grid. We take for granted the 
reliability of our nation's grid and we are hyper-sensitive when we 
lose power because we are not generally accustomed to it--nor should we 
be.
    Should Congress decide to pass legislation on cybersecurity, 
however, it must distinguish between imminent threats, which require 
immediate action, and vulnerabilities, which can be addressed and 
resolved more deliberately. Particularly regarding the electric grid, 
one-size solutions for cybersecurity may not be the most effective 
means to mitigate and reduce known vulnerabilities. Additionally, the 
desired outcome for such legislation should be the establishment of a 
foundation that contemplates at least four basic considerations.
    First, let us protect diamonds like diamonds and apples like 
apples. That is, we must prioritize accordingly to ensure that the 
appropriate level of security is provided to all areas that require 
protection.
    Second, States and the owners of the critical infrastructure we 
regulate cannot protect the infrastructure to the maximum extent 
possible unless relevant Federal agencies provide the actionable 
information necessary to identify and address the threat and/or 
vulnerabilities--in other words true information sharing between those 
that have critical information (the Federal agencies) and those that 
need such information to protect their systems.
    Third, our utilities can provide a ``gold-plated'' or even a 
``platinum-plated'' system which is ultra-cyber secure. However, this 
raises the question of just how much more do we want a kilowatt hour of 
electricity to cost? While we understand that if the lights are not on 
it does not matter what the cost of the electricity is, do we really 
want the critical infrastructure to be so expensive that due to cost 
constraints it is no longer considered critical?
    Fourth, preparedness should not focus solely on response 
capabilities, but should also ensure that resilience is built into our 
infrastructure--our nation's utilities (municipal, cooperative, and 
investor-owned) have done this country proud in responding to the 
greatest calamities and catastrophes, quickly and capably restoring 
power after significant storms, hurricanes, earthquakes, wildfires, and 
even acts of terrorism.
    As a State regulator, my fellow Commissioners and I, as well as our 
Staff, have many responsibilities. Some items of significance today are 
resolved and become less significant down the road. Other items that 
are less significant today may become of paramount importance in the 
near future with a major change in one variable like weather, for 
instance. This is true for many things, including the provision of 
electricity in a safe, reliable and economic fashion. Focusing on 
reliability, there are many factors that impact that aspect--physical 
infrastructure in place and operational considerations, such as 
generators, wires, substations, transformers, and meters. Also greatly 
impacting reliability is equipment failure. Equipment may fail due to 
its age, its overuse or underuse, physical vulnerabilities, and as we 
are aware, perhaps due to cyber vulnerabilities. Many of these 
vulnerabilities have existed and are known, while other weaknesses are 
more recently being better understood. Just as the electric utilities 
cannot protect against all threats, neither can they eradicate all 
susceptibilities. But we must recognize there are different parts of 
these systems that require different levels of protection. This is why 
we must ensure that there is adequate protection for the electric grid, 
especially the most valuable parts, while we must not expend undue 
levels of resources in protecting other, less important parts of the 
system.
    Another important point of consideration that must be recognized is 
that State agencies like the PUCO, along with the owners of our 
critical infrastructure, are unable to provide the full measures of 
protection necessary to help secure our nation's critical 
infrastructure if the relevant Federal agencies do not provide 
actionable information to address imminent threats. State regulators 
take the reliability and security of the bulk-power system very 
seriously. Through strong Federal, State, public, and private 
partnerships, we have consistently maintained and improved reliability 
and security of the grid. As times and technologies have changed, new 
risks and vulnerabilities have emerged. The transition to a smarter, 
more efficient grid--while full of promise--carries with it unforeseen 
concerns and unintended consequences. As Congress considers legislation 
in this area, it should build on existing Federal-State coordination 
and result in a framework where vulnerabilities to the system are 
identified, prioritized, and resolved in a timely fashion.
    However, identification of vulnerabilities is only one part of the 
main equation; equally, or even more importantly, is a need by the 
States and especially by the asset owners to recognize the threats to 
the nation's grid. We hear consistently from asset owners who provide 
information about their systems to Federal agencies in the spirit of 
cooperation, all the while seeking reciprocity, yet they never receive 
truly meaningful, actionable, timely information in return. They cannot 
protect all of their systems against everything; none of us can. They 
have to target their defenses and we have to help them understand the 
actionable threats so that they may bolster their defenses where 
needed.
    As with most sectors of the economy, information systems are 
rapidly merging with utility systems, potentially heightening the risks 
of service disruption. Cybersecurity is an emerging area of risk for 
our utilities and for State Commissions as well; although it is unique 
in some respects, this is not the first time our utility systems have 
faced new reliability threats. Through a strong public-private 
partnership, we have overcome past risks, and it is my belief that this 
merging of information systems into the electric and other utility 
sectors improves their resilience, reliability and efficiency.
    National security roles and responsibilities have been subject to 
the purview of Emergency Management Agencies, State Police, and 
Departments of Homeland Security. However, the lines defining and 
separating roles in critical infrastructure protection between the 
Federal government, State agencies, and the private sector owners of 
critical infrastructure are necessarily overlapping now. Cooperation 
and acceptance of responsibility is a must. With modern threats 
becoming apparent to us in the last several years, we understand that 
our traditional responsibility to ensure reliable service must include 
the need to ensure security--both physical and cyber. Breaches of 
security, obviously, can have extremely serious reliability 
consequences. From my vantage point, State commissions can identify 
certain key areas of concern about cybersecurity. The first concern 
focuses on business process systems--email, office computing, 
databases, etc.--that are not unique to utilities. In fact, commissions 
in recent years have improved their own security, along with everyone 
else, as attacks on these systems become more sophisticated and we 
become more dependent on them for our operations.
    A second vulnerability is more specific to regulated utilities: 
control systems. Supervisory Control and Data Acquisition (SCADA) 
systems have been and remain an inextricable part of utility 
operations, and have served to improve the efficiency and reliability 
of our system operations in every system throughout the country. In 
recent years, susceptibilities in these SCADA systems have been 
repeatedly highlighted.
    Over the past several years, State commissions have begun to probe 
the cyber-preparedness of our utility companies in the realm of smart 
grid. With tens of billions of dollars in investment on the line, 
commissions want to know that the investments are not going to 
introduce new and unmanageable risks. In concept, the smart grid has 
the potential to provide many improvements in situational awareness, 
prevention, management, and restoration. In spite of introducing new 
weaknesses, smart grid fundamentally makes the electric system more 
secure. Still, this technology brings with it new vulnerabilities and 
points-of-access to create intentional disruption, which should be 
taken extremely seriously. ``Guns-gates-and-guards'' analogs of 
password protection and ``security through obscurity'' must be 
augmented with a framework of maximum system resilience and next-
generation safeguards that allow the network to be impregnable, even if 
devices connected to it are compromised.
    In each of these areas, steps are being taken to manage the risk. 
The regulated companies that we oversee, through the North American 
Electric Reliability Corporation (NERC), are continuously in a process 
of developing and updating standards for cybersecurity that we believe 
are a good step in the right direction for SCADA and business process 
systems. NERC, for example, has adopted a cyber-security standard for 
the bulk electric system. NERC's cybersecurity (``CIP'') standards are 
extensive and thorough. Over the past five years electric utilities 
across the country have requested significant additional staffing and 
dollars for CIP standard compliance activities in their transmission 
rate case filings at FERC. The CIP standards already in place are 
adequate for both physical security and cyber-security. However, 
extending the applicability of those standards to lower voltage 
facilities raises the question of how much more we are willing to pay 
for a marginal increase in cybersecurity. The issue of how much more 
money should be put into this effort when it is virtually impossible to 
stop some cyber attacks (e.g., hackers getting into the Pentagon's 
computer system) needs to be addressed.
    Smart grid poses an additional, and particularly thorny, policy 
issue as well. Through NARUC's collaborative with FERC on smart grid 
and through other activities, State commissions have also begun to 
identify key areas to assure that smart grid investments boast the 
highest, most sophisticated levels of security. Recent Federal funding 
support for smart-grid investments has incentivized the deployment of 
hardware in advance of the development of standards for cybersecurity, 
among other issues. Commissions may be confronted with expenditures on 
cybersecurity for which no specific standard has yet been reached. This 
draws commissions into specific areas of review in order to determine 
the prudence of expenditures--a review that would be unnecessary if the 
expenditure would be made in compliance with recognized standards.
    Commissions, therefore, have had to become more expert in their 
understanding of prudent smart grid and cybersecurity investments. 
Because we are driven by our obligation to assure the reliability of 
service for our ratepayers, we must better understand the prudence of 
the costs in ensuring reliability (including expenditures for cyber-
security) that goes into their rates. As a result, our agency has 
expended significant time and resources to become better educated 
regarding cybersecurity. Over the past several years, as the electric 
industry aptitude has grown regarding cybersecurity, so too has that 
knowledge base grown across State commissions.
    In Ohio, for instance, regarding the smart grid discussion above, 
an extensive audit was conducted to assess the degree to which Duke 
Energy Ohio's Smart Grid system complied with the NISTIR 7628 and 
industry best practices and identify potential areas of improvement, 
which was a precursor to the action items in the stipulation. An 
internal audit was also provided during the audit and included 
penetration testing on a number of Smart Grid assets. An extension 
stipulation was reached regarding Duke's cybersecurity plan and the 
implementation of that plan, including the role of the Commission. This 
effort was massive and will become a best practices model for other 
commissions and utilities in their cybersecurity analyses and efforts.
    We have been very involved in the NIST's and now the Smart Grid 
Interoperability Panel's (or SGIP's) Cyber Security Working Group. My 
agency has been very active in pursuing cybersecurity training 
opportunities with Idaho National Labs, NIST & NIST's ITL Computer 
Security Division, the SGIP, EnerNex, NERC's Grid Security Conference, 
and others, as well as participating in the development of the initial 
NIST-IR 7628, the most recent version being a multi-volume compendium 
of Smart Grid Cyber Security Strategy and Requirements. We have 
actively participated in the National Association of Regulatory Utility 
Commissioners (NARUC) Cybersecurity Boot Camps. Additionally, our Staff 
participates in two different sets of regular, twice-monthly conference 
calls with our colleagues from across the country. These calls address 
critical infrastructure protection issues, cybersecurity issues for 
utilities, as well as smart grid development and implementation issues. 
Our Staff participates in monthly threat briefings for both the 
electric sector as well as the oil and natural gas sector. Also, our 
Staff regularly participates in weekly briefings with Ohio Homeland 
Security. Through this partnership, our agency has a permanent seat at 
the State of Ohio's Strategic Analysis and Information Center (or 
SAIC), just as it does in our State of Ohio Emergency Operations 
Center. Presently, the State of Ohio has developed a Statewide 
Cybersecurity Strategy and our Staff has been actively engaged in both 
the development as well as the on-going implementation of that 
strategy. Over a year ago, my agency conducted a cybersecurity workshop 
for our utilities as well as for our State and Federal partners. 
Leading part of that workshop was a representative from the U.S. 
Department of Energy's Cybersecurity for Energy Delivery Systems 
program. Also participating was Ohio's Homeland Security Advisor, as 
well as representatives from the cyber squads from both of the FBI 
divisions in Ohio. In addition, the two U.S. Department of Homeland 
Security (DHS) Protective Security Advisors stationed in and serving 
Ohio addressed not only their physical protective security program, but 
also DHS's cybersecurity advisor program and the related cyber 
resources and tools available from DHS for asset owners. Our efforts in 
strengthening the cybersecurity posture of Ohio's utilities continue.
    Ohio also has one of the premier military bases in the country--
Wright-Patterson Air Force Base. Located in the south-western portion 
of the state, this base employs a significant number of personnel and 
performs mission-critical work for the Department of Defense. My agency 
has worked with this base in the past, and will do so in the future, to 
ensure that it has what it needs to accomplish its objectives.
    While I am not an expert on what other States are doing with regard 
to cybersecurity, I am aware of a few examples of activity that State 
commissions have engaged in, to ensure that companies are focused on 
this issue. In most instances these activities are coordinated with 
other State agencies that also have a jurisdictional responsibility for 
safety and/or security.
    Since 2005, the Pennsylvania Public Utility Commission has required 
all jurisdictional utilities to have a written cyber security plan to 
complement their emergency response, business continuity and physical 
security protocols, each of which are tested on an ongoing basis. The 
Pennsylvania PUC has issued orders on cybersecurity in reaction to 
media reports of grid infiltration by international hackers. 
Pennsylvania also issued a secretarial letter to its utilities 
encouraging them to be active in the NIST Standards development process 
by reviewing and commenting on the NIST Framework and the Cyber 
Security Coordination Task Group documents and to participate in 
various related working groups. Pennsylvania has also incorporated 
cyber-security review in its management audits process. Pennsylvania 
performs management and efficiency audits at least once every five 
years on all electric, gas, and water utilities with over $10 million 
of plant in service.
    Another State taking action is Missouri. Missouri requires all of 
its utilities to have in place reliability plans and has queried its 
utilities about steps taken or planned regarding cybersecurity as it 
relates to company operations. The Missouri Commission required the 
utilities to furnish Staff with a verified statement affirming whether 
the company is in compliance with NERC Order No. 706 or what remedial 
actions are to be taken and how long it will take the company to become 
compliant. The Commission also asked what other organizations, groups, 
industry groups or other organizations these companies participate 
with, such as local FBI or State agencies, regarding security issues.
    In New York, they are sharing the responsibility for critical 
infrastructure protection at the Department of Public Service. Since 
2003, when it was created, the New York State Public Service Commission 
Office of Utility Security has carried out a regular program of 
oversight of both physical security and cybersecurity practices and 
procedures at the regulated utility companies in the energy, 
telecommunications and water sectors. Staff of this office is devoted 
full time to this security audit responsibility. Generally, that office 
utilizes the existing NERC CIP standards as benchmarks to form its own 
judgments about the quality of cybersecurity measures in place at New 
York's regulated utilities. Its Staff adheres to a schedule that calls 
for visiting each regulated electric utility company four times a year 
to audit compliance with some portion of the CIP standards, with the 
goal of measuring compliance with all of the standards at each company 
over the course of a year.
    The Public Utility Commission of Texas has established a 
stakeholder working group (comprised of utilities and ERCOT Staff) 
designed to work on issues specific to cybersecurity. This effort is 
lead by Texas Commission Staff. The group meets regularly to discuss 
the cybersecurity assessments performed on Smart Meter Texas, which is 
the common portal that provides end-user access to energy usage data 
sourced from the AMI that was deployed by the respective utilities. 
Each utility is responsible for securing its own AMI and cybersecurity 
assessments are required of the utilities by rulemaking once deployment 
of AMI and other smart grid technology is approved. Regulations include 
requirements for end-to-end assessments, performed independently and 
annually of the utility system. These results are kept confidential but 
shared with the Staff.
    In addition commission staff participates in the discussions at the 
ERCOT ISO Critical Infrastructure Protection Working Group (CIPWG), in 
which NERC CIP issues are discussed. While this concerns the bulk 
electric system, other topics related to cybersecurity that are 
broached include: newly discovered vulnerabilities; emerging threats to 
critical infrastructure; cybersecurity standards development from 
outside NERC; mission assurance for the military; and any cybersecurity 
training opportunities, conferences, workshops, or exercises.
    A long-standing mission of State public utility commissions is to 
ensure the physical viability of the utility plant under their 
supervision. A less traditional responsibility, that of cybersecurity 
and information systems standards and development, is increasingly 
thrust into the mix, yet this newer responsibility clearly envelops a 
broader range of industries and specific expertise. Utility regulators 
recognize the dependence of sound cybersecurity practices and cyber 
reporting on sound construction practices and utility-outage reporting, 
and vice versa.
    A concern that I wish to leave with you for consideration is that 
protocols intended to distinguish between disruptions to critical 
infrastructure related to cyber events and those related to physical 
events, for example, a distributed-denial-of-service (DDOS) attack as 
opposed to a fiber-optic cable failure, have not kept up with the fast-
emerging nature of cyber threats. Such protocols are easier to craft 
than to implement. The first evidence of disruption is the disruption 
itself, and such events do not often present themselves with the root 
cause clearly visible.
    In the critical ``golden hours'' after a possible new developing 
threat is detected, or immediately following an event, it may not 
always be clear what is actually happening or why. For this reason, 
close coordination between the utility sector and the cyber sector is 
essential to the response. As the State public utility commissions have 
traditionally served as the gateway to the utility sector and have 
their own independent core of expertise and relationships key to 
understanding, in real-time, events affecting that plant, close 
coordination among the operators of our cyber networks, the Federal 
government, and State homeland security partners, including State 
utility commissions, is essential. Resolving cybersecurity issues will 
require significant efforts on the parts of all of us, not just one or 
two of us. We all are part of the solution. Working with the asset 
owners and with our Federal partners, the States have been successful 
in the past in enhancing the overall reliability of our nation's 
electric grid. Our Federal government possesses significant assets that 
can provide States and the critical asset owners with timely and 
actionable threat information necessary to better secure these assets. 
We are partners in this struggle to maintain and enhance the 
reliability of our electric grid and to increase its resiliency, and we 
must all work together to achieve our collective goal.
    Mr. Chairman and members of the Committee, this concludes my 
testimony. We at the Public Utilities Commission of Ohio take the 
issues of cybersecurity and reliability very seriously. As such, we 
believe a Federal-State, public-private partnership is essential to 
meeting these challenges over the long term.
    Thank you again for the opportunity to provide testimony here today 
and I would be happy to answer any questions that you or members of the 
Committee may have.

    The Chairman. Thank you. Thank you, all, very much for your 
testimony. I will start with a few questions.
    Mr. Cauley, let me ask you first, Could you describe what 
happens when a vulnerability is discovered, vulnerability to a 
cyber attack, for example. If you issue an alert to utilities 
about that vulnerability, is there any requirement that they 
follow your advice on that alert?
    Mr. Cauley. Thank you. We produce the report with 
intelligence information from the Government, with cleared 
experts. We create a document that we can then issue to 
industry, which is unclassified. We have 3 levels that we can 
issue. One is an informational heads-up. One is a 
recommendation, which we can track the results and performance 
of the recommendations. The third is an essential action, if we 
feel that it is imperative that the industry implement that. 
Then, our board can approve it, and it is a required action, 
and the industry is required to report back the results of that 
performance.
    The one area I pointed out last year in testimony was the--
even though the industry is required to report back and they 
are required to implement the action, there is not an 
enforcement mechanism for that. I appreciate that in the 
discussion of that legislation, there was an inclusion to deal 
with that gap.
    The Chairman. So, at the current time, if you issue an 
alert and you say, ``Take the following action,'' and the 
utility does not do so, you have no ability to enforce that?
    Mr. Cauley. The industry is required to respond by our 
rules and by rules that FERC has approved, so the--we are 
limited at this point to a civil action, but not within our 
current rules and our current framework.
    The Chairman. So, you can take them to court?
    Mr. Cauley. We could.
    The Chairman. But there is no immediate penalty or 
immediate remedy available to you.
    Aurora, I guess, is the most famous cyber vulnerability 
that has sort of gotten a lot of publicity. It was on CNN for 
several days back in 2007. You issued an advisory for that 
vulnerability, I believe; is that correct?
    Mr. Cauley. That is correct.
    The Chairman. Are you able to track how many utilities 
still have not complied with the recommendations in that 
advisory?
    Mr. Cauley. We were able to--one of the first things I 
came--did when I came back to NARC as CEO in the beginning of 
2010, as I recognized that the information that the industry 
had from 2007 was insufficient, unclear, and, essentially, not 
actionable--so, we worked to issue another alert in 2010, 
which, I think, points out the importance of information 
sharing and access to information. So, we were able to put out 
a meaningful alert in 2010. We are tracking on a twice-yearly 
basis. We are tracking on the completion of mitigation. We have 
that information, and we file it with the Commission. It is 
sensitive information because of the nature of the 
vulnerability, but we do track that and file that with the 
Commission.
    The Chairman. It seems to me--and you can just respond and 
tell me if I am misstating the situation. But it seems to me 
that the way the standard-setting process works, standards 
should be developed as a general framework for exercising 
authority to require mandatory actions in the case of a 
vulnerability being discovered. In fact, the way the system is 
working is that you are required to issue a new standard, with 
all of the accompanying delay, for any new threat that comes 
along, or if you don't do that, then you are left only with the 
ability to make non-binding recommendations. Now, is that a 
fair statement of where things stand?
    Mr. Cauley. I think, Mr. Chairman, not every risk or 
challenge or vulnerability requires a standard. We get a lot of 
things corrected with information and just explaining to the 
industry what the issues are. There is a lot of problem-solving 
going on every day.
    Alerts give us an opportunity to deal with emerging issues 
or issues that need a timely response. Whether or not we could 
develop--we could develop a standard on Aurora. The difficulty 
with that is, it is more of an equipment manufacturing-type 
standard, which is more applicable to an IEEE, the Institute of 
Electronic and Electrical Engineers, and I understand that they 
are committed to looking at that issue as a technical standard 
on equipment.
    If the Commission felt that there was a vulnerability that 
had been out there and had been out there too long, my belief 
is that, within the current section 215, the Commission could 
issue an order to the ERO to produce that standard, if it was a 
priority over other risks that we are dealing with.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    I am going to ask a little bit more about information 
sharing. It is something that each of you has addressed. 
Clearly, the NERC plays a role here with the Electricity Sector 
Information Sharing and Analysis Center, where you share and 
analyze the information. You have mentioned some of that. But 
it sounds like even from NERC's point of view, you would urge 
Congress to do what it can to facilitate further information 
sharing.
    Mr. Snitchler, you have indicated how important it is that 
the Federal agencies provide the actionable information, too, 
to help address or identify threats or vulnerabilities. GAO has 
also mentioned that.
    So, let me start with you, Mr. McClelland. Does the FERC 
think that the private sector has the information that it needs 
today to take action to address the cybersecurity threats and 
vulnerabilities from the information sharing perspective; do 
you have in place what you need?
    Then, if I could ask each of you to just further address 
this, because I think this really goes to the heart of what we 
are talking about here today.
    Mr. McClelland. Thank you, Senator.
    I think, in general, the security practices are well-
documented. I think there are protocols to standards. There are 
alerts and advisories that detail specific security protocols 
to improve the security posture of the utilities.
    But, specifically, no, there are circumstances where there 
may be a specific actor that has targeted a particular piece of 
equipment or an operating practice. In those cases, it is 
important that those individual entities, and the industry at 
large, perhaps to a lesser degree if they don't have that 
specific equipment, is brought in, counseled, shown the threat, 
and then, any particular mitigations that could be applied are 
explained to that entity.
    Senator Murkowski. So, then, to the rest of you. How do we 
do a better job of the information sharing?
    Mr. Wilshusen.
    Mr. Wilshusen. One is to make sure that there is an 
appropriate mechanism in which--in place to actually share 
information on a timely, actionable basis.
    We did a review a couple of years ago at the Department of 
Homeland Security, of its lead role promoting the private-
public partnership in securing our critical infrastructures, 
which include the electricity grid. We found that, to a large 
extent, the information that DHS provided through its alerts 
and threat information was not meeting the expectations of its 
private sector partners.
    In many cases, the information was not actionable, not 
timely. So, one of the means that would have to take place is 
to ensure that the information that is being provided is 
current, timely, and also anonymized. That has been one of the 
problems, is making sure that the information is sufficiently 
anonymous, so as not to identify any particular company or 
organization, but gets the information out to the individuals 
who actually put fingers on keyboards and secure the systems.
    Senator Murkowski. Mr. Cauley.
    Mr. Cauley. Senator Murkowski, I fully agree with the 
suggestion that the most important thing that legislation could 
do would be to foster a robust information sharing between 
Government and industry.
    Today, it is happening, but it is sort of like sipping from 
a lawn hose. We just need more. Also, the information sources 
are ad hoc across agencies, so we work out individual 
relationships with agencies to get information. We have a very 
limited access to clearances within the industry, particularly 
on the top secret side. The value of that is, only industry 
experts can really, fully understand the impacts. Often, our 
limited folks that we have that do have clearances are 
explaining back to the intelligence folks what might be the 
impacts for a particular threat. So, I think getting more 
clearances, having a more unified system for sharing of 
information would be very beneficial.
    Senator Murkowski. Mr. Snitchler.
    Mr. Snitchler. Senator, what we hear from the utilities 
that we regulate is, often, that there is--they perceive a one-
way information street, and they provide information and don't 
feel that they are getting a reasonable amount of information 
in return. By that, as already mentioned by other panelists, 
some of the specific data that could be helpful to them.
    There is also, I think, often times, the fear of disclosure 
will result in practices that maybe impact one utility, as 
opposed to all of them equally. So, there is a reluctance, 
perhaps, to share granular detail that might be helpful.
    Again, the anonymized information that was previously 
referenced, I think, would be helpful for that, because then it 
would ensure that we could have better disclosure of 
information in both directions.
    The critical component that we hear from utilities, without 
exception, is the need for security and that information not to 
find its way out into the public realm because of the potential 
implications, both to them and to the utility system.
    Senator Murkowski. Thank you. Thank you, Mr. Chairman.
    The Chairman. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman. Mr. Chairman, thank 
you for holding this hearing. I think it is extremely timely, 
in light of the leader's desire to bring cyber legislation to 
the floor. I want to review with the 4 of you, essentially, 
where things are, on a couple of key questions.
    Now, as Chairman Bingaman noted, there are already rules in 
place that include cyber threats to the electric grid, and 
that, of course, was launched years ago. Now, this exercise 
seems to have produced another division in what I call the 
``growing cyber industrial complex.'' For years now, the 
Federal Energy Regulatory Commission and the North American 
Electric Reliability Corporation, private companies, and lots 
of lawyers have shuffled paper back and forth, grants have been 
dispensed by the Department of Energy, and this has produced a 
product that has left few satisfied.
    So, let me start with you, Mr. McClelland, in terms of some 
of the concerns that would be helpful to have addressed this 
morning. Do you believe that because the standards don't 
require a physical separation, between the energy company 
networks that run the business operations and the critical 
infrastructure--the substations and the transmission--that 
despite all of this paper shuffling, this shortcoming is still 
a significant factor in making the electric grid vulnerable to 
attack?
    Mr. McClelland. I will answer that and then maybe add a 
little to it, is that one of the CIP standards, CIP 5, requires 
an Electronic Security Perimeter around a critical cyber asset. 
Only critical cyber assets, which are self-designated by the 
entity that is captured by the standard, are covered by the 
standards themselves. So, if an entity decides it has critical 
cyber assets, then it designates an Electronic Security 
Perimeter around those assets. If the business systems are 
connected to the critical cyber asset, via the SCADA systems, 
or whatever the control systems are, then those business 
systems, theoretically, fall within that Electronic Security 
Perimeter.
    So, if they are interconnected, if they work together, if 
they can't be separated, the assumption I would have is that 
they would be within--they would both be included within that 
ESP and physically protected.
    Senator Wyden. But the bottom line is, the networks don't 
have to be separate, is that correct?
    Mr. McClelland. That is correct.
    Senator Wyden. OK. The second question I would like to ask 
of you is, that, for purposes of the legislation that is being 
considered for the floor of the Senate here before August, some 
companies are asking, that for purposes of this bill, they 
should be legally protected--legally protected through 
indemnification provisions when they report vulnerabilities in 
any cyber network.
    Now, it is my understanding that, with respect to the 2005 
law, there is no such legal protection; is that correct? If so, 
is the absence of that kind of legal protection or 
indemnification processes--has that caused any problem in your 
view?
    Mr. McClelland. Under the cyber standards or any of the 
reliability standards, one of the considerations under the 
violation severity level is whether or not an entity self-
reports its problem. That is taking into consideration, as far 
as the enforcement provision, the penalties, how willing they 
are to admit that they have a problem, what the mitigation plan 
looks like, how timely they could be. So, self-reporting is an 
important aspect, as far as mitigation of the enforcement 
aspects, even under the existing network or the framework.
    Senator Wyden. But the question is, Are there 
indemnification procedures now? My understanding is there are 
not.
    Mr. McClelland. Right.
    Senator Wyden. Is the absence of these provisions causing 
any problem? The reason I am asking is because this is going to 
be a big issue in the discussion, is whether or not there ought 
to be these indemnification processes when companies come 
forward and report problems. What I would like to know is, if 
there are any problems today, as a result of the lack of 
reporting requirements. Could you answer that?
    Mr. McClelland. I guess I would answer it by saying that, 
the self-reporting requirements--you know, the enforcement 
provisions under the existing standards are important, and if 
it is not a standard that compels action, then it is not 
something that you can assure happens.
    You know, information exchange, alerts, advisories, 
essential actions can be helpful. But, at the end of the day, 
if there is no enforcement provision, it--there is no teeth 
behind these issues.
    Senator Wyden. I will try one more time. Do you think----
    [Laughter.]
    Senator Wyden. Do you think indemnification procedures are 
needed for purposes of this bill that is going to be considered 
for the floor before August, yes or no?
    Mr. McClelland. I am just not prepared to comment on that. 
I'm sorry.
    Senator Wyden. OK. Thank you, Mr. Chairman.
    The Chairman. Senator Franken.
    Senator Franken. Yes, Mr. McClelland, do you think--no, I'm 
not good at that----
    [Laughter.]
    Senator Franken. But this question is for you, and for 
anyone who wants to pick up on it. Deploying a smart grid is 
crucial for integrating distributed and renewable energy 
resources, but a 2011 GAO report noted that, while FERC has 
authority to adopt smart grid standards, it does not have any 
specific enforcement authority to implement these.
    What are your recommendations for ensuring that standards 
are properly developed and enforced? Is this issue adequately 
addressed in any of the cyber security bills before the Senate?
    Mr. McClelland. The GAO did find--they did echo FERC's 
finding from its policy statement on smart grid, that it lacked 
enforcement authority under the EISA that was passed by 
Congress. So, we do not have enforcement authority, even if we 
find that cybersecurity standards, as recommended by NIST, 
achieve sufficient consensus.
    The Commission's authority, however, does lie under 215. 
So, pursuant to that authority, the Commission has been an 
active participant in NIST's SGIP and Cybersecurity Working 
Group. Our staff attends those meetings. They are regular 
participants. They bring that information then back to the NERC 
215 process when they actively engage in the standards 
development teams under the cybsersecurity standards. In fact, 
the Commission most recently, in approving version 4, even 
reminded NERC that it needs to consider those NIST provisions 
and incorporate those NIST provisions, as appropriate, in 
version 5 of the standards.
    So, I can't speak to the pending legislation. I'm sorry, 
Senator. I'm just not current with it. But I can say that the 
Commission is actively engaged in the NIST process, is actively 
working to incorporate the relevant aspects of that NIST 
process into the NERC standards.
    Senator Wyden. Mr. Wilshusen----
    Mr. Wilshusen. Yes----
    Senator Wyden. You helped prepare this report, so do you 
have any comment?
    Mr. Wilshusen. Right. I would just add that what Mr. 
McClelland is referring to with section 215 is their ability to 
enforce mandatory standards established by NERC over the bulk 
power system. But under the Energy Independence and Security 
Act, which deals primarily with the implementation of smart 
grid technologies, much of those technologies are implemented 
and deployed at the distribution level, which is more under the 
purview of the State regulatory commissions and others.
    I believe FERC does not have the enforcement capability at 
that level, under EISA or----
    Senator Wyden. Mr. Snitchler, that is fine with you?
    Mr. Snitchler. Senator, we----
    Senator Wyden. From what I am hearing?
    Mr. Snitchler. Correct. We think we have got an adequate 
handle. Ohio has approached the smart grid deployment than 
other States--each of us has approached it in a different 
fashion--where we have rolled it out in a series of pilot 
projects with one utility that is now moving toward full 
deployment, others who are further behind the curve, but are 
moving forward. We have been able to work closely with those 
utilities to make sure that they are operating in a way that 
gives us a level of comfort, that they have a sufficient amount 
of security going forward.
    We actually have had a couple of open dockets at the 
Commission, in an effort to determine where companies are at, 
what steps are being taken. But, like other State commissions, 
it is sometimes a challenge to have our utilities come in and 
disclose the weaknesses in their system. So, the issue of 
confidentiality, again, rears its head, even at the State 
level, as we try to protect that information and prevent it 
from becoming part of the public domain.
    Senator Wyden. Taiwan, Singapore, China, South Korea are 
among the largest manufacturers of semi-conductors and 
microprocessors for these smart devices.
    There are concerns that if a cyber criminal gained access 
to such devices, especially during a manufacturing process, 
they could covertly insert code in the devices to impair its 
function.
    For any of you, are we testing these purchased devices to 
mitigate potential vulnerabilities?
    Mr. Wilshusen. I guess I will take that question first. IT 
supply chain has been a key vulnerability into systems and the 
critical infrastructures of this Nation. We issued a report 
earlier this year that dealt with IT supply chain and dealt 
specifically with some of the microprocessing chips.
    We looked at several agencies, including DHS, Energy, 
Department of Defense. To a large extent, we found that the 
procedures for reviewing the vulnerabilities on IT supply 
chains and the types of equipment that are being acquired, 
agencies really have not established effective mechanisms to 
adequately address that vulnerability.
    To some extent, it needs to be done at the national level, 
because the risks are more national in scope. The 
administration has recently developed an IT supply chain 
strategy. We are in the process of looking at that strategy as 
part of our ongoing work.
    Senator Wyden. My time is up. Does anyone have another 
comment? I saw Mr. McClelland be nodding.
    Mr. McClelland. I would only add that, you know, hardware 
is one component. Any time there is two-way electronic 
communication, there is a chance for compromise, and there are 
some very sophisticated entities out there that employ various 
mechanisms, including hardware compromise, to accomplish that 
task. So, it is a critical aspect of network security.
    Senator Wyden. OK. Thank you, gentlemen.
    Mr. Chairman, thank you.
    The Chairman. Mr. McClelland, you mentioned this problem of 
electromagnetic pulse events. I gather our former Congressman 
and Speaker, Newt Gingrich, had a op-ed in the ``Washington 
Post'' this last week, where he argued that we need to pass 
legislation to protect against electromagnetic pulse events, 
and you seem to say the same thing in your testimony as I read 
it.
    Is there anything being done, just at the current time, to 
deal with this problem?
    Mr. McClelland. The Commission recently held a technical 
conference on this very subject. It invited NERC and industry 
experts, and it compared the Commission's report through the 
Oak Ridge National Laboratory, to the NERC report. It asked for 
comments and sought consensus.
    So, the Commission does have the industry's comments. We 
are reviewing what can be done, where there is areas of 
agreement and disagreement. But one thing that was encouraging 
from the conference is that we thought we heard, regardless of 
the scale of destruction or damage to the equipment itself, 
there would be a widespread grid collapse, and everyone agrees 
that that must be prevented.
    So, coordinated studies need to be done among the entities. 
There are, likely, standards that need to be passed, not 
necessarily NERC standards, but industry standards, to prevent, 
you know, damage to vulnerable equipment. There is a subset of 
critical and vulnerable equipment that should be protected--no 
regrets actions that should be pursued to protect the public 
against this issue.
    The Chairman. I guess one obvious question is, What kind of 
timeframe are we talking about here? I have the distinct 
impression we may be studying this issue while the electric 
grid collapses. What is your understanding of the timeframe to 
get something done?
    Mr. McClelland. The Commission is moving through completion 
of reviewing those comments, and under existing authority, it 
can address the geomagnetic disturbance issue through 
reliability standards. So, the Commission is now informing 
itself from the NERC study, from the Oak Ridge study, and from 
the public comments, and it is moving to review its options 
under its existing authority to address the issue.
    The Chairman. So, does that mean this year something is 
going to be done?
    Mr. McClelland. I'm sorry, I just can't speak to the timing 
of Commission action.
    The Chairman. Whenever people talk about, ``We're moving to 
review our options,'' that doesn't sound like anything imminent 
to me.
    Mr. Cauley, did you have a point of view on this issue? 
What is NERC doing to solve this problem of the threat from 
electromagnetic pulse attacks?
    Mr. Cauley. Thank you, Mr. Chairman.
    We issued a report in February, which put the engineering 
and science behind the characteristics of what kind of failures 
and things we might see, and we have initiated a number of 
actions. We issued an alert to industry. We have been working 
with NASA and NOAA in terms of enhancing the alert system, so 
we can let industry know if there is an issue impact coming, 
and that we can put the system in a more conservative position 
to withstand an event.
    We are also working with EPRI, Electric Power Research 
Institute, in terms of locating monitors on--Earth current 
monitors, as well as equipment monitors, so we can understand 
and see the behavior of the impacts and know what we need to do 
to address that.
    This is a long-term effort. I realize that we could have 
impacts near-term, but really there is a lot to learn and 
develop. We are also looking at doing testing on transformers, 
in terms of inducing Earth-type simulated currents in them and 
seeing how they behave and how they react.
    So, there is a lot of working on them on multiple fronts. 
We are not waiting for standards. We are actually moving on the 
engineering and the modeling and the operational----
    The Chairman. When you say you issued an advisory--or an 
alert, I guess--what did you refer to it as, an advisory or an 
alert?
    Mr. Cauley. It was a NERC alert, yes.
    The Chairman. An alert. Was that a set of directions to 
utilities to take particular action, or was this just basically 
saying, ``Here's a problem''?
    Mr. Cauley. This one was informative, sir, so it gave 
actions that could be taken if there was a impact full storm 
that was going to come toward the Earth, actions that would be 
recommended to be taken. But it was not issued as a required 
set of actions.
    The Chairman. So, no required actions have been----
    Mr. Cauley. Not in this particular----
    The Chairman. Recommended----
    Mr. Cauley. That is correct.
    The Chairman. At this or put forward?
    Senator Murkowski, did you have other questions?
    Senator Murkowski. This is more of a general question to 
all of you. I think Mr. Wilshusen, you mentioned that, perhaps, 
standards should not be spelled out too specifically or 
utilities kind of get in this compliance mode of trying to meet 
the standards, instead of safeguarding the systems.
    We want to push everybody to be one step ahead of the guys 
that are trying to disassemble things, and so, we don't want to 
get them focused on just checking the boxes off; we need them 
to be thinking ahead every single day. This whole issue of 
flexibility within a system, as opposed to a prescriptive set 
of standards concerns me. My concern is that the legislation 
that is being considered right now, not the secure IT, but what 
is coming out of Homeland, is a more prescriptive approach.
    Can I ask each of you to speak just to that issue, as to 
the need for flexibility in this area that allows us to be a 
little more nimble, rather than just complying with a set of 
standards?
    We'll just go from you, Mr. McClelland, on down.
    Mr. McClelland. Thank you, Senator.
    I agree. I think all of the panelists would, too, that the 
individual entities have to have the latitude to have the 
directive, but not be so prescriptive as to tie them into any 
singular response.
    On the other hand, though, someone needs to make certain 
that the Mitigation Act is effective. Back to that question 
about Aurora, you know, it's not enough just to collect survey 
data; it is important to verify the mitigation. So, I agree; I 
think the standard needs to compel action, but provide the 
latitude that the individual entities might need to address the 
issue on their systems.
    Mr. Wilshusen. Yes, definitely, I think standards need to 
be flexible. They should not be overly prescriptive, because 
you want them to stand the test of time. You don't want to 
necessarily change your standard every time there is a new 
threat or a new technology that emerges that presents 
additional vulnerabilities.
    As a parallel, in the Federal Government, NIST issues 
Federal information processing standards, which are mandatory 
requirements. In addition, though, it has issued lower levels 
of guidance, usually through special publications and 
guidelines that provide increasingly more detailed actions that 
can be taken to secure systems in cybersecurity. But they are 
more prescriptive, and they are at a greater level of detail 
than the actual Government-wide standards. This greater level 
of detail is needed to effectively secure systems.
    So, it is good NIST had that flexibility and multiple 
layers of guidance--standards, guidelines, and instructions, if 
you will, to provide to organizations to secure their systems.
    Senator Murkowski. Mr. Cauley.
    Mr. Cauley. Senator Murkowski, I agree, as well. The most 
effective standards will be based on risk controls, setting up 
systems to catch issues that need to be identified, not on a 
prescriptive, line-by-line, rule-based-type standards. We are 
adopting those risk controls in the version 5 standards. We are 
looking at the NIST model. We have extracted from their set of 
standards, the ones that we think would work in the power 
system, and we are flushing those out within those standards.
    There is an added factor within--in the security arena, is 
that you really want to incent people to report issues. Because 
part of the intelligence is finding out what are the bad guys 
doing and what information are we finding, and lots of little 
pieces mean something when you roll it all up together.
    So, if we are going in with a checklist style of 
compliance, it is not going to be helpful that. We want people 
reporting information, actively. I think we are on the right 
track for that.
    Senator Murkowski. Mr. Snitchler.
    Mr. Snitchler. Senator, at the risk of saying, me, too, I 
would agree with the comments made by the prior panelists. I 
think the flexibility that you have suggested, necessarily, 
moves into that resiliency that can be developed by the 
multiple utilities that we regulate, taking a different 
approach to achieve to same objective. That diversity of 
approach to solving a problem also potentially has the ability 
to keep an entire system from being knocked down, because, 
instead of targeting one set of security concerns, you are 
looking at more than one set and ways that that problem may 
have been solved, and has the ability to require far more 
effort on the part of those that will do ill-will to the 
electric grid or to those who may be seeking to try and damage 
the country.
    I think, also, by moving away from a prescriptive, check-
the-box, as you describe it, list is helpful, and that we are 
then charging the utilities that we regulate with being as far 
as they can, one step ahead of, in evaluating all the threats, 
whatever they may be.
    I know that I have been to at least one utility in Ohio's 
command center where they are doing just that and have retained 
security folks to deal with those issues, in an effort to 
ensure that they are viewing all the potential sources of entry 
and all the potential manners in which they can respond and 
block those out, at various levels within their system.
    Senator Murkowski. Thank you, Mr. Chairman.
    The Chairman. Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Good morning to all of you. Thanks for joining us on this 
important topic.
    Mr. McClelland, if I could, I will start with you. This may 
be a tangent--a slight tangent, more accurately. I don't know 
if any of the witnesses have addressed work force issues in 
their written testimonies, but I realize one of NERC's 
standards refers to personnel training requirements.
    I am curious whether you believe we have the right people 
with the right training in place at FERC, at NERC, at the 
utilities, or elsewhere, to develop and implement the standards 
to keep the grid secure and respond to threats and 
vulnerabilities.
    Do you think we would be more secure with additional and 
better training to cyber warriors?
    Mr. McClelland. I would say, yes. We do have--the 
Commission is fortunate to have--it is a small staff, but it is 
a very talented staff that we have mostly drawn from other 
agencies, and they have spent their entire careers in 
cybsersecurity. I think NERC is also gifted with some of the 
employees that they have in place. But these folks are as 
scarce as hen's teeth, and it is difficult to find them. In 
many cases, we steal them from each other.
    That said, we have been able to--and I know NERC has also 
taken advantage of this. We have leveraged the intel agencies 
with some of the best, probably--well, undoubtedly, the best 
skill sets in the world. So, we leverage those intel agencies 
to help us understand what the issues are and to address the 
threats. But, certainly, more and well-trained cybersecurity 
people are something that we all need.
    Senator Udall. Others on the panel, care to comment?
    Mr. Cauley.
    Mr. Cauley. Gerry Cauley, NERC. I believe that is an 
opportunity for us, and I think we do need to expand and grow 
our work force in terms of capabilities. It is another example 
of an opportunity to partner between Government and industry. 
There is a training program at the Pacific Northwest Lab, and 
we have been running as many industry folks as we can through 
that. It is a very good, week-long program. It is very intense. 
But, we need more of that.
    Mr. Wilshusen. I would----
    Senator Udall. Mr. Wilshusen.
    Mr. Wilshusen. Yes, thank you. I would just add that, not 
only just within NERC and FERC, but throughout the Federal 
Government. We have issued a report earlier this year, too, 
about human capital challenges within the Federal Government, 
securing Federal systems. Indeed, that is an area that is a 
prime consideration and concern.
    Mr. Snitchler. Good morning, Senator.
    Senator Udall. Mr. Snitchler.
    Mr. Snitchler. One of the issues that we have found, 
anecdotally, in talking with our utilities in Ohio, is that 
they have actively recruited from within the military, and have 
had good success with folks who are used to dealing with top 
secret clearance and higher on issues that involve issues of 
this nature at the utility. They have found that to be helpful.
    That being said, they are also at a premium, and it is very 
difficult to find sufficient staff. I would agree with the 
prior comments about this being an opportunity for specific 
work force development that has long-term implications for the 
country.
    Senator Udall. Mr. Wilshusen, let me turn to you for the 
next question.
    You talk about the difficulties in the industry of sharing 
information on cybersecurity. Could you describe some ways that 
you think the electricity industry could improve in this area?
    Mr. Wilshusen. Yes, I think there are a couple of areas. 
One would be to have a mechanism in place in which the industry 
can collect actionable intelligence--or information about 
security incidents and vulnerabilities that may be present 
within the industry and then being able to share it with other 
members, but after it is been anonymized.
    Before you came, we talked about the need to anonymize 
certain threat information, alert information, so as not to put 
other companies in peril. Then, those companies may be more 
willing to share information that they may have of any 
incidents occurring at their organizations. So, that will be 
one key area.
    Another is, to receive information from Federal sources and 
through NERC and FERC; particularly, getting additional 
information through the intelligence community, through 
Department of Homeland Security, on threats that are occurring 
and vulnerabilities that are happening within those particular 
industries.
    Senator Udall. Let me follow that up. In Colorado, we have 
the Western Cyber Exchange, which is a public-private 
partnership, and it works on a regional geographic basis, both 
on improving cybersecurity, and then on incident response.
    Do you think regional cross-sector models like this are 
something we could encourage and should encourage?
    Mr. Wilshusen. I think they serve their place. You know, 
regional would help. But many of the threats are international 
in scope and come from other sources from which regional 
utilities--or groups may not have that information. That is why 
it is important at the Federal level, at least, threat 
information, alert information from the intelligence community, 
through DHS, be shared with those particular groups.
    Senator Udall. Mr. Cauley or Mr. Snitchler, would you care 
to comment on that question, as well?
    Mr. Cauley. Yes, sir. We have the Information Sharing 
Analysis Center, and what I think we are trying to create is 
hubs of information connected to other hubs. So, ours is 
focused on the power system in North America, but we are 
connected to intelligence agencies, U.S.-served and other--the 
NCICs, who are plugged into these other sources, and we share 
information with our members in North America.
    I think the one other thing that we could do better is to 
have more access to clearances, and to create what I would call 
``fusion centers,'' perhaps in cooperation with the FBI local 
offices, regional offices, where we can quickly get very 
detailed information at the classified level to people in 
industry who can understand, at a very granular level, what is 
the threat, and what actions should I take. That is an 
opportunity for us to think about.
    Mr. Snitchler. Senator, I think I would echo the comments 
from the GAO, where actionable information that has been 
sufficiently anonymized would be helpful, because the issue 
that we often hear is the question of, If I provide 
information, will this later be used against me? If it is, 
obviously, they are reluctant to share that information.
    Frankly, if we get into a situation where we have a better 
way to exchange information, we can be implementing best 
practices and avoiding each individual company's having to 
uncover and discover the same problem and work their own 
solution, but would then have, in effect, a clearinghouse of 
known issues. Then, they could work to solve that with the 
flexibility within the standard that may be required.
    Senator Udall. Thank you all, again, for appearing and 
discussing this very important topic.
    Thank you, Mr. Chairman.
    The Chairman. Senator Coons.
    Senator Coons. Thank you, Chairman Bingaman.
    Senator Bingaman, you have been beating the drum on this 
issue for some time now, and I was happy to join you last year 
in supporting the Grid Cyber Security Act.
    I am grateful to you and to Senator Murkowski for convening 
this panel into taking another look at where we stand and what 
we and Congress have to do in order to raise the baseline for 
cyber defense in this most important sector for the American 
economy and the American people.
    Since we met on this topic a year ago, cybersecurity has 
become one of the most talked about challenges facing our 
Nation. Everyone, from the Secretary of Defense, who has said 
the next Pearl Harbor will be in cyberspace and is coming, to 
individual business leaders, have warned that the Nation as a 
whole faces a real threat, which Members of Congress need to 
work together to address.
    There is very few issues I lose more sleep about than our 
cyber vulnerabilities, and when I speak to experts, they simply 
cause me to lose even more sleep. So, I appreciate the 
opportunity to reduce my sleep opportunities further today.
    To Mr. Wilshusen of GAO; forgive me. Your written testimony 
said that when the GAO looked at the security of utilities, you 
concluded that, overall, they were focusing on regulatory 
compliance, more than a comprehensive security. I think that's 
a quote.
    Can you elaborate about more--more on what about the 
existing approach, in fact, leads to standards becoming a 
ceiling, instead of a floor, for the level of cybersecurity, 
and what we could do in terms of standard-setting and internal 
partnerships that would strengthen an approach to comprehensive 
security, rather than mere compliance?
    Mr. Wilshusen. I think that one of the dangers when 
organizations just focus on mere compliance is that they don't 
take an overarching view and develop a comprehensive program 
for assessing the risks and taking the appropriate steps to 
assure that they cost-effectively address those risks and 
mitigate them to an acceptable level.
    I think it is still important, though, that you do have 
standards or minimum baselines of security controls that can be 
consistent across a wide group of similar organizations, 
perhaps, an industry, taking into account that each entity may 
have separate risks and controls in place to help mitigate 
those risks.
    So, it is going to be important that each agency have an 
effective program for assessing the risk and then taking the 
appropriate steps to implement the appropriate controls to 
mitigate that. That would include, not only just assuring 
compliance with standards, but also taking other actions as 
determined necessary in the facts and circumstances.
    Senator Coons. If there were to be standards that were 
negotiated--that were agreed to between industry and regulatory 
agencies, for an area like cyber, where the threat seems to be 
rapidly evolving, how would you update, routinely, those 
standards in a way that contributed to actual comprehensive 
security; how would you do that in a way that balances the 
economic impact, the cost, with promoting and achieving actual 
security?
    Mr. Wilshusen. I think one way is, first off, with the 
standards. They need to be at a sufficiently high level to 
where they are flexible enough to allow for movement in the 
implementation of controls to address emerging threats and 
vulnerabilities that occur.
    So, it really gets back to each agency or organization 
being able to determine what its risks are, and then take the 
appropriate controls to mitigate them. At the same time, there 
needs to be a level of standards, such as the CIP standards, 
and probably have those evolve as going through the current 
process, to address new technologies and vulnerabilities that 
occur.
    Senator Coons. Mr. Cauley, at NERC, you discussed that your 
biggest concern is a coordinated, actual physical and cyber 
attack, and that, perhaps, the combination of a terrorist 
attack in the physical world, followed by an attack that then 
takes down some critical infrastructure, such as the electric 
grid. I happen to agree that a cyber attack of this kind would 
be particularly dangerous. I would be interested in what sorts 
of public-private partnerships NERC is engaging in to prepare 
with or promote relationships with local and State responders 
to help mitigate those threats, and I would interested in where 
you hope to expand on those partnerships in the future.
    Mr. Cauley. Thank you, Senator.
    We do work closely with State and local agencies, in terms 
of informing them what we are doing on the system and 
vulnerabilities. One of the most concerns that we have is any 
challenge that would do any permanent damage to equipment, so 
we work closely with law enforcement, FBI, in terms of securing 
the physical assets and investigating issues that come up with 
breaches and entry into substations and equipment, things like 
that.
    So, I think there is an opportunity to continue working on 
that and expand that, in terms of types of scenarios--of attack 
scenarios we might see and run through drills and sort of 
understand our communications: who has responsibilities; how do 
we need to move personnel from point A to point B and move 
equipment; and those kinds of things. So, it's still an 
opportunity for us to continue working and developing.
    Senator Coons. Broadly, how would you appraise the 
capabilities and the preparedness of State and local first 
responders, law enforcement, emergency management agencies, to 
deal with this sort of a combined attack or the emerging 
threats of cyber?
    Mr. Cauley. I think we certainly see a lot of experience 
and practice there that gives us some confidence--when we have 
major storms come through, trees are down, and roads are 
blocked. A lot of the capabilities that come into play during 
an attack on the grid would be similar to those kinds of 
things. So, in terms of securing people, moving people, 
securing supplies, those kinds of things, I am confident in the 
capability of the local and regional law enforcement and first 
responders.
    Senator Coons. Thank you.
    Mr. Snitchler, at the utility, the PUCO that you are now a 
chair of, I was heartened in your prepared testimony to hear 
that you addressed the importance, not only of public-private 
partnerships, but also Federal-State. I agree, since, in any of 
the scenarios we have been discussing, it is likely to be State 
and local responders who bear a lot of the responsibility, are 
likely to be first on scene, or likely to be leading the 
recovery effort.
    Now, but on an issue like cyber that doesn't respect 
traditional, internal political boundaries or planning 
processes, how do you avoid wildly different standards that 
lead to uncertain and unreliable security situations or 
potentially to overinvestment in security that puts too much of 
a burden, in terms of the operating costs of utilities?
    Mr. Snitchler. Senator, I think you have hit on the--one of 
the primary issues that we often face at the Commission, which 
is, What is the appropriate cost and what can consumers and 
businesses afford to pay, in order to have the safe, reliable 
system that they have come to expect? Certainly, we try to 
approach that, being mindful--as I put in my written 
testimony--about protecting those critical assets, determining 
what those are, those are your diamonds, and giving them the 
appropriate level of protection, and then, having your--I hate 
to use the term ``less valuable'', but those that perhaps are, 
for example, a transformer on a street as opposed to a 
substation that is going to power several city blocks. You 
would treat those two differently. As a result, you would make 
your investments in how you would want those to be treated 
differently.
    To move back to your first question, to address how do 
you--I think what you are asking is how do you not end up with 
a litany of ways for States to address these issues, when you 
have one issue that may be a national security issue or an 
attack on the country. I think you have to look at threats 
versus vulnerabilities. I think where you have a threat that 
has the ability to impact the entire country or a substantial 
region, then, certainly, there is a definite need for Federal 
involvement to be able to address those types of concerns.
    Where you have got a more localized issue or a 
vulnerability that could be exploited, then, certainly, there 
is a role for State commissions--the utilities and the State 
government, in general--to deal with those concerns. I think it 
is a little bit fact-specific, depending on exactly what the 
scenario you are describing is; but, certainly, it is not a 
good idea to have 51 different ways for us to evaluate a 
problem. But, I think if you break that problem down into a 
threat versus vulnerability, and then categorize or prioritize, 
you can arrive at a more comprehensive way of evaluating those 
issues.
    Senator Coons. Mr. Snitch, excuse me, Mr. McClelland, if I 
might, for a last question.
    I just would be interested in your level of confidence that 
we have got the information sharing and the collaboration in 
place to allow State and local operators to distinguish between 
an unexpected outage, a rolling brownout, an equipment 
malfunction, and something that, in fact, has originated as a 
attack on the Nation, and then, to share relevant information 
in real time.
    Mr. McClelland. Thank you, Senator.
    There is certainly room for improvement. I think the 
important aspect is that the interconnections are very large; 
there are multiple States within the interconnections. Because 
it is a network, and a tightly integrated network, the actions 
or inaction of any particular player can have a substantial 
impact on the rest of the interconnection.
    So, going back to your prior question, I think it is 
important that the entities communicate, that minimum standards 
be put into place. A minimum in security is a tricky business.
    Now, you mentioned before about, you know, sort of, what 
are the costs economically to put the standards in place or to 
put these protocols in place. But the world moves on, and it is 
a very small place. What we are seeing is, you know, folks from 
around the world having access--or potential access to SCADA 
systems. You can no longer live in isolation.
    So, the question would be, What are the adequate security 
provisions that an entity must have to protect its business, 
and then, how do those practices compare with other practices? 
Are we sharing lessons learned? Are we sharing relevant 
intelligence? Is it actionable intelligence, so that folks can 
see what is happening, they can learn from their neighbor, and 
they can put the security in place, because the threats are 
moving at lightning speed?
    So, as with you, it does keep us up at night. It is 
probably the most significant thing that we deal with. It 
actually has a potential to become much worse, because, as we 
add equipment that was previously dumb equipment and make it 
smart equipment, and give it two-way communication, and then 
give it the ability to speak with the largest generators on the 
system or to have a nexus to the largest generators on the 
equipment, then we have introduced a vulnerability. It would be 
like on-line banking, without cybersecurity. You really don't 
want to go there.
    So, I think we are at a point now with the grid and the 
changing grid and the cyber connectivity, where no one can live 
in isolation. If there is connectivity, there is two-way 
communication; there has to be some sort of minimum protocols 
and there needs to be sufficient information sharing so that 
everyone is able to move ahead with a threat.
    Senator Coons. Thank you.
    Thank you, Mr. Chairman. Thank you, to the panel.
    The Chairman. Senator Murkowski, do you have additional 
questions?
    Senator Murkowski. I am done, Mr. Chairman. Thank you, 
though.
    The Chairman. Senator Udall, did you have additional 
questions?
    Senator Udall. Mr. Chairman, thank you for asking. If I 
might. I think much of this could be done for the record, but I 
wanted to ask Mr. Cauley what more can we at the Federal level 
do to recruit, train, and motivate young people to operate and 
defend our critical infrastructure, like the electric grid?
    Mr. Cauley. Senator, you know, I think by its--by the very 
attention and focus that we are putting on this, I think we are 
creating sort of an attractive arena to go into, and I think, 
you know, we are seeing that in some of the schools, as well.
    But I think, ultimately, one of the other panelists 
mentioned recruiting military and people from Government. I 
think we have to recognize that the--sort of, the center of 
universe intelligence and security state-of-the-art is in the 
Government and in the military, and to the extent that it is 
not just the hiring of the people, but to do training and 
development programs and cooperative programs.
    You know, I think information sharing and partnering 
between Government and industry are the two most important 
things we can do, and this is one area where we could do a lot 
more, in terms of Government sharing practices, the art and 
skill of security management. I think those kinds of things 
would be very useful for industry.
    Senator Udall. Mr. Snitchler, would you care to comment?
    Mr. Snitchler. I would echo the comments from the other 
panelists.
    Ohio is blessed to have the Wright-Patterson Air Force Base 
near Dayton, where we have a substantial military presence, of 
course. As a result, we have a large number of military folks 
who may be being discharged from the Service and who are able 
to move into those positions. But, as I previously noted, even 
with that, we still find that there is a shortage. These 
skilled professionals, and they are exactly that, are in short 
supply and in high demand, and companies are working very hard 
to try and find them.
    I think one of the other panelists said, we typically end 
up raiding somebody else's cupboard to find someone to be able 
to fit that need. That has been my experience in talking with 
the utilities that we regulate is, that is often times where 
they find them. I think a more concerted effort to demonstrate 
that when you have completed your time of Service, if you want 
to move into the private sector, these are some of the avenues 
that you can pursue to have a long-term viable career, because 
these issues are not going to go away. The skills that they 
bring to the table make them immediately valuable to an 
organization, and I think that has tremendous value.
    Senator Udall. I would note, as I conclude, that I sit on 
the Armed Services Committee. We are having some of these same 
discussions with the Department of Defense, and they are also 
concerned about recruiting young cyber warriors, if you will. 
So, I think we have got to really focus on growing the pie, 
growing the sense that this is an important career path and 
work together, not only with the private sector and the public 
civilian sector, but also the Department of Defense.
    I look forward to working with all of you in that regard.
    Thanks, again, for your testimony. It is very helpful. 
Thanks.
    The Chairman. Yes, thank you very much. I think it has been 
a useful hearing.
    We will conclude the hearing with that. Thank you.
    [Whereupon, at 11:30 a.m. the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

       Response of Gerry Cauley to Question From Senator Bingaman
    NERC registered entities are required under the currently effective 
NERC Critical Infrastructure Protection Standards (specifically 
Standard No. CIP-007-3, Requirement 4) to have a malicious software 
prevention program to protect critical assets supporting the electric 
grid. The standard specifically requires a NERC registered entity to 
``use anti-virus software and other malicious software (``malware'') 
prevention tools'' (emphasis added) to ``detect, prevent, deter, and 
mitigate the introduction, exposure, and propagation of malware.''
    Due to the use of the term ``and'', the use of antivirus technology 
in a registered entity's malware prevention program appears to be a 
minimum requirement for[sic]. However, there are other technologies, 
such as whitelisting, that are superior to antivirus in the protection 
of these critical assets, but if antivirus is a minimum requirement, 
this standard appears to present a roadblock to registered entities 
using those newer, superior technologies in malware prevention.
    Question 1. Please explain why registered entities should be at 
risk for noncompliance and penalties for using a malware prevention 
tool other than antivirus.
    Answer. NERC has not processed violations for a case as described. 
The focus during NERC audits is on assessing how the entities are 
handling and mitigating the virus or cyber intrusion risk, and not 
strictly on having both methods. NERC's focus is on securing virus and 
malware no matter the tools.
    Antivirus software is a well-understood protection method, but it 
is only one method to detect, prevent, deter, and mitigate the 
introduction, exposure and propagation of malware. CIP-007-3 R 4 allows 
for and does not prevent the use of additional and alternative methods. 
When used, antivirus technologies should be used in conjunction with 
other methods, such as whitelisting, file integrity checking, and 
computer and network behavior analysis.
    Version 5 of the CIP Standards, currently being finalized, requires 
that entities ``deploy method(s) to deter, detect, or prevent malicious 
code'' and ``mitigate the threat of identified malicious code,'' thus 
allowing flexibility by entities to implement the current anti-virus 
and/or anti-malware paradigm, implement whitelisting, or choose any 
other method so long as it meets the requirement to deter, detect, 
prevent, and mitigate threats posed by malicious code.
     Responses of Gerry Cauley to Questions From Senator Murkowski
    Question 1. A few months ago the White House and the Department of 
Homeland Security staged a mock scenario for Senators featuring a 
cyber-attack on the grid in New York City. I was disappointed to learn 
that neither FERC nor NERC was invited to participate in this exercise, 
particularly since at no time during the briefing did the 
Administration ever inform members that the utility sector is already 
subject to mandatory cyber standards to protect the Bulk Power System 
(BPS). Why was FERC not invited to participate in the Administration's 
grid cyber-attack exercise? How does FERC interact with DHS in the 
cyber arena currently? Is DHS aware of the cybersecurity standards 
currently in place for the BPS?
    Answer. NERC is unaware of the circumstances regarding why FERC was 
not invited to the DHS exercise; NERC is also unaware of FERC's 
interaction with DHS in the cyber arena. NERC was not invited to 
participate in the White House/DHS/Senate briefings and thus could not 
brief Members and staff on the action that Congress took in the Energy 
Policy Act of 2005 to address mandatory standards for cybersecurity for 
the BPS, and how that authority has been implemented.
    DHS is aware that BPS owners and operators are subject to mandatory 
cybersecurity standards. In November 2011, NERC hosted the first-ever 
sector-specific distributed play security exercise, GridEx, which 
involved NERC's mandatory cybersecurity standards. DHS personnel, 
including representatives from the Industrial Control Systems Cyber 
Emergency Response Team and the Office of Infrastructure Protection 
(including the Electricity Sub-sector Specialists), helped plan and 
execute GridEx, and participated in it.
    In addition to awareness of NERC's standards, DHS is also aware of 
Alerts issued by NERC's Electric Sector Information Sharing Advisory 
Council (ES-ISAC). NERC and DHS agreed to have ES-ISAC employees staff 
the National Cybersecurity and Communications Integration Center, where 
the ES-ISAC has access to actionable intelligence, including classified 
contextual information available to appropriately cleared staff within 
the BPS community. NERC also provides anonymous situational awareness 
to DHS analysts to supplement the information DHS received from the 
intelligence community. This effort is crucial to improving the level 
of threat awareness within the industry and improving information 
sharing between government and industry.
    As I mentioned in my testimony, NERC regularly interacts with DHS, 
partnering on many efforts, including several industry task forces 
working to improve security compliance and risk management. 
Specifically, DHS participates in the NERC Critical Infrastructure 
Protection Committee and the Electricity Sub-sector Coordinating 
Council. Additionally, NERC has partnered with DHS for each Cyber Storm 
exercise to educate federal partners on the BPS and industry's response 
to security threats.
    Question 2. Many of the hearing witnesses noted that you simply 
cannot protect an entity from all potential cyber-attacks. Mr. 
Snitchler from the Ohio PUC cautions that while you can try to ``gold-
plate'' or even ``platinum-plate'' a system, the critical 
infrastructure we're trying to protect will become too expensive to 
run. Instead, he suggests we prioritize, using a risk-based approach. 
Please comment on the issue of cybersecurity costs and the suitability 
of using a risk-based approach. Do you agree with Mr. Snitchler that we 
should be protecting ``diamonds like diamonds'' and ``apples like 
apples''? Is the current FERC/NERC process for addressing cyber 
security vulnerabilities risk-based? If not, why not?
    Answer. Since becoming President and CEO of NERC, I have 
prioritized incorporating a risk based approach to reliability. We are 
developing a strong portfolio of standards that address performance, 
risk containment, and competency. We are applying a defense-in-depth 
strategy that has proven successful in managing risks in critical 
sectors, such as nuclear as well as the aerospace industry. I am fully 
confident that this approach will work well in managing risks to the 
reliability of the BPS.
    The NERC CIP Standards have always approached cybersecurity 
protection from a risk management basis. Version 4 of the CIP standards 
(approved by FERC earlier in 2012) established a set of impact-based 
``bright lines'' to remove subjectivity from the process of determining 
what BPS components are deemed ``critical.'' Under this paradigm, 
industry resources are focused on protecting the BPS components that 
have the most impact on reliable operations.
    Version 5 of the CIP Standards will have a three-tier approach for 
the categorization of critical cyber assets. Under Version 5, industry 
resources will still be focused on protecting the components with the 
greatest potential to affect the BPS at the highest levels, while 
recognizing that the remaining components still contribute to reliable 
operations of the BPS, and thus must be appropriately protected.
    Question 3. What are NERC's standard operating procedures once it 
receives credible threat intelligence that may affect the bulk electric 
system?
    Answer. NERC's Electricity Sector Information Sharing and Analysis 
Center (ES-ISAC) has developed different Alerts to inform industry 
about emerging threats. Alerts are different from standards, and can be 
developed and issued very quickly, depending on the urgency of the 
situation.
    Specifically, the ES-ISAC first reviews classified information with 
industry subject matter experts (SME) who hold the appropriate level of 
security clearances. As a part of the vetting process, a preliminary 
saturation and impact assessment determines the relative significance a 
compromise of the targeted technology would have on the BPS. Once NERC 
and the industry SMEs determine how a compromise may occur and the 
potential impact or significance of the compromise, ES-ISAC staff and 
industry SMEs develop a draft Alert that contains specific, actionable 
information that BPS entities can use to establish a defense against 
the threat or help remediate an already existing impact.
    This draft Alert, which should be no more sensitive than ``For 
Official Use Only,'' is then distributed to a larger technical team of 
BPS SMEs called the HYDRA Team. The HYDRA Team is a broad coalition of 
industry volunteers with specialties in fields such as transmission, 
generation, planning, operations, and cybersecurity of industrial 
control systems. Typically, the vendor of the targeted technology is 
also involved in the Alert review, as is the vulnerability researcher 
who discovered the underlying vulnerability in the technology. Members 
of the technical staffs of the DOE, DHS, and the FERC are also members 
of the HYDRA Team. They receive draft Alerts and contribute to making 
final Alerts valuable for the industry.
    The finalized Alert is then sent to both US (including FERC) and 
Canadian governmental authorities for their final review and comment. 
Thereafter, the Director of the ES-ISAC/Chief Cyber Security Officer 
approves the Alert for release to industry. When the Alert is 
distributed, it not only goes to NERC's Registered Entities, but also 
to other Electricity Sub-sector participants. Alerts may also be 
targeted to groups of entities based on their NERC-registered functions 
(e.g., Balancing Authorities, Planning Authorities, Generation Owners, 
etc.). Using this process, NERC has issued an alert in as little as 32 
hours after receiving classified information about a threat.
    Question 4. On Thursday, July 19, 2012, FERC approved an order that 
allows the ERO to fine the Southwestern Power Administration up to 
$19,500 for violating two cybersecurity-related reliability standards 
in July 2011. Please explain the nature of these cybersecurity 
violations. I understand that DOE believes the federal government is 
exempt from such penalties under the Federal Power Act. Please specify 
for the Committee why the federal government is, in fact, subject to 
compliance with the FERC/NERC reliability standards, including 
cybersecurity standards.
    Answer. The Southwestern Power Administration (SWPA) violated NERC 
CIP-004-1 (Cyber Security--Personnel and Training) and CIP-007-1 (Cyber 
Security--Systems Security Management). CIP-004-1 sets out requirements 
for personnel that have authorized cyber access or authorized 
unescorted physical access to Critical Cyber Assets, including 
requirements related to personnel risk assessment, training, and 
security (including cyber security). CIP-007-1 sets out requirements 
related to security systems determined to be Critical Cyber Assets and 
other assets within an ``Electronic Security Perimeter.''
    Agencies and instrumentalities of the federal government that are 
users, owners and operators of the bulk power system (such as the 
Tennessee Valley Authority and the Bonneville Power Administration) are 
subject to compliance with the FERC/NERC Reliability Standards, 
including cybersecurity standards. DOE has recognized that such 
entities are subject to the Reliability Standards, but it has taken the 
position that neither FERC nor NERC may impose financial penalties on 
those entities for violation of the standards.
    By way of background, Section 215(c) of the Federal Power Act 
(FPA), 16 U.S.C. Sec.  824o(c), authorizes FERC to certify and oversee 
an electric reliability organization (ERO) responsible for developing 
and enforcing mandatory Reliability Standards that are applicable to 
all users, owners and operators of the Bulk-Power System (BPS). FERC 
certified NERC as the ERO in 2006,\1\ and has since approved over one 
hundred national Reliability Standards as mandatory and enforceable, 
pursuant to FPA Section 215(d).
---------------------------------------------------------------------------
    \1\ North American Electric Reliability Corp., 116 FERC Sec.  
61,062, order on reh'g and compliance, 117 FERC Sec.  61,126 (2006), 
order on compliance, 118 FERC Sec.  61,190, order on reh'g 119 FERC 
Sec.  61,046 (2007), aff'd sub nom. Alcoa Inc. v. FERC, 564 F.3d 1342 
(D.C. Cir. 2009).
---------------------------------------------------------------------------
    FPA Section 215(b) (1), ``Jurisdiction and applicability,'' 
describes FERC's reliability jurisdiction as follows:

          The Commission shall have jurisdiction . . . over . . . all 
        users, owners and operators of the bulk-power system, including 
        but not limited to the entities described in section 201(f) . . 
        . for purposes of approving reliability standards established 
        under this section and enforcing compliance with [FPA Section 
        215]. All users, owners and operators of the bulk-power system 
        shall comply with reliability standards that take effect under 
        this section.

    Because they are described in FPA Section 201(f), agencies or 
instrumentalities of the United States are expressly included within 
the term ``users, owners, and operators of the bulk-power system'' in 
Section 215 and made subject to FERC's jurisdiction to both approve and 
enforce reliability standards. The requirement in FPA Section 215(b)(1) 
that all users, owners and operators of the bulk-power system must 
comply with reliability standards that take effect under Section 215 
thus applies to Federal entities.
    In orders issued since 2009, FERC has held consistently that a 
federal entity that uses, owns or operates the Bulk-Power System must 
comply with mandatory Reliability Standards.\2\ Most recently, in its 
July 19, 2012 order, FERC found that Section 215 explicitly conveys 
authority to assess a monetary penalty against a federal entity that is 
a user, owner, or operator of the Bulk-Power System for violations of a 
mandatory Reliability Standard.\3\ FERC rejected arguments that the 
grant of enforcement authority under FPA Section 215 is limited by the 
scope of the Commission's general civil penalty authority over federal 
entities, as set out in FPA Section 316A, and instead found that the 
separate grant of penalty authority over federal entities under FPA 
Section 215 is ``explicit and unambiguous.'' FERC found that this 
penalty authority under FPA Section 215(e) applies to both the ERO and 
the Commission.
---------------------------------------------------------------------------
    \2\ North American Electric Reliability Corp., 129 FERC Sec.  
61,033 (2009) (2009 Jurisdictional Order), reh'g denied, 130 FERC Sec.  
61,002 (2010); North American Electric Reliability Corp., 133 FERC 
Sec.  61,214 (2010), reh'g denied, 137 FERC Sec.  61,044 (2011).
    \3\ North American Electric Reliability Corporation, 140 FERC Sec.  
61,048 (2012).
---------------------------------------------------------------------------
       Response of Gerry Cauley to Question From Senator Barrasso
    Question 1. In your testimony, you encourage Congress to 
``facilitate information sharing between the public and private 
sector.'' You recommend ``making more clearances available to industry, 
identifying alternative methods to communicate classified information 
to our Canadian partners, and encouraging increased information sharing 
by US Government departments and agencies with asset-owners.'' Would 
you please expand upon the steps Congress should take to facilitate 
information sharing between the Federal government and industry?
    Answer. The most important action that can be taken to address 
cybersecurity is improving information sharing. Improved information 
sharing depends on a fundamental understanding by government that the 
private sector owners and operators of the BPS need to know as much as 
possible about a threat, as soon as possible, so that they can take the 
appropriate action. The owners and operators of the BPS know their 
systems and the consequences that actions taken in one part of the BPS 
may have for another part. They cannot merely be told that there is a 
threat; they must be provided with sufficient information about the 
threat so that proper mitigation measures can be developed. In NERC's 
experience, this has been difficult for government security 
professionals to understand. As I noted in the hearing, it took more 
than three years to get actionable information from the government on 
the Aurora vulnerability. Once that information became available in a 
form that NERC could share with industry, NERC issued an Alert to 
industry, and industry then began developing mitigation plans.
    Any action Congress can take to make more secret-level clearances 
available to the Electricity Sub-sector would assist in information 
sharing efforts. Individuals from the Electricity Sub-sector should be 
able to access and analyze classified information and share it among 
other cleared partners. In addition, in the instance of a cyber attack, 
these individuals should be assured that they have access to local 
secure centers, such as fusion centers or local Federal Bureau of 
Investigation offices.
    Continued support for NERC's existing cybersecurity efforts, 
including NERC standards and the Electricity Sector Information Sharing 
and Analysis Center (ES-ISAC), the Electric Sector Coordinating Council 
and NERC's grid security exercise and conference, which provide forums 
for improving information concerning cybersecurity among the public and 
private sector, is appreciated. NERC's ES-ISAC is one of the most 
effective tools NERC has to inform industry about emerging 
cybersecurity threats through Alerts. As I mentioned in my testimony, 
the ES-ISAC partners with several industry and government organizations 
to not only share critical cyber information, but to also develop these 
Alerts.
    Also, reflecting the international nature of the BPS, NERC is 
responsible for ensuring the reliability of the BPS within the US and 
Canada. Currently, NERC is unable to share sensitive information 
regarding cyber threats or vulnerabilities with our Canadian partners. 
We are aware that the government has mechanisms in place to facilitate 
government-to-government information sharing at classified levels. 
Further work needs to be done to facilitate information sharing with 
industry officials in Canada, as well.
                                 ______
                                 
   Responses of Joseph McClelland to Questions From Senator Bingaman
    Question 1. You testify that the majority of the Directives that 
FERC issued in Order No 706 have yet to be addressed. Could you 
describe some of the most important of them?
    Answer. First, the Commission directed NERC to develop a process of 
external review and approval of critical asset lists in order to ensure 
that the proper assets were consistently covered by the CIP standards 
under a system that depends on the entities to self-designate their 
equipment. In Order No. 761, the Commission stated that the adoption of 
appropriate, bright line criteria for Critical Asset identification may 
obviate the need for an external review. However, as stated in that 
order, whether this development ultimately eliminates the need for an 
external review process as directed in Order No. 706 will depend on the 
discretion allowed to individual registered entities to self-identify 
and characterize assets or systems for critical infrastructure 
protection to support the nation's bulk-power system. It also will 
depend on whether the bright line criteria generally include adequate 
facilities. Second, Order No. 706 directed the ERO to require immediate 
revocation of access privileges when an employee, contractor or vendor 
no longer performs a function that requires physical or electronic 
access to a critical cyber asset for any reason (including disciplinary 
action, transfer, retirement, or termination).
    Question 2. Some have argued that FERC has the authority to order 
NERC to produce a fairly specific standard. Could you do so, and if you 
did what would be the process then?
    Answer. The Commission can direct NERC to develop a reliability 
standard to address a specific reliability matter. However, the 
Commission cannot ensure that the content of the standard returned to 
it by NERC will adequately respond to the specific reliability matter 
as the Commission may not directly author or modify a reliability 
standard under section 215. Under section 215, reliability standards 
must be developed by the ERO through an open, inclusive, and public 
process. The NERC process is intended to develop consensus on both the 
need for, and the substance of, the proposed standard. Although 
inclusive, the process is relatively slow, open and unpredictable in 
its responsiveness to the Commission's directives.
   Responses of Joseph McClelland to Questions From Senator Murkowski
    Question 1. A few months ago the White House and the Department of 
Homeland Security staged a mock scenario for Senators featuring a 
cyber-attack on the grid in New York City. I was disappointed to learn 
that neither FERC nor NERC was invited to participate in this exercise, 
particularly since at no time during the briefing did the 
Administration ever inform members that the utility sector is already 
subject to mandatory cyber standards to protect the Bulk Power System 
(BPS). Why was FERC not invited to participate in the Administration's 
grid cyber-attack exercise? How does FERC interact with DHS in the 
cyber arena currently? Is DHS aware of the cybersecurity standards 
currently in place for the BPS?
    Answer. I do not know why the Commission was not involved in this 
exercise. That question is best answered by those who organized the 
exercise.
    With respect to the Commission's interaction with DHS, Commission 
staff works closely with the DHS both on an informal basis and through 
formalized processes such as the Industrial Control Systems Cyber 
Emergency Response Team (ICS-CERT), the Cyber Unified Coordination 
Group, and the National Protection and Programs Directorate at DHS. 
Commission staff meets monthly with the Nuclear Regulatory Commission 
(NRC), Federal Bureau of Investigation (FBI), and the Department of 
Energy (DOE) at the Top Secret/ Sensitive Compartmented Information 
level to discuss events and threats. Meetings with ICS-CERT are also 
conducted as required to discuss imminent threats and events that could 
impact the security of the electric grid. The meetings take place so 
the ICS-CERT can provide guidance to entities on how to address these 
issues.
    Question 2. Many of the hearing witnesses noted that you simply 
cannot protect an entity from all potential cyber-attacks. Mr. 
Snitchler from the Ohio PUC cautions that while you can try to ``gold-
plate'' or even ``platinum-plate'' a system, the critical 
infrastructure we're trying to protect will become too expensive to 
run. Instead, he suggests we prioritize, using a risk-based approach. 
Please comment on the issue of cybersecurity costs and the suitability 
of using a risk-based approach. Do you agree with Mr. Snitchler that we 
should be protecting ``diamonds like diamonds'' and ``apples like 
apples''? Is the current FERC/NERC process for addressing cyber 
security vulnerabilities-risk based? If not, why not?
    Answer. In general, the use of a risk-based approach to identify 
assets that are critical to the operation of the Bulk Power System can 
be suitable. The cost of cyber protection must be considered against 
both the effectiveness of the measures and the impact that the 
facilities in-question can have on the reliability of the Bulk Power 
System. However the designation of ``diamonds'' does not just depend 
upon the size or expense of the equipment, but also depends upon the 
connectivity of the equipment, whether it can be compromised and, in 
turn, be used to compromise other equipment that may alone or in 
aggregate successfully compromise the operation of the Bulk Power 
System or the customers it serves.
    The currently applicable CIP standards include a risk-based 
methodology to determine which facilities are ``critical assets and the 
associated critical cyber assets,'' and therefore are subject to the 
requirements of the CIP reliability standards. However these standards 
allow utilities significant discretion to determine which of their 
facilities fit that description. The recently-approved Version 4 CIP 
Reliability Standards, which will go into effect on April 1, 2014, 
replace this risk-based assessment with ``bright line'' criteria. 
Version 4 relies upon the affected entities to self-designate their 
``Critical Cyber Assets''. Only facilities that are self-designated by 
the regulated entities as ``Critical Cyber Assets'' are covered under 
the CIP standards. In order to help guide their decisions, the CIP 
standards identify categories of ``Critical Assets'' as a starting 
point in the process. If the entities have any ``Critical Assets'' 
(i.e., such as generating stations at 1500 MW or above, reactive power 
supplies at 1000 MVAR or above, transmission facilities at 500 kV or 
above, etc.), they are then required to determine if they have any 
``Critical Cyber Assets'' at these facilities and if they decide that 
they do, those facilities will fall under the CIP standards. Entities 
can only designate ``Critical Cyber Assets'' from the ``Critical 
Asset'' list.
    In Order No. 761, the Commission supported the application of the 
tiered-approach in the National Institute of Standards and Technology 
(NIST) Framework. That framework would, among other things, (1) ensure 
that all Cyber Systems associated with the Bulk-Power System, based on 
their function and impact, receive some level of protection; (2) 
customize protection to the mission of the cyber systems subject to 
protection; and (3) apply a tiered approach to security controls that 
specifies the level of protection appropriate for systems based upon 
their importance to the reliable operation of the Bulk-Power System. 
The Commission stated that incorporating these applicable features of 
the NIST Framework into the CIP Reliability Standards would be a 
positive step in improving cyber security for the Bulk-Power System. In 
addition to considering the NIST Framework, the Commission in Order No. 
761 stated that the criteria adopted for the purpose of identifying 
Critical Cyber Assets should include a cyber asset's ``connectivity'' 
and its potential to compromise the reliable operation of the Bulk-
Power System. Therefore, we expect Version 5 to address these issues. 
NERC, in its comments to the CIP Version 4 proceeding, stated that it 
is incorporating into the Version 5 CIP Reliability Standards the NIST 
risk-based approach.
    Question 3. We hear a lot about the potential benefits from smart 
grid systems, including reduced rates and improved reliability. 
However, we're starting to hear more about an unintended consequence 
from smart grid systems--namely that the smart grid's reliance on IT 
systems and networks exposes the electric grid to cybersecurity 
vulnerabilities which could be exploited by attackers. In the 2007 
energy bill, Congress directed NIST to develop smart grid 
interoperability standards that FERC would later adopt. I understand 
that while NIST has developed these standards, FERC has not yet taken 
action because of a lack of consensus on the standards.

          a. The 2009 stimulus bill provided over $4 billion in smart 
        grid funding before these NIST interoperability standards were 
        even developed. In fact, the stimulus bill provided $10 million 
        in funding for NIST to perform the standard development work. 
        What cybersecurity protections were included in the smart grid 
        assets purchased with stimulus money? Doesn't it cost more to 
        implement security after the network is already up and running?

    Answer. I do not know what cyber security protections were included 
in any assets purchased with the stimulus money, since this program was 
administered by the Department of Energy. Generally, it costs more and 
may be less effective to implement security after a network is 
installed.

          b. GAO has previously suggested that FERC monitor industry 
        compliance with NIST's voluntary smart grid standards. Has the 
        Commission done so? If not, why not? What is FERC doing in the 
        smart grid arena with regard to cybersecurity standards?

    Answer. The Commission has not monitored compliance with NIST's 
voluntary smart grid standards. Much of the smart grid involves 
facilities used in local distribution, which are not under the 
Commission's Federal Power Act (FPA) jurisdiction. However, Commission 
staff attends and observes meetings of the NIST Cyber Security Working 
Group, Smart Grid Task Force, and participates in a collaborative with 
the National Association of Regulatory Utility Commissioners concerning 
the smart grid. Commission staff also regularly performs outreach to 
NIST and the Smart Grid Interoperability Panel and is following the 
development of smart grid standards. Commission staff also monitors 
developments of the North American Synchrophasor Initiative (NASPI) 
relative to applicable cyber security standards. Lastly, pursuant to 
its FPA 215 responsibilities Commission staff attend and participate in 
the NERC standards development process--including the CIP standards. 
Commission staff offers guidance that can include information relevant 
to the smart grid.
    Question 4. You testified that because FERC's Federal Power Act 
authority does not extend to local distribution facilities there may be 
some ``significant facilities [that are] vulnerable to the threat of a 
cyber or physical attack.'' Mr. Snitchler's testimony included a 
snapshot of state actions, including those undertaken in New York, that 
demonstrate a proactive stance on cyber security. Are there particular 
cities or local facilities where FERC is concerned no action has been 
taken by your state counterparts to protect their distribution system 
from cyber incursions?
    Answer. I cannot identify specific cities or local facilities where 
no action has been taken by the states but am aware of the types of 
risks which such facilities might be facing.
    Question 5. Throughout your testimony you note your frustration 
with the time it takes for NERC and its stakeholder process to develop 
these cybersecurity standards. However, NERC filed its enhanced 
Critical Cyber Asset Identification Standard (CIP-002 version 4) with 
the Commission in February 2011 and it took FERC a full 14 months to 
approve that revision. Why is it taking so long for the Commission to 
act on such filings and what can the Commission do by way of 
improvement?
    Answer. In general, the Commission could shorten the time to 
process the NERC filings using an Order versus a Notice of Proposed 
Rulemaking (NOPR). The NOPR process requires the Commission to propose 
Commission action on the standard. The Commission must then solicit 
comments on the NOPR and issue a Final Rule on the proposed standard. 
Although longer, the NOPR process allows for open communication between 
the Commission and the commenters including opportunities for meetings 
between Commission members and individual stakeholders and industry 
interest groups on the Commission's proposed dispositions. Because the 
Commission may not directly author or modify a reliability standard 
under section 215, the NOPR process is the most effective way to detail 
the Commission's concerns regarding a proposed reliability standard 
before issuing a final rule regarding that standard. In Order No. 693, 
the Commission stated that it anticipates that it will address most, if 
not all, new Reliability Standards proposed by NERC through the more 
open rulemaking process which has been strongly preferred by industry. 
Additionally, the CIP cyber security standards are extremely technical 
and it takes both the Commission time to appropriately analyze them and 
the industry time to prepare its comments to the Commission proposed 
rule. These procedures, which ensure the Commission has a sufficient 
record on which to act on the technical aspects of the cyber security 
standards, take time to implement.
    Specifically with respect to the Version 4 standards, on February 
10, 2011, NERC filed a petition seeking Commission approval of the 
Version 4 CIP Reliability Standards. On April 12, 2011, Commission 
staff issued a data request to NERC in order to receive supplemental 
information necessary to understand the filing because the filing 
lacked information necessary for the Commission to process them. On 
April 13, 2011, NERC requested an extension of time to respond to a 
portion of the Commission's April 12, 2011 data request. The Commission 
granted this request, and NERC provided the information on May 27, 2011 
and June 30, 2011. The Commission issued the Notice of Proposed 
Rulemaking September 15, 2011 and allowed 60 days from publication in 
the Federal Register for the industry to comment, or November 21, 2011. 
The Commission then issued the final rule on April 19, 2012, 150 days 
later, after reviewing comments from 28 entities and reply comments 
from NERC.
    Question 6. The electricity sector has told us that what it needs 
in the event of a cybersecurity emergency is timely, specific, and 
actionable information. Does FERC agree? What do the words ``timely, 
specific and actionable'' mean to FERC?
    Answer. I agree with this statement. I believe that ``timely, 
specific and actionable'' means that, to prevent a significant risk of 
disruption to the grid, the information should allow mitigating action 
to be taken before a cyber security event. Because cyber events have 
the ability to compromise multiple systems simultaneously, both 
prevention and quick intervention are keys. Sufficient and accurate 
information about both the vulnerability and the targeted systems must 
be available to develop specific details regarding how to defend, 
mitigate, or eradicate a cyber attack as quickly as possible, which may 
require pre-emptive mandatory actions in order to be effective. 
Specific and actionable means that the information must be detailed in 
a manner for the owner/operators to be able to quickly apply the 
mitigations to the equipment allowing for prevention or mitigation of a 
cyber attack.
    Question 7. On Thursday, July 19, 2012, FERC approved an order that 
allows the ERO to fine the Southwestern Power Administration up to 
$19,500 for violating two cybersecurity-related reliability standards 
in July 2011. Please explain the nature of these cybersecurity 
violations. I understand that DOE believes the federal government is 
exempt from such penalties under the Federal Power Act. Please specify 
for the Committee why the federal government is, in fact, subject to 
compliance with the FERC/NERC reliability standards, including 
cybersecurity standards.
    Answer. That order is subject to rehearing, so I cannot comment at 
this time on the issues presented in the proceeding. For your 
convenience, attached is the Commission's order in that proceeding.
   Responses of Joseph McClelland to Questions From Senator Barrasso
    In your testimony, you state that ``[t]he Commission is committed 
to protecting the reliability of the nation's bulk electric system.'' 
However, I am concerned that the Commission, under Chairman 
Wellinghoff, has downplayed the cumulative impact of EPA's new and 
proposed regulations on electric reliability. On May 17, 2011, Senator 
Murkowski sent a letter to Chairman Wellinghoff inquiring about the 
impact of EPA's regulations on reliability. Commissioner Norris has 
testified that he had three conversations last year with Heather 
Zichal, Deputy Assistant to the President for Energy and Climate Change 
Policy, ``regarding FERC staff's review of EPA regulations.'' 
Commissioner Norris testified that Ms. Zichal contacted him on two 
occasions--in late June or July of 2011--``for information on the 
timing of the FERC studies on the reliability impact of the pending EPA 
Rules and the timing of FERC responses to Sen. Murkowski's questions to 
the Commissioners.'' Notably, Chairman Wellinghoff and Commissioners 
Norris and LaFleur did not respond to Senator Murkowski until August 1, 
2011--more than two months after receiving the Senator's letter. In 
their response, the Chairman and Commissioners Norris and LaFleur 
revealed that your staff had--after almost one year--completed only an 
``informal assessment'' of the impact of EPA's regulations on 
reliability. Your staff's analysis found that as much as 41 GW of coal-
fired generating capacity was ``very likely'' to retire, with another 
40 GW ``likely'' to retire, on account of EPA's regulations. On 
September 14, 2011, Chairman Wellinghoff testified before the House 
Subcommittee on Energy and Power and characterized your staff's 
analysis as ``back-of-the-envelope.'' However, your staff's analysis, 
as far as I can tell, is turning out to be a reasonably accurate 
prediction of the retirements. I am concerned that it took an inquiry 
from this Committee to bring your staff's analysis to light. I am also 
concerned about the timing of that analysis.
    Question 1. Have you or any member of your staff had any direct or 
indirect contacts or exchanges, in person, by telephone, electronic 
mail, or otherwise (e.g., together with or in the company of the 
Chairman or any Commissioner(s)), with Ms. Zichal or anyone in the 
Executive Office of the President (EOP) about the potential impact of 
EPA's regulations on electric reliability or on any other subject 
(e.g., the ``informal assessment'' as Chairman Wellinghoff used the 
term in his correspondence with Senator Murkowski, or ``FERC staff's 
review'' or ``FERC studies'' as Commissioner Norris used the terms in 
his testimony)? If so, please list the dates the contacts or exchanges 
took place and provide the names and titles of the individuals involved 
in these contacts or exchanges.
    Answer. To the best of my knowledge, neither I nor my staff has had 
any direct or indirect contacts with Ms. Zichal or anyone in the 
Executive Office of the President on these issues, except as noted in 
the Chairman's response to Senator Murkowski's May 17, 2011 letter.
    Question 2. What was the purpose and the subject matter of the 
contact(s) or exchange(s) you have identified in question 1?
    Question 3. Have you or any member of your staff advised or 
provided any information to the Chairman or any of the Commissioners in 
connection with any contact or exchange (to include, as in question 1 
above, in person, by telephone, electronic mail, or otherwise) that the 
Chairman or any Commissioner may have had with Ms. Zichal or others in 
the EOP? If so, (a) what was the purpose and the subject matter of the 
advice or information you or your staff gave to the Chairman or 
Commissioner(s) in connection with contacts or exchanges with Ms. 
Zichal or others in the EOP; and (b) please list the dates the contacts 
or exchanges took place and provide the names and titles of the 
individuals involved in these contacts or exchanges.
    Answer. No
                                 ______
                                 
    Response of Todd A. Snitchler to Question From Senator Bingaman
    Question 1. Mr. Wilshusen has recommended that FERC coordinate with 
the states and other nonjurisdictional entities (such as Coops or 
munis) to evaluate the extent to which utilities are complying with 
voluntary standards and to develop strategies for addressing gaps in 
compliance. Does that sound like a recommendation that you would 
welcome? Would it work, given the splits in jurisdiction, differences 
in state laws and regulations and the fact that many entities are 
jurisdictional neither at the state or federal level?
    Answer. Recognition must be given that voluntary standards are, 
indeed, voluntary. By requiring utilities to develop strategies for 
addressing ``gaps in compliance'', these ``voluntary'' standards then 
become ones which are mandatory. I do not believe we are all (FERC, 
states, utilities) in agreement with respect to mandatory standards or 
which standards, if any, ought to be mandatory. However, I believe that 
there could be benefits to having increased coordination between the 
states, non-jurisdictional entities, jurisdictional utilities, and the 
federal government in addition to the existing FPA Sec. 215 process. A 
collective meeting of the parties would be useful in sorting out and 
resolving these issues.
    Response of Todd A. Snitchler to Question From Senator Murkowski
    Question 1. You note that the Ohio PUC has worked closely with the 
Wright Patterson Air Force Base. What can you tell us about your 
state's efforts in working with the military?
    Answer. The Public Utilities Commission of Ohio has met with Wright 
Patterson Air Force Base (WPAFB) representatives on a variety of topics 
and issues over the years. Our staff addressed WPAFB representatives on 
energy assurance issues back in 2009. At that time, the PUCO encouraged 
WPAFB personnel to engage in meaningful discussions with their local 
electric utility regarding the specific needs and concerns for base 
operations, enhanced reliability requirements, and mitigating threats 
to these enhanced reliability requirements (including generation/
supply, distribution/delivery, and system security--physical as well as 
cyber). Also at that time, the PUCO offered to facilitate those 
discussions, but was assured that appropriate base personnel would work 
directly with the appropriate utility personnel on these issues. 
Subsequently, the PUCO extended an invitation to WPAFB representatives 
to participate in Ohio's Energy Assurance tabletop exercise conducted 
in June 2011; a major component of the event featured a cybersecurity 
panel discussion with representatives from: the U.S. Department of 
Energy's Cybersecurity for Energy Delivery Systems (CEDS) program; the 
Supervisory Special Agents for the Cyber Squads in the Cincinnati and 
Cleveland Divisions of the U.S. Federal Bureau of Investigation; a 
Cyber Security Advisor from the U.S. Department of Homeland Security's 
National Cyber Security Division; the two Protective Security Advisors 
from the U.S. Department of Homeland Security's Office of 
Infrastructure Protection which serve the State of Ohio; and Ohio's 
Homeland Security Advisor. Additionally, the PUCO met with 
representatives from the electric utility serving WPAFB as early as 
2009 to discuss the utility's cybersecurity program and posture.
    The PUCO also was instrumental in working with the U.S. Air Force 
at WPAFB to eliminate our nation's, and especially our military's, 
dependence on foreign oil. Research into synthetic fuel from domestic 
coal, shale, biomass, and other sources using the Fischer-Tropsch 
process in order to reduce our dependence on foreign oil and achieve 
greater price stability has resulted in the creation of the Assured 
Aerospace Fuels Research Facility (AAFRF). This lab was created to 
perform essential research and development of these coal-to liquid, 
biomass-to-liquid, and shale-to-liquid synthetic fuel technologies. It 
serves as an excellent research tool for professional researchers from 
government, academia, and industry as well as training grounds for 
creating skilled operators, technicians, and researchers for future 
commercial facilities.
   Responses of Todd A. Snitchler to Questions From Senator Barrasso
    Question 1. In your testimony, you state that ``one-size solutions 
for cybersecurity may not be the most effective means to mitigate and 
reduce known vulnerabilities.'' Would you expand upon your comments for 
the Committee?
    Answer. Broad-based principles regarding good cybersecurity 
practices may be more appropriate for utility applications. Industrial 
Control Systems (ICS) and Supervisory Control And Data Acquisition 
Systems (SCADA) tend to be very specialized equipment monitoring and 
controlling extremely complex networks. What may be considered a best-
practices approach for one control system may not function as a best-
practices approach for a different control system. The existing 
differences in approaching cybersecurity utilized by the utilities and 
also the RTOs actually has a positive effect in that an attack on one 
utility's system will not necessarily bring down all systems because 
each has its own method of ensuring their cybersecurity. By allowing 
disparate approaches to solving the cybersecurity issue, while 
establishing the broad based, best practices, we potentially strengthen 
defenses against attacks to the grid.
    Question 2. In your testimony, you state that ``smart grid 
[technology] fundamentally makes the electric system more secure.'' 
However, you also say that ``this technology brings with it new 
vulnerabilities. . .which should be taken extremely seriously.'' Would 
you expand upon the vulnerabilities that smart grid technology brings 
to our electric grid?
    Answer. The ``Smart Grid'' too often is defined as being synonymous 
with ``smart meters'' or advanced metering infrastructure (AMI). Other 
important portions of the Smart Grid often overlooked include 
synchrophasors, protective relays, reclosers, and substation 
automation, among others. These components improve fault-detection 
capabilities and enable self-healing of the electricity grid. Taken as 
a whole, these technologies do make the electric system more secure and 
more reliable. The additional vulnerabilities are introduced by 
converting previously one-directional flows of power and information to 
become bi-directional. As additional points of data collection and 
gathering are introduced, so, too, are there additional points where 
hackers or other non-native data sources may introduce false 
information feeds into the network in an attempt to cause disruptions 
or system actions undesirable to the system operators. Finally, each 
new potential access point creates a remote source of entry to the 
system. It is essential to security protocols that proper backstopping 
from those potential entry points ensure that remote access is denied 
and the system is able to lock out or compartmentalize the access 
points to ensure that access, if secured, can be isolated and prevent 
substantial harm to the system.
    Question 3. In your testimony, you explain that state regulators 
and industry ``are unable to provide the. . .protection necessary to 
help secure our nation's critical infrastructure if the relevant 
Federal agencies do not provide actionable information to address 
imminent threats.'' You go on to say that ``asset owners who provide 
information about their systems to Federal agencies in the spirit of 
cooperation. . .never receive truly meaningful, actionable, timely 
information in return.''

          a. Do you know why the Federal government is not sharing this 
        information with state regulators and industry?

    Answer. An often-cited answer is lack of security clearances in 
order to share specific threat information with state regulators or 
industry. This is understandable for specific threat information. 
Present practice provides monthly or intermittent threat briefings to 
the electricity sector, yet such threat information is often too stale 
or so non-specific as to be un-actionable. Surely an opportunity exists 
to provide more timely or actionable information without disclosing 
classified information. Addressing this fundamental problem would be a 
tremendous help to state regulators and, I expect, to the electricity 
industry. For instance, in the case of the ``Aurora'' situation, the 
federal government and its regulators in essence told the electric 
utility sector, ``we have a secret problem on our hands and we can't 
tell you what it is. . . .now go fix it.'' In this specific case, the 
government knew of a vulnerability (they created it in a lab), and 
wanted that vulnerability addressed yet would not or could not disclose 
that information at that time. There must be a way for the federal 
government to provide such actionable intelligence in a timely manner 
so that those that need to take action know what action to take before 
the vulnerability becomes a threat and a threat becomes a tragedy.

          b. Do state regulators and industry lack the security 
        clearances necessary to obtain this information?

    Answer. A lack of security clearances by regulators and utilities 
often is cited as the primary impediment to sharing of information by 
the federal government. However, granting additional regulatory 
authority to FERC or another federal agency does nothing to change that 
fact. Therefore, it would appear that it might be worth some time 
devising a means for the federal government to share relevant, 
actionable, and timely information with state regulators and utilities 
without divulging the methods or sources by which that information has 
been obtained. Additionally, the federal agencies responsible for 
providing security clearances should establish a consultative process 
with those in the electricity sector (state government and industry) to 
identify to whom or to which positions within the industry and/or state 
government ought to be provided an opportunity to gain the necessary 
clearance and at what level. The agencies should then be instructed to 
establish a procedure to thoroughly review and process these requests. 
In order to secure timely transfer of information, select members of 
state commissions and/or utilities should be considered for security 
approval and permitted access to information critical to maintenance 
and protection of the grid.
    Question 4. In your testimony, you state that ``our utilities can 
provide a `gold-plated' or even a `platinum-plated' system which is 
ultra-cyber secure.'' However, you go on to ask ``how much more do we 
want a kilowatt hour of electricity to cost?'' Would you discuss the 
potential impact of new cyber security investments on ratepayers?
    Answer. It is difficult to assess a financial cost of cybersecurity 
investments imposed by a federal regulatory agency not yet granted the 
authority to order such investments. It also is difficult to ascertain 
what cybersecurity requirements might be imposed by such a scheme. Yet, 
nothing is too expensive for one who doesn't have to pay the bill.
    My point is this: there are risks these businesses must manage 
everyday in running their utility systems. Cybersecurity is one more of 
those risks that must be managed. There is a definite role for the 
federal and state governments to assist these critical infrastructures 
in securing their networks. But, as stated above, a best-practices 
approach for one utility, when applied to another utility, may not have 
the same positive impact on that second utility's cybersecurity 
posture. In other words, what may be prudent and necessary 
cybersecurity infrastructure expenditures for a utility system in 
Washington, DC, which houses much of our federal government, may not be 
appropriate in Houston, Texas, which houses petroleum refining. And 
neither of the appropriate cybersecurity expenditures in those two 
instances may be prudent to a utility serving Pleasantville, Ohio. The 
opportunity exists for the federal and state governments to ensure 
appropriate cost recovery for necessary cybersecurity remediations or 
enhancements. Undoubtedly, these utility control systems must become 
more secure and resilient; but most beneficial would be federal 
guidance to the electricity sector and state regulatory bodies that 
would assist us in determining how to best direct scarce resources in 
the most cost-effective appropriate fashion to be directed against the 
most imminent threats and against the likely vulnerabilities to the 
electricity sector.
    In the end, we cannot, and we should not, expend resources on every 
known vulnerability: it would just be too expensive. For instance, to 
use the analogy of physical security, we could place 24-hour manned 
guardhouses at the base of each major electric transmission tower in 
order to prevent the vulnerability of a terrorist bringing down the 
grid with the destruction of multiple towers in several key locations. 
However this would be a very expensive solution for a low probability 
vulnerability. We must address the cybersecurity threats and 
vulnerabilities just as we address the physical security threats and 
vulnerabilities to our nation's infrastructure.
    Question 5. At what point do the costs and vulnerabilities 
associated with smart grid technology outweigh the value for 
ratepayers?
    Answer. There is no simple answer to the question posed here. The 
experience of power outages brought on by storm activity is 
fundamentally no different than a cyber attack that may disable the 
grid. A cost-benefit analysis must be performed--either explicitly or 
implicitly--to ascertain if the costs associated with the risk are 
worth the benefit achieved by implementation of the grid.
    The self-healing ability of the smart grid, shorter outage times 
and increased reliability are all substantial benefits as a result of 
the use of the smart grid. Further, in restructured markets customers 
have greater access to options to control their utility usage and 
control their costs, as well as the increasingly varied pricing options 
available are all dependent on the utilization of the smart grid tools.
                                 ______
                                 
                          Government Accountability Office,
                                    Washington, DC, August 2, 2012.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate.
Subject: Responses to Questions for the Record; Hearing on Status of 
Action Taken to Ensure that the Electric Grid Is Protected from Cyber 
Attacks

    This letter responds to your July 26, 2012, request that we reply 
to additional questions arising from the Committee's July 17, 2012, 
hearing on the status of actions to protect the electricity grid from 
cyber attacks. At the hearing, we discussed (1) cyber threats facing 
cyber-reliant critical infrastructures, which include the electricity 
grid, and (2) actions taken and challenges remaining to secure the grid 
against cyber attacks.\1\ The enclosure provides our responses, which 
are primarily based on previously issued products that were performed 
in accordance with generally accepted government auditing standards.\2\
---------------------------------------------------------------------------
    \1\ GAO, Cybersecurity: Challenges in Securing the Electricity 
Grid, GAO-12-926T (Washington, D.C.: July 17, 2012).
    \2\ Including: GAO-12-926T; Critical Infrastructure Protection: 
Cybersecurity Guidance Is Available, but More Can Be Done to Promote 
Its Use, GAO-12-92 (Washington, D.C.: Dec. 9, 2011); Electricity Grid 
Modernization: Progress Being Made on Cybersecurity Guidelines, but Key 
Challenges Remain to be Addressed, GAO-11-117 (Washington, D.C.: Jan. 
12, 2011); Critical Infrastructure Protection: Multiple Efforts to 
Secure Control Systems Are Under Way, but Challenges Remain, GAO-07-
1036 (Washington, D.C.: Sept. 10, 2007); and Information Security: TVA 
Needs to Address Weaknesses in Control Systems and Networks, GAO-08-526 
(Washington, D.C.: May 21, 2008).
---------------------------------------------------------------------------
    Should you or your office have any questions on the matters 
discussed in this letter, please contact me at (202) 512-6244 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cbbca2a7b8a3beb8aea5ac8bacaaa4e5aca4bd">[email&#160;protected]</a> or David C. Trimble, Director, Natural Resources and 
Environment, at (202) 512-3841 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6410160d09060801002403050b4a030b124a">[email&#160;protected]</a>
            Sincerely yours,
                                      Gregory C. Wilshusen,
                             Director, Information Security Issues.
[Enclosure.]
              Responses to Questions From Senator Bingaman
    Question 1. You recommend that FERC develop an approach to 
coordinate with state regulators and entities that are not subject to 
state regulation to evaluate the extent to which utilities and 
manufacturers are following voluntary standards, and to develop 
strategies for addressing gaps in compliance with standards. What 
encourages you to believe that efforts like this could be successful?
    Answer. Electricity industry regulation is fragmented, with 
oversight responsibility divided among various regulators at the 
federal, state, and local levels. Such regulatory fragmentation can 
make it difficult for individual regulators to develop an industry-wide 
understanding of whether utilities and manufacturers are following 
voluntary standards. This is due to the large number of regulators in 
the industry-the Federal Energy Regulatory Commission (FERC), 
electricity regulators in 50 states and the District of Columbia, and 
regulators of thousands of cooperative and municipal utilities-and 
their potentially limited visibility over parts of the grid outside 
their jurisdiction. This complex reality of electricity regulation led 
us to believe that a coordinated approach to monitoring whether 
utilities and manufacturers follow voluntary standards would be more 
successful than an approach in which one or more regulators attempted 
such an assessment on its own. We are encouraged by the fact that FERC 
has previously worked with state regulators and groups representing 
entities not subject to state regulation on a range of issues. For 
example, we reported that FERC and the state commissions had already 
begun initial collaboration on smart grid and demand-response 
issues,\3\ and these and other entities have also collaborated on other 
topics, including issues related to Regional Transmission Organizations 
and electric reliability and environmental regulations.
---------------------------------------------------------------------------
    \3\ GAO-11-117.
---------------------------------------------------------------------------
    Question 2. I think that you are primarily talking about the NIST 
smart grid standards that FERC did not adopt because they did not find 
sufficient consensus in the industry to do so. Do you believe that FERC 
has the authority to adopt those standards without such consensus?
    Answer. Section 1305(d) of the Energy Independence and Security Act 
(EISA)\4\ provides that any time after the National Institute of 
Standards and Technology's (NIST) work has led to sufficient consensus 
in FERC's judgment, FERC shall institute a rulemaking proceeding to 
adopt such standards and protocols as may be necessary to ensure smart-
grid functionality and interoperability. In July 2011, FERC declined to 
institute a rulemaking procedure to adopt initial smart grid standards 
identified as a part of the NIST efforts, finding that there was not 
sufficient consensus to do so. EISA does not give FERC authority to 
adopt the standards in the absence of a determination by FERC that 
sufficient consensus has been achieved.
---------------------------------------------------------------------------
    \4\ EISA Sec.  1305(d), Pub. L. No. 110-140, Sec.  1305(d), 121 
Stat. 1492, 1788 (Dec. 19, 2007).
---------------------------------------------------------------------------
    As noted in our testimony statement, smart grid standards 
identified through the NIST-led process outlined under EISA are 
voluntary unless regulators use other authorities to indirectly compel 
utilities and manufacturers to follow them. In this regard, FERC's 
authority over the rates, terms, and conditions of transmission and 
wholesale sales in interstate commerce and its responsibility for 
reliability standards for the bulk-power system may be relevant. For 
instance, to the extent that smart grid interoperability and 
cybersecurity standards are deemed necessary by FERC to ensure the 
reliability of the bulk power system, these standards could be 
considered through reliability-based authority provided under the 
Federal Power Act.\5\ Under this authority, the North American Electric 
Reliability Corporation (NERC) can develop standards to protect the 
reliability of the bulk power system, or be requested by FERC to do so. 
If approved, such standards would be considered mandatory and 
enforceable by both NERC and FERC. However, the FERC Chairman has 
described limitations on FERC's reliability jurisdiction in the context 
of securing smart grid systems.\6\
---------------------------------------------------------------------------
    \5\ See Sec. 215 of the Federal Power Act, 16 U.S.C. Sec.  824o.
    \6\ Letters from the FERC Chairman to Chairman Inouye and Ranking 
Member Cochran and to Chairman Rogers and Ranking Member Dicks on 
actions taken in response to GAO-11-117 (Feb. 14, 2012).
---------------------------------------------------------------------------
             Responses to Questions From Senator Murkowski
    Question 1. Many of the hearing witnesses noted that you simply 
cannot protect an entity from all potential cyber-attacks. Mr. 
Snitchler from the Ohio PUC cautions that while you can try to ``gold-
plate'' or even ``platinum-plate'' a system, the critical 
infrastructure we're trying to protect will become too expensive to 
run. Instead, he suggests we prioritize, using a risk-based approach. 
Please comment on the issue of cybersecurity costs and the suitability 
of using a risk-based approach. Do you agree with Mr. Snitchler that we 
should be protecting ``diamonds like diamonds'' and ``apples like 
apples''?
    Answer. We have reported on the importance of using a risk-based 
approach for securing critical infrastructures, including control 
systems.\7\ Risk management has received widespread support within and 
outside government as a tool that can help set priorities on how to 
protect critical infrastructures.\8\ Security controls identified 
through a risk management process should be cost-effective and reduce 
risk to an acceptable level. In making decisions about risks associated 
with the electricity grid, other sectors' reliance on electricity 
should be an important consideration.\9\ Due to these 
interdependencies, the consequences of an attack on the electricity 
grid could cascade across many sectors, impacting our national economy 
and security and the health and well-being of citizens.
---------------------------------------------------------------------------
    \7\ See GAO, Risk Management: Further Refinements Needed to Assess 
Risks and Prioritize Protective Measures at Ports and Other Critical 
Infrastructure, GAO-06-91 (Washington, D.C.: Dec. 15, 2005).
    \8\ Risk is the probability that a particular threat-source will 
exercise (accidentally trigger or intentionally exploit) a particular 
information system vulnerability. Risk management is the process of 
identifying risk, assessing risk, and taking steps to reduce risk to an 
acceptable level.
    \9\ Federal policy established 18 critical infrastructure sectors, 
including the energy sector, which has two subsectors for oil and gas 
and for electricity. Other sectors include: banking and finance; 
chemical; commercial facilities; communications; critical 
manufacturing; dams; defense industrial base; emergency services; food 
and agriculture; government facilities; health care and public health; 
information technology; national monuments and icons; nuclear reactors, 
materials, and waste; postal and shipping; transportation systems; and 
water.
---------------------------------------------------------------------------
    In relation to the need for risk-based approaches, we testified 
that, in May 2012, the Department of Energy released the Electricity 
Subsector Cybersecurity Risk Management Process.\10\ The guideline is 
intended to ensure that cybersecurity risks for the electric grid are 
addressed at the organization, mission or business process, and 
information-system levels. We have not evaluated this guide.
---------------------------------------------------------------------------
    \10\ U.S. Department of Energy, Electricity Subsector Cybersecurity 
Risk Management Process, DOE/OE-0003 (Washington, D.C.: May 2012).
---------------------------------------------------------------------------
    Question 2. We hear a lot about the potential benefits from smart 
grid systems, including reduced rates and improved reliability. 
However, we're starting to hear more about an unintended consequence 
from smart grid systems-namely that the smart grid's reliance on IT 
systems and networks exposes the electric grid to cybersecurity 
vulnerabilities which could be exploited by attackers. In the 2007 
energy bill, Congress directed NIST to develop smart grid 
interoperability standards that FERC would later adopt. I understand 
that while NIST has developed these standards, FERC has not yet taken 
action because of a lack of consensus on the standards.
    The 2009 stimulus bill provided over $4 billion in smart grid 
funding before these NIST interoperability standards were even 
developed. In fact, the stimulus bill provided $10 million in funding 
for NIST to perform the standard development work. What cybersecurity 
protections were included in the smart grid assets purchased with 
stimulus money? Doesn't it cost more to implement security after the 
network is already up and running?
    Answer. We have not conducted the work necessary to answer the 
question regarding what cybersecurity protections were included in the 
smart grid assets purchased with stimulus money. However, with respect 
to the Smart Grid Investment Grant program that received additional 
funds under the American Recovery and Reinvestment Act of 2009, the 
Department of Energy Inspector General found that three of the five 
cybersecurity plans (required to be submitted by grantees) that it 
reviewed were incomplete, and did not always sufficiently describe 
security controls and how they were implemented.\11\ While this finding 
cannot be projected across all such grants, it indicates a risk that 
grantors and grantees were not adequately considering security prior to 
the issuance of grants.
---------------------------------------------------------------------------
    \11\ U.S. Department of Energy, Office of the Inspector General, 
Office of Audits and Inspections, Audit Report: The Department's 
Management of the Smart Grid Investment Grant Program, OAS-RA-12-04 
(Washington, D.C.: January 20, 2012).
---------------------------------------------------------------------------
    Generally, implementing information security features after the 
technology is operating is more difficult and more costly than is 
designing and developing the technology with security in mind.
              Responses to Questions From Senator Barrasso
    Question 1. The President's stimulus bill provided about $3.5 
billion for the Smart Grid Investment Grant program. In January of this 
year, the Department of Energy's Inspector General issued a report 
about this program. The Inspector General stated that DOE ``approved 
cyber security plans for Smart Grid projects even though some of the 
plans contained shortcomings.'' The Inspector General also stated that 
DOE ``was so focused on quickly disbursing [stimulus] funds that it had 
not ensured [its] personnel received adequate grants management 
training.'' In the Department's rush to deploy smart grid technology, 
has it compromised the security of our nation's electric grid?
    Answer. We have not examined the cybersecurity aspects of the smart 
grid technology deployed through DOE's Smart Grid Investment Grant 
program and thus cannot comment on its impact to the security of the 
nation's electric grid.
    Question 2. Would you please estimate how much it will cost to 
secure the smart grid systems that have been deployed as a result of 
stimulus funding?
    Answer. We have not conducted the work necessary to answer this 
question.
    Question 3. Who is likely to bear the costs identified in question 
2? Will it be asset-owners? Will it be ratepayers? Will it be Federal 
taxpayers?
    Answer. As noted above, we have not conducted the work necessary to 
estimate how much it will cost to secure smart grid systems deployed as 
a result of stimulus funding. As noted in previous questions, some 
federal taxpayer money is being spent on smart grid systems under the 
Smart Grid Investment Grant Program. However, it is unlikely that 
federal taxpayers would be responsible for the costs associated with 
additional activities to secure these smart grid systems unless 
additional funds were designated by Congress for that purpose.
    In general, however, smart grid investments-like other electricity 
investments made by utilities-may be paid for in one of a number of 
ways. The costs of investments in electricity systems may be passed on 
to ratepayers if they are approved by the relevant regulator according 
to that regulator's standards for rate recovery. In cases where an 
investment is not approved by the relevant regulator, the owners of the 
asset may have to bear the cost of the investment.





</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
